No. 20-___
IN THE

Supreme Court of the United States
————
SAMIR KHOURY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
CHARLES S. LEEPER
Counsel of Record
MARK D. TATICCHI
FAEGRE DRINKER BIDDLE
& REATH LLP
1500 K Street, N.W.
Washington, D.C. 20005
(202) 230-5371
charles.leeper@
faegredrinker.com
Counsel for Petitioner
December 7, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Whether a Court of Appeals may review, on petition
for a writ of mandamus, the denial of a criminal
defendant’s motion to dismiss the indictment on
speedy-trial grounds, or whether, as the Fifth Circuit
held below, the ultimate availability of post-judgment
appellate review categorically bars mandamus relief—
even where, as here, the District Court concludes that
a criminal defendant has suffered substantial, actual
prejudice as a result of post-indictment delay in
bringing him to trial.

(i)

ii
PARTIES TO THE PROCEEDING
Petitioner Samir Khoury was the defendant in the
District Court and the mandamus petitioner in the
Fifth Circuit.
Respondent United States of America was the
plaintiff in the District Court and the respondent in
the Fifth Circuit.
STATEMENT OF RELATED CASES


United States of America v. Samir Khoury,
No. 20-20126, United States Court of
Appeals for the Fifth Circuit. Judgment
entered May 12, 2020.



United States of America v. Samir Khoury,
No. 08-CR-0763, United States District
Court for the Southern District of Texas.
No judgment entered; orders under review
entered December 6, 2019, and February
24, 2020.



United States of America v. Samir Khoury,
No. 17-MC-2553, United States District
Court for the Southern District of Texas.
No judgment entered.



Sealed Appellee 1 v. Sealed Appellant 1,
No. 15-98003, United States Court of
Appeals for the Fifth Circuit. Judgment
entered May 20, 2015.



United States of America v. Samir Khoury,
No. 14-MC-2884, United States District
Court for the Southern District of Texas.
Judgment entered February 19, 2015.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING ....................

ii

STATEMENT OF RELATED CASES ................

ii

TABLE OF AUTHORITIES ................................

viii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED ......

1

INTRODUCTION ................................................

2

STATEMENT OF THE CASE ............................

3

A. Legal Framework ......................................

3

1. The Speedy-Trial Clause .....................

3

2. Pretrial Appellate Review of SpeedyTrial Determinations...........................

5

3. The Writ of Mandamus .......................

6

B. Factual and Procedural History ...............

7

1. Samir Khoury ......................................

7

2. The Government’s Smearing of Mr.
Khoury .................................................

7

3. The Government’s Charging and
“Pursuit” of Mr. Khoury ......................

9

4. The First Motion to Unseal and
Dismiss.................................................

10

5. August 2015 Briggs Action .................

10

(iii)

iv
TABLE OF CONTENTS—Continued
Page
6. Mr. Khoury’s Second Motion to
Unseal and Dismiss .............................

11

7. Appellate and Mandamus Review in
the Fifth Circuit...................................

14

REASONS FOR GRANTING THE PETITION ....

16

I. THE FIFTH CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENTS
GOVERNING
THE
ISSUANCE OF MANDAMUS RELIEF ...

16

A. The Fifth Circuit’s Bright-Line Rule
Violates This Court’s Requirement of
a Case-Specific Mandamus Analysis ..

16

B. The Fifth Circuit’s Decision Dramatically Restricts the Availability of
Mandamus Relief.................................

20

II. THIS CASE IS AN IDEAL VEHICLE
BECAUSE MR. KHOURY SATISFIES
ALL REMAINING REQUIREMENTS
FOR MANDAMUS RELIEF .....................

23

CONCLUSION ....................................................

31

APPENDIX
APPENDIX A: ORDER, Court of Appeals for
the Fifth Circuit (May 12, 2020) .....................

1a

APPENDIX B: ORDER, Court of Appeals for
the Fifth Circuit (June 16, 2020) .....................

2a

v
TABLE OF CONTENTS—Continued
Page
APPENDIX C: MEMORANDUM AND ORDER,
District Court for the Southern District of
Texas (December 6, 2019) ................................

5a

APPENDIX D: MEMORANDUM AND ORDER,
District Court for the Southern District of
Texas (February 24, 2020) ...............................

20a

APPENDIX E: ORDER, District Court for
the Southern District of Texas (February 19,
2015) .................................................................

24a

APPENDIX F: ORDER, District Court for
the Southern District of Texas (July 9, 2018) .

26a

APPENDIX G: ORDER, Court of Appeals for
the Fifth Circuit (July 13, 2020)......................

28a

APPENDIX H: INDICTMENT, District Court
for the Southern District of Texas (November
24, 2008) ...........................................................

30a

APPENDIX I: DECLARATION OF SAMIR
KHOURY, Court of Appeals for the Fifth
Circuit (April 23, 2015) ....................................

51a

APPENDIX J: DECLARATION OF CHARLES
S. LEEPER, District Court for the Southern
District of Texas (August 20, 2018) .................

54a

APPENDIX K: INFORMATION, District Court
for the Southern District of Texas (August 29,
2008) .................................................................

71a

APPENDIX L: PLEA AGREEMENT, District
Court for the Southern District of Texas
(September 3, 2008) .........................................

88a

vi
TABLE OF CONTENTS—Continued
Page
APPENDIX M: INITIAL
APPEARANCE,
ARRAIGNMENT AND PLEA, District Court
for the Southern District of Texas (September
3, 2008) ............................................................. 111a
APPENDIX N: DIFFUSION NOTICE, U.S.
Department of Justice (April 12, 2019) ........... 137a
APPENDIX O: LETTER OF INQUIRY,
Drinker, Biddle & Reath (October 22, 2014) .. 144a
APPENDIX P: GOVERNMENT’S RESPONSE
TO MOTION BY SAMIR KHOURY TO
DISMISS INDICTMENT, District Court for
the Southern District of Texas (January 12,
2015) ................................................................. 146a
APPENDIX Q: MISCELLANEOUS CONFERENCE HEARING, District Court for the
Southern District of Texas (February 4, 2015)
.......................................................................... 152a
APPENDIX R: TRANSCRIPT OF MOTION
HEARING, District Court for the Southern
District of Texas (March 22, 2018) .................. 170a
APPENDIX S: EX PARTE NOTICE OF
GOVERNMENT’S WITHDRAWL OF OPPOSITION TO UNSEALING THE INDICTMENT, District Court for the Southern
District of Texas (July 2, 2018) ....................... 199a
APPENDIX T: GOVERNMENT’S REQUEST
TO DENY DEFENDANT’S MOTION TO
DISMISS THE INDICTMENT, District
Court for the Southern District of Texas
(August 6, 2018) ............................................... 202a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX U: DOCKET ENTRIES, District
Court for the Southern District of Texas
(2008-2020) ..................................................... 217a
APPENDIX V: MOTION HEARING, District
Court for the Southern District of Texas
(August 16, 2019) ............................................. 238a
APPENDIX W: NOTICE
OF
APPEAL,
District Court for the Southern District of
Texas (March 9, 2020) ..................................... 270a
APPENDIX X: FILING OF EXHIBIT 1
FROM MARCH 22, 2018 HEARING, District
Court for the Southern District of Texas
(March 27, 2018) .............................................. 273a
APPENDIX Y: Death Certificate of Guy
Michel Gerro (May 15, 2019) ........................... 277a
APPENDIX Z: DECLARATION OF PAUL
K. ZUKAS IN SUPPORT OF GOVERNMENT’S OPPOSITION TO DEFENDANT’S
MOTION TO DISMISS, District Court for the
Southern District of Texas (May 24, 2019) ..... 278a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

Barker v. Wingo,
407 U.S. 514 (1972) ..................................passim
Carroll v. United States,
354 U.S. 394 (1957) ...................................

18

Cheney v. United States District Court,
542 U.S. 367 (2004) ..................................passim
Doe v. United States,
197 F. Supp. 3d 933 (S.D. Tex. 2016) .......

11

Doe v. United States,
853 F.3d 792 (5th Cir. 2017) .....................

11

Doggett v. United States,
505 U.S. 647 (1992) ..................................passim
Ex parte Fahey,
332 U.S. 258 (1947) ...................................

17

In re Apple, Inc.,
602 F.3d 909 (8th Cir. 2010) .....................

22

In re Nat’l Presto Indus., Inc.,
347 F.3d 662 (7th Cir. 2003) ..................... 20, 22
In re Simons,
247 U.S. 231 (1918) ...................................

21

Kerr v. U.S. District Court for Northern
Dist. of California,
426 U.S. 394 (1976) ...................................

17

Klopfer v. North Carolina,
386 U.S. 213 (1967) ...................................

30

Mallard v. U.S. District Court for
So. Dist. of Iowa,
490 U.S. 296 (1989) ...................................

25

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Mohawk Indus., Inc. v. Carpenter,
558 U.S. 100 (2009) ................................... 16, 18
Roche v. Evaporated Milk Ass’n,
319 U.S. 21 (1943) ........................... 6, 17, 18, 21
United States v. Avalos,
541 F.2d 1100 (5th Cir. 1976) ...................

29

United States v. Bergfeld,
280 F.3d 486 (5th Cir. 2002) ..................... 5, 28
United States v. Briggs,
514 F.2d 794 (5th Cir. 1975) .....................

11

United States v. Brown,
169 F.3d 344 (6th Cir. 1999) .....................

24

United States v. Fokker Servs. B.V.,
818 F.3d 733 (D.C. Cir. 2016) ...................

22

United States v. Ingram,
446 F.3d 1332 (11th Cir. 2006) .................

24

United States v. Khoury,
No. 4:17-MC-2553, 2018 WL 2864413
(S.D. Tex. June 11, 2018)...................... 7, 12, 26
United States v. MacDonald,
435 U.S. 850 (1978) ..................................passim
United States v. Mendoza,
530 F.3d 758 (9th Cir. 2008) ..................... 24, 28
United States v. Molina-Solorio,
577 F.3d 300 (5th Cir. 2009) .....................

24

United States v. Reynolds,
231 F. App’x 629 (9th Cir. 2007) ..............

29

x
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Velazquez,
749 F.3d 161 (3d Cir. 2014) ......................

24

United States Alkali Export Association
v. United States,
325 U.S. 196 (1945) ...................................

21

Washington v. Texas,
388 U.S. 14 (1967) .....................................

21

Will v. United States,
389 U.S. 90 (1967) .....................................

17

CONSTITUTION
U.S. Const. amend. VI .......................... 1, 3, 19, 30
STATUTES
18 U.S.C. § 1341 ...........................................

9

18 U.S.C. § 1343 ...........................................

9

18 U.S.C. § 1346 ...........................................

9

18 U.S.C. § 1349 ...........................................

9

18 U.S.C. § 3292 ...........................................

13

28 U.S.C. § 1254(l) ........................................

1

28 U.S.C. § 1291 ...........................................

18

28 U.S.C. § 1651(a) .......................................

2

RULES
Fed. R. Crim. P. 43(b)(3) ..............................

12

xi
TABLE OF AUTHORITIES—Continued
COURT FILINGS

Page(s)

Doc. 1, In re United States of America, et al.,
No. 18-73014 (9th Cir. Nov. 5, 2018)........

22

Doc. 1, Doe v. United States, No. 15-cv-2414
(S.D. Tex. Aug. 20, 2015) ..........................

11

Doc. 9, Doe v. United States, No. 15-cv-2414
(S.D. Tex. Oct. 20, 2015) ...........................

11

Doc. 13, United States v. Khoury, No. 4:17mc-02553 (S.D. Tex. Nov. 27, 2017) .........

11

Indictment, United States v. Tesler, et al.,
No. 09-cr-098 (S.D. Tex. Feb. 17, 2009)
(unsealed Mar. 5, 2009) ............................

9

Motion by Sealed Appellee 1 to Dismiss
Appeal for Lack of Appellate Jurisdiction,
Sealed Appellee 1 v. Sealed Appellant 1,
No. 15-98003 (5th Cir. Apr. 8 2015) .........

10

Order, Sealed Appellee 1 v. Sealed Appellant
1, No. 15-98003 (5th Cir. May 20, 2015) ..

10

Petition for a Writ of Mandamus, In re
United States of America, et al., No. 18505 (Oct. 18, 2018) ....................................

22

OTHER AUTHORITIES
16 Charles Alan Wright & Arthur R. Miller,
Fed. Prac. & Proc. Juris. (3d Ed. Apr.
2020 update).............................................. 6, 22

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Halliburton Co., SEC Form 10-K (March 8,
2004), available at https://content.edgaronline.com/ExternalLink/EDGAR/00000
4502-04-000086.html?hash=2bd560dcac
a34f73cee444b464934280fed3bc11e390c
767bd4fb99f8aec6dec&dest=EXH4_15_T
XT#EXH4_15_TXT (last accessed Dec. 3,
2020) ..........................................................

7-8

PETITION FOR A WRIT OF CERTIORARI
Petitioner Samir Khoury respectfully petitions for a
writ of certiorari to review the judgment of the U.S.
Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The dispositive order entered by the Fifth Circuit
(App. 1a) is unreported, as is the Fifth Circuit’s subsequent order clarifying the basis for that order (App.
2a–4a). The opinions of the United States District
Court for the Southern District of Texas (App. 5a–23a)
are unreported.
JURISDICTION
On May 12, 2020, the Fifth Circuit entered a dispositive order summarily denying Mr. Khoury’s petition
for a writ of mandamus. App. 1a. The Fifth Circuit
clarified that order on June 16, 2020, App. 2a–4a, and
then, on July 13, 2020, denied Mr. Khoury’s timely
petition for panel rehearing and rehearing en banc,
App. 29a.
Pursuant to this Court’s order of March 19, 2020,
the time for filing this petition was extended to 150
days from the date of that denial.
This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Sixth Amendment’s Speedy Trial Clause provides: “In all criminal prosecutions, the accused shall
enjoy the right to a speedy . . . trial . . . .” U.S. Const.
amend. VI.

2
The All Writs Act, 28 U.S.C. § 1651(a), states: “The
Supreme Court and all courts established by Act of
Congress may issue all writs necessary or appropriate
in aid of their respective jurisdictions and agreeable to
the usages and principles of law.”
INTRODUCTION
This case presents a question of paramount
importance to criminal defendants: whether they can
be categorically denied mandamus review of serious
error affecting the most fundamental of constitutional
rights. In denying the mandamus petition below, the
Fifth Circuit applied a per se rule that a criminal
defendant may never obtain pre-judgment mandamus
review of the denial of his motion to dismiss on speedytrial grounds, because of the ultimate availability of
post-sentence appellate review. In doing so, the Fifth
Circuit not only read out of Cheney v. United States
District Court, 542 U.S. 367 (2004), the principle
that an alternative remedy precludes mandamus
relief only if it is an “adequate” one, id., at 380–81,
but also ignored this Court’s longstanding command
that mandamus petitions be assessed flexibly and
in light of all the facts and exigencies of each
individual case. As explained below, the analysis that
led the Fifth Circuit to this extreme result substituted
the standards governing appealability in place of the
requirements for mandamus.
This case is an ideal vehicle for restoring mandamus
as a necessary safety valve for promptly correcting
serious errors in the criminal justice system. Mandamus, an extraordinary remedy, should be limited to
extraordinary cases. This is just such a case, presenting extraordinary facts and exigencies. The government indicted Samir Khoury under seal in 2008 for
conduct allegedly occurring in the 1980s. It kept the

3
Indictment sealed for nearly 10 years, despite knowing
Mr. Khoury’s exact location and the identity of his
counsel. The government refused to respond to his
counsel’s inquiries regarding Mr. Khoury’s status, and
resisted his applications to obtain notice of any sealed
charges by arguing that an indictment was “not known
to exist.”
The District Court below found that the decade
of pretrial delay had resulted in the loss of at least
a dozen defense witnesses, impaired memories of
other witnesses, eroded Mr. Khoury’s ability to testify
credibly in his own defense, and prevented the preservation of documentary evidence. Despite recognizing
that three of four Barker factors favored Mr. Khoury,
the District Court reasoned that his supposed suspicion that he had been charged—the government’s
representations to the contrary notwithstanding—
somehow imposed a duty upon Mr. Khoury to bring
himself to trial.
The Fifth Circuit’s categorical approach to mandamus would force Mr. Khoury, and other defendants to
whom it will be applied, to endure unfair proceedings
and plainly unconstitutional convictions in order to
gain the right to plead the facts and exigencies of their
cases to an appellate court. This Court should grant
certiorari to prevent these unreasoned and unreasonable outcomes.
STATEMENT OF THE CASE
A. Legal Framework
1. The Speedy-Trial Clause
The Sixth Amendment promises all criminal defendants a speedy trial. To give substance to that guarantee, this Court, in Barker v. Wingo, 407 U.S. 514

4
(1972), announced a four-part test for assessing
whether an accused’s right to a speedy trial had been
infringed. Courts assessing such claims must consider
“[(1)] whether delay before trial was uncommonly long,
[(2)] whether the government or the criminal defendant is more to blame for that delay, [(3)] whether, in
due course, the defendant asserted his right to a
speedy trial, and [(4)] whether he suffered prejudice as
the delay’s result.” Doggett v. United States, 505 U.S.
647, 651 (1992) (citing Barker, 407 U.S., at 530).
There is no rigid formula for analyzing or balancing
the Barker factors, but this Court’s decisions do establish a number of guardrails to guide courts’ analyses.
First, the inquiry is individualized and depends
greatly on the facts of each case. See Barker, 407 U.S.,
at 522 (“[t]he right of a speedy trial is necessarily
relative” and “depends upon circumstances” (citations
and internal quotation marks omitted)).
Second, courts’ assessment of governmental diligence must take into account not just the facts at a
single moment in time (e.g., the moment of the
defendant’s indictment or his motion to dismiss that
indictment) but also how those facts evolve over time.
Consequently, a justification that suffices to defeat a
speedy-trial challenge shortly after a defendant’s
indictment can lose its persuasive force as time passes
and the facts (or assumptions) underlying that justification are called into question or disproved. See
Doggett, 505 U.S., at 652–53 (“For six years, the
Government’s investigators made no serious effort to
test their progressively more questionable assumption
that Doggett was living abroad . . .”); cf. id., at 657
(“Thus, our toleration of [governmental] negligence
varies inversely with its protractedness”).

5
Finally, although a defendant may always seek to
prove actual prejudice to his defense (as Mr. Khoury
has done here, App. 9a–10a), in cases where the first
three Barker factors favor the accused, prejudice is
presumed and the burden shifts to the government to
“persuasively” rebut the presumption. Doggett, 505
U.S., at 656–58. This burden is nearly impossible to
satisfy because “excessive delay presumptively compromises the reliability of a trial in ways that neither
party can prove or, for that matter, identify.” Id., at
655; see also id., at 654 n.4 (“[the government] has not,
and probably could not have, affirmatively proved that
the delay left [defendant’s] ability to defend himself
unimpaired”).
Furthermore, courts in the Fifth Circuit must also
presume prejudice to the defendant when pretrial
delay exceeds five years. See, e.g., United States v.
Bergfeld, 280 F.3d 486, 491 (5th Cir. 2002) (“the fiveyear delay. . . entitles Bergfeld to a presumption of
prejudice”).
2. Pretrial Appellate Review of SpeedyTrial Determinations
In United States v. MacDonald, 435 U.S. 850 (1978),
this Court held that “a pretrial order rejecting a
defendant’s speedy trial claim plainly lacks the
finality traditionally considered indispensable to
appellate review, that is, such an order obviously is not
final in the sense of terminating the criminal
proceedings in the trial court.” Id., at 856 (citation and
internal quotation marks omitted).
The Court also considered whether collateral-order
review was available for speedy-trial claims, ultimately concluding that it was not, because, “in the
usual case,” the question whether the defense has

6
been prejudiced by delay is “intertwined” with the
facts to be adjudicated at trial. Id., at 859.
MacDonald did not, however, address whether and
in what circumstances a defendant might obtain
review of a speedy-trial denial via a writ of mandamus.
3. The Writ of Mandamus
Although the Court has refused to impose “formal
rules” to cabin the circumstances when mandamus
relief may be granted, see Roche v. Evaporated Milk
Ass’n, 319 U.S. 21, 26 (1943), it has established three
criteria that deserving cases should meet:
First, the party seeking issuance of the writ
[must] have no other adequate means to
attain the relief he desires. . . . Second, the
petitioner must satisfy the burden of showing
that [his] right to issuance of the writ is clear
and indisputable. Third, even if the first two
prerequisites have been met, the issuing
court, in the exercise of its discretion, must be
satisfied that the writ is appropriate under
the circumstances.
Cheney, 542 U.S., at 380–81 (alterations in original)
(citations and internal quotation marks omitted).
“These hurdles, however demanding, are not insuperable, id., at 381, and, while useful in informing an
appellate court’s discretionary decision whether to
grant or refuse the writ, do not define the full universe
of circumstances in which writ review may be granted,
see 16 Charles Alan Wright & Arthur R. Miller, Fed.
Prac. & Proc. Juris. § 3934.1 (3d ed.) (“Courts have
developed the extraordinary writs, chiefly mandamus,
as an occasional and ad hoc device for permissive
interlocutory appeal”).

7
B. Factual and Procedural History
1. Samir Khoury
Samir Khoury is a native of Lebanon and resided
there until he came to the U.S. to attend college in
1971; he became a naturalized U.S. citizen in 1976
while in graduate school. App. 52a. In 1977, he left
the U.S. to work overseas for M.W. Kellogg and its
successor entities (collectively, “Kellogg”), first as an
employee and later as a consultant, helping the company secure construction and liquefied natural gas
(“LNG”) contracts in the Middle East, Africa, and Asia.
App. 30a–31a, 52a–53a.
Given his ties to the Middle East and the geographic
focus of his work, Mr. Khoury eventually decided to
move there permanently, obtaining the necessary
permits to live and work in the United Arab Emirates
by early 2003. App. 57a–59a. Then, in 2004, Mr.
Khoury “returned to Lebanon to live near his elderly
parents, and he has resided in or near Beirut[,]
Lebanon since that time.” United States v. Khoury,
No. 4:17-MC-2553, 2018 WL 2864413, at *1 n.2 (S.D.
Tex. June 11, 2018).
2. The Government’s Smearing of Mr.
Khoury
In March 2004, Kellogg’s successor company
disclosed the existence of a Foreign Corrupt Practices
Act (“FCPA”) investigation of Nigerian LNG projects
awarded to a joint venture in which it had participated. See Halliburton Co., SEC Form 10-K (March 8,
2004) at 54, available at https://content.edgar-online.
com/ExternalLink/EDGAR/0000045012-04-000086.ht
ml?hash=2bd560dcaca34f73cee444b464934280fed3bc
11e390c767bd4fb99f8aec6dec&dest=EXH4_15_TXT#

8
EXH4_15_TXT (last accessed Dec. 3, 2020). The
investigation continued for at least eight years. In
2006, at the government’s request, Mr. Khoury came
to the U.S. to be interviewed. App. 53a. Since at least
that time, both his place of residence and the identity
of his attorney have been known to the government.
As a result of that investigation, Jack Stanley,
Kellogg’s former CEO, pleaded guilty in September
2008 to one count of conspiring to violate the FCPA in
connection with certain LNG projects in Nigeria. App.
99a–103a. Stanley also pleaded guilty to a charge of
conspiracy to receive “kickbacks” from an unindicted
“LNG Consultant” on specified LNG projects. App.
103a–106a. According to the government’s Factual
Basis, Stanley “caused” Kellogg to award consulting
contracts to the “LNG Consultant” and affiliated
companies, and the “LNG Consultant” then “kickedback” consulting fees to Stanley. App. 103a–105a.
The DOJ’s description of the “LNG Consultant” in
the Stanley plea identified Mr. Khoury in all but name,
describing that unindicted co-conspirator as a dualU.S./Lebanese citizen who worked for Kellogg and its
successors as an employee from 1977 to 1988 and then
as a consultant to those same companies, and worked
for a “Lebanese Consulting Company” in connection with
certain specified LNG projects. App. 83a, 85a–87a. No
one other than Mr. Khoury fit that detailed profile.
During Mr. Stanley’s plea hearing, the prosecutor
referred to the LNG Consultant as a “potential
defendan[t]” but declined the District Court’s invitation to seal the proceedings following that revelation.
App. 122a (emphasis added).
Within months, two other individuals were indicted
for FCPA violations in connection with the Nigerian

9
LNG projects, United States v. Tesler, et al., No. 09-cr098, Doc. 1 (Indictment) (S.D. Tex. Feb. 17, 2009)
(unsealed Mar. 5, 2009), and subsequently pleaded
guilty. Id., at Docs. 34, 23. Both were then residing
overseas, but the prosecutors did not keep their indictment sealed.
3. The
Government’s
Charging
“Pursuit” of Mr. Khoury

and

In November 2008, the government indicted Mr.
Khoury under seal, charging him with one count of
conspiracy to commit mail and wire fraud, 18 U.S.C.
§ 1349; seven counts of wire fraud in violation of 18
U.S.C. §§ 1343, 1346, and 2; and three counts of mail
fraud in violation of 18 U.S.C. §§ 1341, 1346, and 2.
See App. 30a–50a.
In the six years following the sealing of the Indictment, the government made only a single inquiry to
other countries regarding Mr. Khoury: A May 2009
“Diffusion Notice” to 12 foreign countries, not including Lebanon. See App. 140a.1 DOJ did nothing
further until 2015, and it did not notify Lebanon that
Mr. Khoury was a wanted person until after the
Indictment was unsealed in 2018. App. 140a–141a.
In October 2014, undersigned counsel contacted
DOJ prosecutors to ask if the investigation was closed
as to Mr. Khoury. The prosecutors refused to respond
to that inquiry and to questions regarding whether
Mr. Khoury was the subject of ongoing investigative
activity, sealed charges, or an arrest warrant. App.
144a–145a.
1

A Diffusion Notice is an alternative to an Interpol “Red
Notice” and is used to obtain international cooperation in
detaining a wanted subject.

10
4. The First Motion to Unseal and Dismiss
In light of that refusal, counsel filed in December
2014 a motion to unseal and dismiss the indictment
that he surmised was pending under seal. ROA.2020126.870.2 The government protested that Mr.
Khoury did not know, and had no right to know,
whether charges were pending.3 On February 19,
2015, the District Court denied without explanation
Mr. Khoury’s motion to unseal. App. 24a.
On appeal, the government argued again that any
indictment “was not known to exist,” and that review
of Mr. Khoury’s challenges was therefore premature.4
On May 20, 2015, the Fifth Circuit granted the
government’s motion to dismiss the appeal.5
After Mr. Khoury’s motion was denied, the government renewed its Diffusion Notice. See App. 141a (March
10, 2015 entries). The government took no other action
until after the Indictment was unsealed. See ibid.
5. August 2015 Briggs Action
In August 2015, Mr. Khoury (proceeding as “John
Doe”) sought declaratory relief and expungement of
the government’s accusations against him in the
2

Citations prefaced by “ROA” refer to documents in the record
on appeal to the Fifth Circuit.
3
See, e.g., App. 148a (Gov’t Resp. to Mot.) (“[A]n individual
lacks legal authority to require the government to confirm the existence or non-existence of under seal charges. . .”); App. 156a (“the
defense [is] without knowledge of whether or not there’s an
indictment”).
4
Sealed Appellee 1 v. Sealed Appellant 1, No. 15-98003, Doc.
00512997618, at 1, 3 (5th Cir. Apr. 8, 2015) (Motion by Sealed
Appellee 1 to Dismiss Appeal for Lack of Appellate Jurisdiction);
id., at 5 (“an indictment not even known to exist”).
5
Order, Sealed Appellee 1. v. Sealed Appellant 1, No. 15-98003
(5th Cir. May 20, 2015).

11
Stanley prosecution. See Doe v. United States, No. 15cv-2414, Doc. 1 (S.D. Tex. Aug. 20, 2015). Relying on
United States v. Briggs, 514 F.2d 794 (5th Cir. 1975),
he sought a determination that the government violated
his due process rights by identifying him as an unindicted co-conspirator without affording him a forum
for vindication. See ibid. The government moved to
dismiss, contending, inter alia, that his claims were
untimely, see Doe No. 15-cv-2414, Doc. 9 (Oct. 20,
2015), and the District Court (Hittner, J.) dismissed
the Briggs claim as time-barred. Doe v. United States,
197 F. Supp. 3d 933, 938 (S.D. Tex. 2016).
On appeal, the Fifth Circuit recognized that the
government had improperly identified Mr. Khoury as
Stanley’s co-conspirator without affording him a
public forum to contest the accusations, Doe v. United
States, 853 F.3d 792, 800 (5th Cir. 2017), but
nonetheless affirmed the District Court’s limitationsbased dismissal. Ibid.
6. The Second Motion to Unseal and
Dismiss
In September 2017, Mr. Khoury filed a second
motion to unseal and dismiss the Indictment. ROA.2020126.1055. The government reprised the arguments
it made in opposing his 2014 motion.6
The District Court rejected the government’s position that Mr. Khoury was a “fugitive” from charges he
did not know to exist, but allowed the government to

6

United States v. Khoury, No. 4:17-mc-02553, Doc. 13 at 8
(S.D. Tex. Nov. 27, 2017) (“neither he nor his counsel is entitled
to confirmation of [any indictment]”); App. 184a (“Mr. Khoury
seeks . . . to unseal . . . an alleged indictment that he does not
know to exist”).

12
show, ex parte, any grounds for continued sealing.7
The government could not make any such showing, see
App. 199a–200a, and the District Court unsealed the
Indictment in July 2018, App. 26a–27a.
The government next contended that it need not
respond to Mr. Khoury’s motion to dismiss because he
was still a fugitive. App. 202a. After briefing and a
hearing, the District Court again “decline[d] to apply
the fugitive disentitlement doctrine,” App. 223a (Nov.
29, 2018 Minute Entry),8 and directed Mr. Khoury to
refile his motion to dismiss, ibid.
Mr. Khoury complied, filing a renewed motion to
dismiss the Indictment on speedy-trial and limitations
grounds. ROA.20-20126.289. Following briefing and
a hearing, the District Court found that Barker factors
one (length of delay), three (prompt assertion of
rights), and four (actual prejudice) all favored Mr.
Khoury. App. 9a–10a. Regarding prejudice, the
District Court found that at least a dozen potential
defense witnesses had died since 2009, and that Mr.
Khoury’s ability to preserve documents and testify
were impaired. Ibid.
The District Court nevertheless rejected Mr. Khoury’s
speedy-trial challenge because it concluded that
“the government ha[d] proceeded with ‘reasonable
diligence,’” and “Mr. Khoury strongly suspected his
7

Khoury, 2018 WL 2864413, at *3 (“without a public indictment, there is no instruction on how he could submit to custody”);
id., at *5.
8

Consistent with that conclusion, the District Court also
permitted Mr. Khoury to appear and argue the threshold legal
issues presented by his motions to unseal and dismiss through
counsel, excusing him from appearing personally, pursuant to
Federal Rule of Criminal Procedure 43(b)(3). App. 267a.

13
indictment and chose to remain in Lebanon.” App.
10a–14a.9
Regarding the statute of limitations, the District
Court concluded that although Mr. Khoury had shown
“substantial actual prejudice” from sealing of the
Indictment, that prejudice was “self-inflicted.” App.
14a–15a. Therefore, it reasoned, the Indictment was
“found” for limitations purposes when filed in
November 2008. App. 15a. The District Court also
concluded that although the government did not apply
to suspend the statute of limitations under 18 U.S.C.
§ 3292 until after the limitations period expired, the
application resuscitated the already-expired period.
App. 19a.
Mr. Khoury then asked the District Court to rule on
two aspects of his motion to dismiss not addressed in
its initial opinion: (1) whether the government’s
violation of his due process rights in September 2008
(publicly accusing him of a crime) required it to give
Mr. Khoury immediate notice of, and opportunity
to contest, the November 2008 Indictment; and
(2) whether the one-year presumptive prejudice
threshold that triggers the Barker inquiry also
obligated the government to afford Mr. Khoury notice
of the charges no later than November 2009. App. 20a.

9

The District Court did not address the fact that the government identified Mr. Khoury only as a “potential” defendant
during the September 2008 Stanley proceedings, see supra, at 8,
nearly 5 years after he returned to live in his native country, or
explain when and how he supposedly deduced that he had been
indicted. Nor did the District Court attempt to reconcile this
ruling on the second Barker factor with its previous finding that
Mr. Khoury lacked knowledge of any indictment and “how he
could submit to custody.” See supra, at 12 n.7.

14
In its February 24, 2020 opinion, the District Court
found that any due process violation was “separate”
from the question of which party was responsible for
the delay. App. 21a. On the presumptive-prejudice
issue, the District Court (1) reasoned that Mr. Khoury
was not entitled to formal notice because he “strongly
suspected” charges existed, and (2) accepted the government’s argument that it needed to keep the
Indictment sealed “to increase the likelihood that
Defendant would venture outside Lebanon.” App. 22a.
7. Appellate and Mandamus Review in the
Fifth Circuit
Mr. Khoury noticed an appeal to the Fifth Circuit on
March 9, 2020. App. 270a–271a. Eighteen days later,
he filed a joint principal brief on appeal and petition
for a writ of mandamus.
The government moved to dismiss the appeal,
arguing in relevant part that this Court’s decision in
United States v. MacDonald, 435 U.S. 850 (1978),
precluded Mr. Khoury from taking an interlocutory
appeal from the District Court’s denial of his motion to
dismiss the Indictment. United States v. Khoury, No.
20-20126, Doc.00515386628, at 9–11, 13–15 (5th Cir.
Apr. 17, 2020).
The government also asked the court to summarily
deny Mr. Khoury’s mandamus petition because, inter
alia, he allegedly “has an adequate, alternative means
for obtaining relief”—namely, “an appeal from final
judgment.” Id., at 18.
On May 12, 2020, the Fifth Circuit granted the
government’s motion in a one-line order stating that
“Appellee’s opposed motion to dismiss the appeal for
lack of jurisdiction is GRANTED.” App. 1a.

15
The following day, Mr. Khoury filed a motion for
clarification of whether the Fifth Circuit had intended
its order also to dispose of his alternative petition for
mandamus. Because the court did not act on that
motion within the time allotted for requesting
rehearing, Mr. Khoury filed a timely petition for panel
and en banc rehearing on May 26, 2020.
On June 16, 2020, the court granted Mr. Khoury’s
request for clarification, holding that speedy-trial
claims such as his necessarily failed at the first step of
the mandamus test because such claimants would
always have “[an]other adequate means to attain
relief,” i.e., an appeal “after final judgment is entered.”
App. 3a.
The court rested its holding exclusively on
MacDonald’s justification for finding such decisions
unsuitable for interlocutory appeal. Ibid. Specifically,
the court reasoned that because “‘most speedy trial
claims . . . are best considered only after the relevant
facts have been developed at trial,’” ibid. (quoting 435
U.S., at 858) (emphasis added) (alteration in original),
and because requiring defendants to go to trial would
not “cause or compound the deprivation already suffered,’” ibid. (quoting 435 U.S., at 861), defendants like
Mr. Khoury possessed an adequate remedy in the form
of an appeal “after final judgment is entered,” ibid.
On July 13, 2020, the Fifth Circuit denied Mr.
Khoury’s petition for panel and en banc rehearing.
App. 29a.

16
REASONS FOR GRANTING THE PETITION
I. THE FIFTH CIRCUIT’S DECISION CONFLICTS WITH THIS COURT’S PRECEDENTS GOVERNING THE ISSUANCE OF
MANDAMUS RELIEF.
A. The Fifth Circuit’s Bright-Line Rule
Violates This Court’s Requirement of a
Case-Specific Mandamus Analysis.
In denying Mr. Khoury’s mandamus petition, the
Fifth Circuit applied a bright-line rule of per se disentitlement: a criminal defendant may never obtain
pre-judgment mandamus review of the denial of his
motion to dismiss on speedy-trial grounds, because the
ultimate availability of post-sentence appellate review
is always an “adequate means to attain the relief he
desires,” Cheney, 542 U.S., at 380. See App. 3a.
The Fifth Circuit’s rule is doubly and dangerously
wrong, in that it both ignores this Court’s longstanding command that mandamus petitions be assessed
flexibly and in light of all the facts and exigencies of
each individual case, and because it also conflates the
standards for determining appealability with those
for issuing mandamus. Taken together, those errors
will force numerous criminal defendants to endure
unfair—and, more importantly, unconstitutional—
proceedings and convictions in order to gain the right
to plead their case to an appellate court.
This Court’s review is needed to restore mandamus
as a necessary “safety valv[e] for promptly correcting
serious errors” in the criminal justice system. Mohawk
Indus., Inc. v. Carpenter, 558 U.S. 100, 111 (2009)
(internal quotation marks omitted).

17
1. The essence of mandamus relief is flexibility.
It, “like equitable remedies, may be granted or withheld in the sound discretion of the court.” Roche v.
Evaporated Milk Ass’n, 319 U.S. 21, 25 (1943). Accordingly, the question for a court reviewing a mandamus
petition “is not whether the court . . . ha[s] power to
grant the writ but whether in the light of all the
circumstances the case [i]s an appropriate one for
the exercise of that power.” Id., at 25–26. And “[i]n
determining what is appropriate we look to those
principles which should guide judicial discretion in the
use of an extraordinary remedy rather than to formal
rules rigorously controlling judicial action.” Id., at 26.
That flexibility is essential to maintaining the
delicate balance that this Court has established for
mandamus relief—ensuring that the great power of
the writ is sparingly and judiciously used,10 while at
the same time guaranteeing that it remains available
for truly exceptional cases.11 See Will, 389 U.S., at 107
(majority opinion) (“The preemptory common-law writs
are among the most potent weapons in the judicial
arsenal. ‘As extraordinary remedies, they are reserved for really extraordinary causes’” (quoting Ex
parte Fahey, 332 U.S. 258, 260 (1947))).
The Fifth Circuit’s decision disrupts that careful
balance, replacing it with a blanket rule that precludes
10

Kerr v. U.S. District Court for Northern Dist. of California,
426 U.S. 394, 403 (1976) (“A judicial readiness to issue the writ
of mandamus in anything less than an extraordinary situation
would run the real risk of defeating the very policies sought to be
furthered by [the final judgment rule]”).
11

See Will v. United States, 389 U.S. 90, 108 (1967) (Black, J.,
concurring) (“[T]he issuance of the writ of mandamus is proper
where a court finds exceptional circumstances to support such an
order”).

18
the very sort of case-specific judgment that this
Court’s cases require.
2. The cornerstone of the Fifth Circuit’s erroneous
framework was its gross misapplication of this Court’s
decision in MacDonald, which dealt exclusively with
whether the pretrial denial of a speedy-trial-based
motion to dismiss an indictment could be directly
appealed to the relevant geographic circuit court. See
435 U.S., at 856–57.
That direct-appeal analysis is in no way transferable to the mandamus context, however, because the
key questions for each form of relief—whether a direct
appeal will lie and whether mandamus relief will
issue—are assessed using different units of analysis.
Specifically, whereas appealability must be decided on
a categorical basis,12 mandamus petitions (as already
discussed) must be evaluated based on the specific
facts and circumstances of each petitioner’s individual
case.13
MacDonald itself reflects this dichotomy, in that it
expressly rejected the suggestion that “‘[a]ppeal rights
ca[n] depend on the facts of a particular case.’” 435
U.S., at 857–58 n.6 (quoting Carroll v. United States,
354 U.S. 394, 405 (1957)), while also recognizing that
its judgment about the unsuitability of speedy-trial
12

See MacDonald, 435 U.S., at 857–58 n.6; Mohawk Indus.,
Inc. v. Carpenter, 558 U.S. 100, 107 (2009) (“we do not engage
in an individualized jurisdictional inquiry” (internal quotation
marks omitted)); cf. ibid. (“As long as the class of claims, taken as
a whole, can be adequately vindicated by other means, the chance
that the litigation at hand might be speeded, or a particular
injustic[e] averted, does not provide a basis for jurisdiction under
§ 1291” (alteration in original) (internal quotation marks
omitted)).
13

See Roche, 319 U.S., at 25–26.

19
determinations for mid-case review was a 50,000-foot
assessment and that some cases would very likely
break that mold. See 435 U.S., at 858 (observing that
“most speedy trial claims . . . are best considered only
after the relevant facts have been developed at trial”
(emphasis added)); id., at 860 (“The essence of a
defendant’s Sixth Amendment claim in the usual case
is that the passage of time has frustrated his ability
to establish his innocence of the crime charged.
Normally, it is only after trial that that claim may
fairly be assessed” (emphasis added)).
This case aptly illustrates the evils that will be sown
by the Fifth Circuit’s erroneous transposition. The
District Court has already made specific factual
findings regarding the substantial actual prejudice
that delay has caused Mr. Khoury’s defense. See
supra, at 12. Likewise, the government has already
tried—and failed—to “affirmatively prov[e] that the
delay left [Mr. Khoury’s] ability to defend himself
unimpaired.” Doggett, 505 U.S., at 654 n.4. Requiring
Mr. Khoury to endure an unconstitutional trial and
conviction so that he may present to an appellate court
the factual record, legal arguments, and judicial determination that have already been made would be a
manifest injustice—precisely the sort of circumstance
mandamus exists to prevent.
* * *
By adopting a one-size-fits-none rule for all mandamus petitions challenging the denial of a defendant’s
speedy-trial motion, the Fifth Circuit both ignored
the fact-specific nature of the mandamus inquiry and
badly misread one of this Court’s core decisions on the
scope of criminal defendants’ rights to secure interlocutory review in criminal cases. To be sure, it will
rarely be the case that a denial of a speedy-trial motion

20
will warrant mandamus relief. “Rarely, however, is
not never,” In re Nat’l Presto Indus., Inc., 347 F.3d 662,
664 (7th Cir. 2003), and mandamus relief is tailormade for such rare and exceptional cases.
This Court’s review is needed to restore the balance
the Fifth Circuit’s decision has disrupted.
B. The Fifth Circuit’s Decision Dramatically Restricts the Availability of Mandamus Relief.
As this Court has emphasized, one important
consideration in deciding whether to issue mandamus
relief is whether the petitioner “ha[s] no other adequate means to attain the relief he desires.” Cheney,
542 U.S., at 380 (emphasis added). The Fifth Circuit’s
decision wholly elides the requirement that the alternate means of securing relief be “adequate.” Instead,
the court merely noted that, “if necessary, [Mr.
Khoury] can seek relief from the alleged speedy-trial
violation after final judgment is entered.” App. 3a.
That formalistic focus on the technical availability of
a later appeal, without assessing the adequacy of that
path to review, will drastically curtail petitioners’
access to mandamus relief.
As the present case aptly illustrates, there will
inevitably be cases in which the possibility of a postjudgment appeal will not afford a petitioner an
“adequate” channel for securing review of a district
court decision.
Here, for example, the District Court has already
concluded (and the Fifth Circuit did not dispute) that
Mr. Khoury’s defense has been irredeemably prejudiced by the almost decade-long delay between the
issuance and unsealing of the Indictment against
him, a delay that has seen at least a dozen defense

21
witnesses die, has let other witnesses’ memories fade,
has impaired Mr. Khoury’s ability to testify credibly
in his own defense, and has deprived him of the ability
to preserve (and compel others to preserve) key
documents, such as accounting and project-approval
records, which could have been used to dispute the
government’s kickback allegations. App. 11a–12a,
182a, 275a.14
If, as this Court has held, depriving a party of his
right to a jury trial is an injury that justifies resort to
mandamus relief, see In re Simons, 247 U.S. 231, 239
(1918), so too should subjecting a defendant to a trial
that is a “trial” in name only, see Washington v. Texas,
388 U.S. 14 (1967) (“The right to offer the testimony of
witnesses, and to compel their attendance, if necessary, is in plain terms the right to present a defense,
the right to present the defendant’s version of the facts
as well as the prosecution’s to the jury, so it may decide
where the truth lies”).15 Indeed, the United States has
14

Mr. Khoury identified by name, work relationship, and
content of the expected testimony of 13 defense witnesses who
died between October 2009 and May 2019. App. 275a, 277a.
15

The illusory nature of the trial and near-certainty of its
outcome also distinguish this case from those that merely seek to
use the writ of mandamus as a substitute for an interlocutory
appeal. See Roche, 319 U.S., at 30 (noting that the length, cost,
and inconvenience of a trial were the sorts of burdens “Congress
contemplated in providing that only final judgments should be
reviewable” and that mandamus could not be used merely to
“thwart” that judgment). Instead, Mr. Khoury’s circumstances
most closely track those of decisions like United States Alkali
Export Association v. United States, 325 U.S. 196 (1945), where
the Court recognized that mandamus may issue where, as here,
a petitioner points not only to garden-variety litigation burdens
but also to the presence of legal issues that are important, novel,
recurring, or difficult to review through standard channels. Id.,
at 204 (holding that “[t]he hardship imposed on petitioners by a

22
recently contended that mandamus was appropriate
because no other adequate means were available
to spare the government from having to endure an
“unjustified trial.” See In re United States of America,
et al., No. 18-73014, Doc. 1, at 14 (9th Cir. Nov. 5,
2018); see also id., at 28 (“Mandamus is warranted to
correct the district court’s egregious errors because the
government has ‘no other adequate means’ to obtain
relief from the. . . impending trial”).
Other circuits have likewise identified circumstances where other paths to review, though technically available, were not “adequate” and therefore did
not preclude mandamus relief. See, e.g., United States
v. Fokker Servs. B.V., 818 F.3d 733, 747–49 (D.C. Cir.
2016) (availability of post-judgment appeal precluded
use of collateral-order appeal but did not bar government’s mandamus challenge to district court’s rejection of deferred prosecution agreement because postjudgment appellate review would be “inadequate”); In
re Nat’l Presto Indus., 347 F.3d, at 663 (concluding
that post-judgment appeal would be an inadequate
mechanism for securing review of a denial of a Section
1404(a) venue-transfer motion); In re Apple, Inc., 602
F.3d 909, 912 (8th Cir. 2010) (same).

long postponed appellate review, coupled with” the interest in
avoiding other legal wrongs—there, the desire to avoid violating
a congressional primary-jurisdiction delegation to the Federal
Trade Commission—supported issuing the writ (emphasis
added)); see also 16 Charles Alan Wright & Arthur R. Miller, Fed.
Prac. & Proc. Juris. § 3934.1 (3d ed., Apr. 2020 update) (noting
the utility of writ review “to settle an important question in a
particular case” “without establishing rules of appealability that
will bring a flood of less important appeals in their wake”).

23
The adequacy requirement is a vital part of the
mandamus inquiry. This Court should grant review
to ensure that it remains so.
II. THIS CASE IS AN IDEAL VEHICLE
BECAUSE MR. KHOURY SATISFIES
ALL REMAINING REQUIREMENTS FOR
MANDAMUS RELIEF.
The Fifth Circuit’s error is not merely an academic
one. Indeed, absent the Fifth Circuit’s erroneous categorical bar, Mr. Khoury would have been entitled to
mandamus relief because he satisfies each of the
traditional criteria for granting mandamus relief:
(1) the absence of an “adequate” alternative channel of
review; (2) a “clear and indisputable” right to the writ;
and (3) a showing that mandamus is “appropriate
under the circumstances.” See Cheney, 542 U.S., at
380–81.
1. As already discussed, Mr. Khoury has no adequate alternative path to securing review of the
District Court’s denial of his speedy-trial motion.
Interlocutory appellate review is unavailable, see
MacDonald, 435 U.S., at 859, and post-judgment
review would be inadequate, see supra, at 19.
2. Mr. Khoury’s right to relief is “clear and
indisputable.” See Cheney, 542 U.S., at 380–81. The
sole ground on which the District Court denied Mr.
Khoury’s speedy-trial motion was its conclusion that,
because he “strongly suspected” that he had been
charged by federal authorities, he was responsible
for the entire period of the delay in unsealing his
indictment. App. 13a.
Yet that conclusion conflicts with clear precedent
from both this Court and the Fifth Circuit. Indeed,
Barker itself recognized that “[a] defendant has no

24
duty to bring himself to trial.” 407 U.S., at 527. The
Fifth Circuit’s own precedents agree, underscoring
that a defendant has no obligation to surrender himself to authorities absent actual knowledge of the
pendency of charges. United States v. Molina-Solorio,
577 F.3d 300, 306 (5th Cir. 2009) (“[Molina-Solorio]
likely could have surmised that, as a fugitive he would
be brought to justice once apprehended[,] [but] the law
does not require [him] to assume the existence of, and
ask for a speedy trial on, a charge he is not actually
aware of” (emphasis added)).
Nor is the actual-knowledge requirement unique to
the Fifth Circuit. See, e.g., United States v. Velazquez,
749 F.3d 161, 179 (3d Cir. 2014) (weighing second
Barker factor, noting that defendant’s “lawyer’s inquiry [regarding the government’s pursuit of his
client] does not diminish any governmental negligence
in failing to pursue him, or to even contact his lawyer
again”); United States v. Mendoza, 530 F.3d 758, 763
(9th Cir. 2008) (“Mendoza was unaware of the indictment, so he did not know that he needed to return.
And it was not Mendoza’s responsibility to contact
the government during the investigation”); United
States v. Ingram, 446 F.3d 1332, 1337 (11th Cir. 2006)
(second Barker factor favors defendant because
“[t]here is no evidence [he] knew of the indictment
or the arrest warrant”); United States v. Brown, 169
F.3d 344, 349 (6th Cir. 1999) (second Barker factor
weighted against government because it failed to
prove defendant was aware of indictment).

25
The District Court’s decision cannot be reconciled
with this precedent; Mr. Khoury’s right to relief from
that decision is clear and indisputable.16
Moreover, to the extent the District Court’s decision
reflects an acceptance of the government’s insistence
that Mr. Khoury “fled” the U.S. in 2004, that finding
is devoid of record support and is therefore clearly
erroneous—not least because Mr. Khoury’s departure
from the United States preceded the first public
disclosure of an investigation into Kellogg, which, in
turn preceded by more than four years his indictment
in November 2008. Supra, at 7–9. In fact, by the time
the investigation of Kellogg became public in March
2004, the uncontested facts show that Mr. Khoury was
already residing in the Middle East in order to pursue
business interests there. By that time, he had:

16



Obtained a UAE trade license for his
employer (November 2002), App. 57a;



Obtained a UAE work permit for himself
(May 2003), App. 58a;



Obtained a UAE residency permit for
himself (June 2003), App. 59a;



Traveled to the U.S. to sign divorce papers
(February 2004), App. 65a–70a; and

Even if the actual-knowledge rule were not so firmly
established, that would have not detract from Mr. Khoury’s clear
and indisputable right to mandamus relief. As this Court’s own
decisions show, the clarity of the petitioner’s right is assessed
only after the Court resolves any threshold issues of law that are
in dispute. See Mallard v. U.S. District Court for So. Dist. of
Iowa, 490 U.S. 296, 309 (1989) (internal quotation marks
omitted) (finding mandamus requirements satisfied based on its
conclusion, on an issue of first impression, that the statute in
question did not authorize the district court action under review).



26
Returned to his already-established residency in the Middle East, see ROA.2020126.64–65.

Importantly, the District Court described the foregoing factual recitation as “not controvert[ed]” by the
government. Khoury, 2018 WL 2864413, at *1 n.2. As
a consequence, there is simply no basis for the District
Court’s subsequent finding that Mr. Khoury retreated
to Lebanon in order to avoid prosecution, four years
before he was actually charged under seal.
In the same vein, the government’s public assertion
during the Stanley plea hearing that Mr. Khoury was
at that time only a “potential defendan[t]”17 confirmed
for Mr. Khoury that, as of September 2008, he had not
been charged with any crime, and he therefore reasonably expected that the prosecutors who maligned
him publicly would also charge him publicly—or not at
all. Neither the government nor the District Court
has explained how, or at what point thereafter, he
should have divined that he had been indicted under
seal. Indeed, virtually all of the (supposedly) “credible
evidence” of Mr. Khoury’s “stron[g] susp[icion]” of his
indictment cited by the District Court (i.e., residing in
Lebanon since early 2004 and his identification as the
LNG Consultant in Mr. Stanley’s charging documents)
preceded the government’s representation during
the Stanley plea proceedings that he had not been
charged.

17

App. 122a (emphasis added); see also App. 6a (“In September
2008, [Stanley] pleaded guilty to . . . one count of conspiracy to
commit mail and wire fraud in connection with ‘kickbacks allegedly paid to Mr. Stanley by an unindicted consultant” (emphasis
added)).

27
The record is therefore clear that Mr. Khoury never
fled from prosecution in the United States and that he
cannot be held responsible for the government’s delay
in notifying him of the charges or seeking his arrest.
What is equally clear from the record is that the
government operated with inexcusable lethargy in
pursuing Mr. Khoury. The sum total of its activities
in pursuit of Mr. Khoury consisted of (1) sending a
diffusion notice to 12 countries (but not the one in
which the government knew him to be residing) in
May 2009, which confirmed for the government that
he was not traveling outside of his native Lebanon;
and (2) a renewal of that diffusion notice following the
denial of Mr. Khoury’s first motion to unseal in March
2015. App. 141a. The government did not contact
Mr. Khoury through counsel to notify him of the
charges and request his surrender. It did not notify
the Lebanese government, either via a formal extradition request or a less formal request for information
and assistance concerning his activities and whereabouts. And it did not, when all else had failed and it
became clear that Mr. Khoury was not traveling
outside Lebanon, unseal the Indictment.
The District Court’s error in blessing these activities
as “reasonable diligence” appears to stem from its
disregard of this Court’s instruction that the diligence
inquiry is a context-dependent one: actions that may
constitute reasonable diligence in one set of circumstances (e.g., in the immediate wake of an indictment)
may constitute inexcusable neglect in other circumstances (e.g., several fruitless years later).
Put differently, even if the District Court were
correct that the government acted diligently in the
immediate wake of obtaining the Indictment, it should
have judged the government’s dogged adherence to a

28
wait-and-see strategy more harshly as time passed,
and as the presumptive prejudice from such a strategy
continued to grow. See Barker, 407 U.S., at 522 (“‘[t]he
right of a speedy trial is necessarily relative’” and
“‘depends upon circumstances’” (internal quotation
marks omitted)); Doggett, 505 U.S., at 657 (discussing
second Barker factor:
“Thus, our toleration of
[governmental] negligence varies inversely with its
protractedness.”); id., at 652–53 (“For six years, the
Government’s investigators made no serious effort to
test their progressively more questionable assumption
that Doggett was living abroad . . .”).18
Accordingly, whatever the validity of the government’s initial sealing decision may be, its concealment
of the charges against Mr. Khoury became wholly
inexcusable, at the absolute latest, by the time he filed
his first motion to unseal and dismiss in 2014. By
that point, eight years had passed since he had last
visited the U.S., and it had been five years since the
government confirmed he was not traveling outside
Lebanon. See App. 53a, 141a. Mr. Khoury’s U.S.
passport had also expired. App. 279a. Given (on the
one hand) the remote chance that he would accidentally stumble into the government’s waiting arms
and (on the other) the “extraordinary” six-year delay
that had already taken place, Barker, 407 U.S., at 533,
18

See also United States v. Bergfeld, 280 F.3d 486, 489–90 (5th
Cir. 2002) (five-year delay was “official negligence” because government interest in sealing indictment “diminished as the years
passed and the Defendant’s interest in a speedy trial increased”);
United States v. Mendoza, 530 F.3d 758, 763 (9th Cir. 2008)
(“After Doggett, the government was required to make some effort
to notify Mendoza of the indictment, or otherwise continue to
actively attempt to bring him to trial, or else risk that Mendoza
would remain abroad while the constitutional speedy-trial clock
ticked”).

29
the government’s refusal to undertake additional,
active steps to apprehend him—e.g., requesting his
extradition from Lebanon, engaging with his counsel
regarding the possibility of a surrender, or even simply
unsealing the Indictment—was indefensible.
By turning a blind eye to the government’s escalating burden to justify its sealing of the Indictment, the
District Court avoided any assessment of what portion
of the post-indictment delay should have been charged
to the government. Courts regularly conduct such
segmentation when assessing the second Barker factor.
See, e.g., United States v. Avalos, 541 F.2d 1100, 1111–
14 (5th Cir. 1976) (parsing periods attributable to
deliberate government decisions, negligence, and
legitimate delay); United States v. Reynolds, 231
F. App’x 629, 631 (9th Cir. 2007) (“evidence of
attempts to apprehend Reynolds during, at most, six
of the total fifty-six months of delay”).
Given the District Court’s findings on the other
three Barker factors—most importantly, its finding of
actual prejudice to Mr. Khoury’s defense—any finding
other than a total assignment of the delay to him
would necessarily have yielded the conclusion that
his speedy-trial rights were violated. See Avalos, 541
F.2d, at 1116 (“[A] showing of actual prejudice to the
conduct of the defense will weigh heavily against the
government . . . even when the three remaining factors
are not weighted heavily in favor of the accused”
(emphasis added)). Indeed, this Court has gone even
further, indicating that where a defendant demonstrates
actual prejudice, even diligence by the government
will, at some point, cease to insulate an indictment
from a speedy-trial dismissal. See Doggett, 505 U.S.,
at 656 (“if the Government had pursued Doggett with
reasonable diligence from his indictment to his arrest,

30
his speedy trial claim would fail . . . . so long as Doggett
could not show specific prejudice to his defense”
(emphasis added)).
In light of the foregoing, the District Court manifestly erred by charging the entire period of postindictment delay to Mr. Khoury based exclusively
on his “suspicion” that he had been indicted. Mr.
Khoury’s right to relief is clear and indisputable.
3. Mandamus relief is appropriate under the
circumstances of this case. To begin with, the right
Mr. Khoury seeks to vindicate is of foundational
importance to our criminal justice system. “[T]he right
to a speedy trial is as fundamental as any of the rights
secured by the Sixth Amendment; . . . [t]he history of
the right . . . and its reception in this country clearly
establish that it is one of the most basic rights
preserved by our Constitution.” Klopfer v. North
Carolina, 386 U.S. 213, 223–26 (1967).
Moreover, the sole ground cited by the District Court
for attributing responsibility for the delay to Mr.
Khoury is that he “suspected” he was charged. App.
13a. Yet that rationale is not only contradicted by the
record, see supra, but also inconsistent with the
principle that the “primary burden [is] on the courts
and the prosecutors to assure that cases are brought
to trial,” Barker, 407 U.S., at 529.
* * *
Simply put, the Fifth Circuit’s categorical bar on
pre-judgment mandamus review of speedy-trial claims
is the lone, thin reed precluding Mr. Khoury from
obtaining mandamus relief. This Court’s review is
needed to eliminate that bar, both in this case and in
future ones.

31
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
CHARLES S. LEEPER
Counsel of Record
MARK D. TATICCHI
FAEGRE DRINKER BIDDLE
& REATH LLP
1500 K Street, N.W.
Washington, D.C. 20005
(202) 230-5371
charles.leeper@
faegredrinker.com
Counsel for Petitioner
December 7, 2020

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed May 12, 2020]
————
No. 20-20126
————
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellee

SAMIR RAFIC KHOURY,
Defendant-Appellant
————
Appeal from the United States District Court
for the Southern District of Texas
————
Before HIGGINBOTHAM, SOUTHWICK,
WILLETT, Circuit Judges. PER CURIAM:

and

IT IS ORDERED that Appellee’s opposed motion
to dismiss the appeal for lack of jurisdiction is
GRANTED.
IT IS FURTHER ORDERED that Appellant’s incorporated motion for leave to carry the motion to dismiss
the appeal for lack of jurisdiction with the case is
DENIED.
IT IS FURTHER ORDERED that Appellant’s unopposed motion for leave to file corrected brief and record
excerpts is DENIED AS MOOT.

2a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed June 16, 2020]
————
No. 20-20126
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
SAMIR RAFIC KHOURY,
Defendant-Appellant.
————
Appeal from the United States District Court
for the Southern District of Texas
————
Before HIGGINBOTHAM, SOUTHWICK,
WILLETT, Circuit Judges. PER CURIAM:

and

IT IS ORDERED that the opposed motion for clarification of the May 12, 2020 court order is GRANTED.
As clarification, Appellant’s alternative request for
mandamus relief is DENIED. A writ of mandamus
should only be issued where: (1) the petitioner has no
other adequate means to attain relief; (2) the right to
the writ is clear and indisputable; and (3) the writ is
appropriate under the specific circumstances. United
States v. Williams, 400 F.3d 277, 280–81 (5th Cir.
2005).

3a
Appellant’s request fails on the first prong. In
United States v. MacDonald, the Supreme Court
explained that “most speedy trial claims . . . are best
considered only after the relevant facts have been
developed at trial.” 435 U.S. 850, 858 (1978). Unlike
with the Double Jeopardy Clause, “the Speedy Trial
Clause does not, either on its face or according to the
decisions of th[e] Court, encompass a ‘right not to be
tried’ . . . . It is the delay before trial, not the trial itself,
that offends against the constitutional guarantee of a
speedy trial.” Id. at 861. As the Court emphasized,
“[p]roceeding with the trial does not cause or compound the deprivation already suffered.” Id. Accordingly, if necessary, Appellant can seek relief from the
alleged speedy-trial violation after final judgment is
entered.
The same is true for Appellant’s claim that his
indictment should be dismissed as time barred. Every
court that has been asked the question has answered
that 18 U.S.C. § 3282 “does not guarantee a ‘right not
to be tried’ and that denials of motions to dismiss
indictments on statute-of-limitations grounds are,
therefore, not immediately appealable.” United States
v. Weiss, 7 F.3d 1088, 1090 (2d Cir. 1993); see also, e.g.,
United States v. Garbi-Bazain, 22 F.3d 17, 18–19 (1st
Cir. 2000) (relying on the reasoning of the Second,
Third, Sixth, and Ninth Courts of Appeals to conclude
that § 3282 does not create a right that “would be
irretrievably lost if review were postponed until trial
is complete” (quoting Flanagan v. United States, 465
U.S. 259, 266 (1984))). Because Appellant can attain
the relief he seeks on appeal after final judgment, he
is not entitled to the extraordinary remedy of a writ of
mandamus.

4a
IT IS FURTHER ORDERED that the unopposed
motion for an extension of time to file a motion for
reconsideration 14 days from the date of our ruling on
this motion is GRANTED.

5a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed December 6, 2019]
————
Criminal Action No. 4:08-CR-0763
————
UNITED STATES OF AMERICA
v.
SAMIR RAFIC KHOURY
————
MEMORANDUM AND ORDER
Before the Court is Defendant’s Renewed Motion to
Dismiss. (Doc. No. 37). Defendant argues that the
Court should dismiss the pending indictment “on Speedy
Trial and statute of limitations grounds.” (Doc. No. 37
at 42). The Court determines that neither ground justifies dismissal of the indictment.
I. Background
Mr. Khoury is a naturalized citizen of the United
States, and a native of Lebanon. (Doc. No. 1, ¶1). He
worked for The M.W. Kellogg Company (“Kellogg”) in
the Middle East from 1977 through 1988. (Doc. No. 1,
¶1). In 1988, he switched to working as a consultant
for various firms including Kellogg, and later Kellogg’s
successor, Kellogg, Brown & Root, Inc. (“KBR”). (Doc.
No. 1, ¶1). That same year, Mr. Khoury moved his
residence to Cleveland, Ohio. (Doc. No. 1, ¶1). Ohio
remained Mr. Khoury’s permanent residence until he

6a
relocated to Lebanon in 2004, around the same time
that it became known that KBR was being investigated for violations of the Foreign Corrupt Practices
Act (“FCPA”). (Doc. No. 38 at 3–4.) Mr. Khoury has not
left Lebanon since, with one exception: a 2006 trip to
the U.S. to speak with prosecutors. (Doc. No. 37 at 4–
5, 38).
In September 2008, Mr. Albert Jackson Stanley, the
former CEO of KBR, pleaded guilty to one count of
conspiracy to violate the FCPA and one count of conspiracy to commit mail and wire fraud in connection
with “kickbacks” allegedly paid to Mr. Stanley by
an unindicted consultant. United States v. Albert J.
Stanley, No. 4:08-cr-0597 (S.D. Tex. 2008) (Ellison, J.)
(Doc. No. 9, ¶ 22). He was subsequently sentenced to
30 months imprisonment and ordered to pay $10.8
million in restitution. Stanley, No. 4:08-cr-0597 (Dkt.
Entry February 23, 2012). Although Mr. Khoury was
not identified by name in the indictment, he claims
that the personal details given during the proceedings
made it obvious to him and others in his industry that
he was the consultant to whom the government was
referring. (Doc. No. 37 at 18–19). When asked by Mr.
Khoury’s attorney, the government refused to confirm
or deny whether an indictment had been or would be
filed against him. (Doc. No. 11 at 2).
On November 24, 2008, a grand jury returned an
indictment charging Mr. Khoury with conspiring to
commit mail and wire fraud. (Doc. No. 1, ¶¶ 2–3, 5–7).
The indictment alleged that Mr. Khoury paid approximately $11 million in kickbacks to Mr. Stanley in
exchange for providing lucrative consulting fees to
Mr. Khoury’s company. (Doc. No. 1, ¶¶ 2–3, 5–7). The
indictment was placed under seal when it was
returned. (Doc. No. 5).

7a
In January 2009, the government entered Mr.
Khoury’s arrest warrant into the National Crime
Information Center (“NCIC”) database to alert border
officials in the event Mr. Khoury attempted to re-enter
the United States. (Doc. No. 38-1, ¶ 4). In May 2009,
the government issued an INTERPOL Wanted Person
Diffusion to twelve countries (not including Lebanon)
through the U.S. National Central Bureau for Interpol.
(Doc. No. 37-2 at 4). The government later issued
another Diffusion to the twelve countries in 2015, and
an INTERPOL Red Notice in 2019. (Doc. No. 38 at
15–16.) An Interpol Red Notice alerts foreign governments to the issuance of a U.S. arrest warrant, while
a Diffusion Notice, which is less formal than a Red
Notice, may be sent to select countries to obtain assistance in locating, arresting and detaining a wanted
subject. About Notices, INTERPOL, https://www.inter
pol.int/How-we-work/Notices/About-Notices (last visited
Sept. 25, 2019).
In December 2014, Mr. Khoury moved to unseal and
dismiss the indictment he suspected was pending
against him, but the motions were denied. (Doc. No. 11
at 10); see also United States v. Khoury, 4:14-mc-2884
(Dec. 12, 2014). Mr. Khoury next brought a civil suit
challenging his public identification as an unindicted
co-conspirator in federal court in the Stanley case. See
Doe v. United States, 4:15-MC-2414 (Aug. 20, 2015).
The Fifth Circuit in that case held that the civil suit
was time-barred. Doe v. United States, 853 F.3d 792
(5th Cir. 2017). In 2017, Mr. Khoury brought another
action to unseal and dismiss the indictment that he
believed to be pending against him. United States v.
Khoury, 4:17-mc-2553. This Court granted the motion
to unseal the indictment on July 9, 2018. Khoury, 4:17mc-2553 (Doc. No. 25). At that point, Mr. Khoury
refiled his motion to dismiss in his criminal case.

8a
United States v. Khoury, 4:08-cr-0763 (Doc. No. 11).
In November 2018, the Court declined to apply the
fugitive disentitlement doctrine (Dkt. Entry Nov. 29,
2018), which is an equitable doctrine allowing a court
discretion to refuse to consider the merits of a defendant’s motion or appeal when the defendant is a fugitive
from justice. Bagwell v. Dretke, 376 F.3d 408, 410 (5th
Cir. 2004). In March 2019, the Court ordered that the
government provide Mr. Khoury with further evidence
about its attempts to bring him to trial. (Doc. No. 26).
Mr. Khoury’s Renewed Motion to Dismiss (Doc. No.
37), now before the court, incorporates that evidence.
After a hearing on the Renewed Motion to Dismiss, the
Court requested and received supplemental briefing
on the availability of extradition of dual nationals from
Lebanon. (Doc. Nos. 44, 45, 46). Having considered the
parties’ briefing, the evidence, and the applicable law,
the Court denies Mr. Khoury’s Renewed Motion to
Dismiss. (Doc. No. 37).
II. Discussion
Mr. Khoury argues that the Court should dismiss
the inditement against him on two grounds. First, he
argues that the decade-long delay in prosecution
has deprived him of his Sixth Amendment right to a
speedy trial. Second, he argues that the indictment
is time-barred by 18 U.S.C. § 3282. The Court finds
neither argument persuasive.
A. Speedy Trial
The Sixth Amendment guarantees that “in all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial . . . .” U.S. Const. Amend. VI.
Excessive delay in prosecuting a defendant after he is
indicted or arrested violates this Sixth Amendment
right. Barker v. Wingo, 407 U.S. 514 (1972); Doggett v.

9a
United States, 505 U.S. 647 (1992). Mr. Khoury argues
that the roughly decade-long delay in prosecuting his
case is excessive and that his motion to dismiss should
therefore be granted.
Courts evaluate speedy trial claims by analyzing the
Barker factors: (1) the length of the delay; (2) whether
the delay is attributable to the government or the
defendant; (3) whether the defendant asserted his
right to a speedy trial; and (4) whether the defendant
suffered any prejudice from the delay. 407 U.S. at 530.
None of the factors is “a necessary or sufficient condition to the finding of a deprivation of the right of
speedy trial. Rather, they are related factors and must
be considered together with such other circumstances
as may be relevant.” Id. at 533.
Barker factors (1), (3), and (4) favor Mr. Khoury. The
government concedes under factor (1) that “the
passage of more than nine years between the return
and unsealing of the indictment triggers a speedy trial
analysis and weighs in Defendant’s favor.” (Doc. No.
38 at 9); see also United States v. Cardona, 302 F.3d
494, 497 (5th Cir. 2002) (“Because of the extraordinary
delay of over five years, this factor weighs heavily
in Cardona’s favor.”). Factor (3) also weighs in Mr.
Khoury’s favor. Mr. Khoury asserted his right to a
speedy trial in December 2014 when he moved both to
unseal and dismiss on speedy trial grounds the indictment that he surmised was pending against him. (Doc.
No. 37 at 8–9). Finally, Mr. Khoury has made a showing of actual prejudice under factor (4) because at least
a dozen potential defense witnesses have allegedly
died since 2009. (Doc. No. 37, Exh. E). The delay has
also hampered Mr. Khoury’s ability to preserve documents and to testify credibly in his own defense about

10a
an offense that allegedly occurred roughly twenty-five
years ago.
However, “[t]he flag all litigants seek to capture is
the second factor, the reason for delay.” United States
v. Loud Hawk, 474 U.S. 302, 315 (1986). In assessing
this factor, “the conduct of both the prosecution and
the defendant are weighed.” Barker, 407 U.S. at 530.
Here, the balance tips strongly in the government’s
favor. While the government has proceeded with “reasonable diligence,” Doggett, 505 U.S. at 656, Mr. Khoury
has purposefully evaded the government’s efforts by
remaining in Lebanon. Mr. Khoury thus bears the
blame for the delay.
Mr. Khoury argues that the government failed to act
with reasonable diligence because the only actions it
took in the first six years after sealing the indictment
were in 2009 when it entered Mr. Khoury’s arrest
warrant into the NCIC database and issued an
INTERPOL Diffusion. (Doc. No. 37 at 26). The government argues that it did everything it reasonably could
have been expected to do, given that Mr. Khoury has
resided in Lebanon since 2004. (Doc. No. 38 at 9). At
the heart of the parties’ dispute, lies the issue whether
it was unreasonable for the government not to request
Mr. Khoury’s extradition.
As evidence that extradition was unavailable, the
government has submitted a declaration from Jeffrey
M. Olson, an Associate Director at the Office of International Affairs (“OIA”). (Doc. No. 44-1). Mr. Olson
attests that it would have been futile to request Mr.
Khoury’s extradition because “[t]he United States and
Lebanon do not have a bilateral extradition treaty,”
and “Article 32 of the Lebanese Criminal Code prohibits the extradition of Lebanese Citizens, including
[dual citizens].” (Doc. No. 44-1, ¶¶ 6–8). Article 32

11a
provides that “[o]ffences falling within the territorial
jurisdiction or the jurisdiction rationae materiae or
ratione personae of Lebanese law . . . may not give rise
to extradition,” while Article 20 defines jurisdiction
ratione personae as jurisdiction over “any Lebanese
national who, acting outside Lebanese territory . . .
commits a felony or misdemeanor that is punishable
under Lebanese law.” LEB. PENAL CODE ARTS. 20, 32
(Doc. No. 45-1). Mr. Olson’s explains that his understanding of Article 32 is “based on OIA’s communications with Lebanese government officials” and that he
is “unaware of any instances in which Lebanon has
agreed to extradite to the United States any person
deemed to be a Lebanese citizen or dual citizens of
Lebanon and another country.” (Doc. No. 44-1, ¶¶ 6–
8). Additionally, the government submitted a declaration from Tom Heinemann, Assistant Legal Advisor in
the State Department, in which Mr. Heinemann states
that it is also his understanding “that Article 32 of the
Lebanese Criminal Code prohibits the extradition of
Lebanese nationals” and that this understanding is
“based on public representations of the Government of
Lebanon . . . and on direct communications between
Lebanon and the United States with respect to past
extradition requests.” (Doc. 46, Exh. B).
In response, counsel for Mr. Khoury has helpfully
provided two declarations from experts on Lebanese
extradition law. One is from Judge Afif Chamseddine,
member of the Appeals Chamber of the Special Tribunal for Lebanon in The Hague (Doc. No. 45, Exh. B),
the other from Judge Hatem Madi, the former Public
Prosecutor of Lebanon’s Court of Cassation (Doc. No.
45, Exh. C). Judge Chamseddine concludes that the
phrase “may not give rise to” in Article 32 is discretionladen and that it is thus “possible to extradite a foreign
national,” but only “in light of the decision-making and

12a
the assessment of the Lebanese authorities in each
case separately.” (Doc. No. 45, Exh. B). Judge Madi
agrees that Article 32 does not “explicit[ly] and
direct[ly]” prohibit the extradition of Lebanese citizens,
and concludes that a request to extradite a Lebanese
citizen is “subject to the decision of the Lebanese government, which has the sole right to accept it or to
reject it . . . based on its absolute discretionary authority[.]” (Doc. 45, Exh. C).
The Court need not settle the parties’ dispute over
how to interpret Article 32. Even assuming that
Article 32 reserves to the Lebanese government discretion to extradite Lebanese citizens, the record contains
no indication that the Lebanese government is willing
to exercise its discretion in this manner. Neither party
has cited to a single instance in which the Lebanese
government has agreed to extradite a Lebanese citizen
to the United States. Further, both Mr. Olson and
Mr. Heinemann attest that past conversations with
Lebanese officials left them with the clear understanding that extradition is unavailable. The government
thus had good reason to conclude that requesting Mr.
Khoury’s extradition would have been an exercise in
futility. “[W]here our government has a good faith
belief supported by substantial evidence that seeking
extradition from a foreign country would be futile,
due diligence does not require our government to do
so.” U.S. v. Corona-Verbera, 509 F.3d 1105, 1114–15
(9th Cir. 2007); see also U.S. v. Tchibassa, 452 F.3d
918, 924–25 (D.C. Cir. 2006) (defendant “was more to
blame than the government for the initial delay
because he maintained his residence in Zaire, beyond
the government’s diplomatic reach,” and the government is not required to pursue “extraordinary measures”
where no extradition treaty exists). Under the circum-

13a
stances, the government demonstrated reasonable
diligence.
Mr. Khoury further argues that “[t]he government’s
tactical decision to deny Mr. Khoury notice of the
indictment, and affirmative actions to prevent unsealing, make the government solely responsible for the
delay.” (Doc. No. 39 at 4). But the government’s reasonable decision to seal the indictment did not leave
Mr. Khoury unaware of his indictment. Cf. United
States v. Brown, 169 F.3d 344, 349 (6th Cir. 1999)
(holding that the government “failed to prove that
Brown was actually culpable in causing the delay in
his case” because it “did not present credible evidence
that Brown was aware of the issuance of the indictment”). In this case, the government has provided
credible evidence that, even during the period the
indictment was sealed, Mr. Khoury strongly suspected
his indictment and chose to remain in Lebanon as a
result. The government points to evidence that Mr.
Khoury moved to Lebanon in 2004, around the time
the DOJ began its investigation (Doc. No. 16-1); that
Mr. Khoury has not been back since, except for one trip
in 2006 under the terms of a safe passage letter issued
as part of the investigation (Doc. No. 16-1); that by
September 2008, Mr. Khoury was aware that he was
implicated as a co-conspirator (Doc. No. 37 at 6–7); and
that by 2014, Mr. Khoury had filed a motion to unseal
and dismiss the indictment he presumed was pending
against him (4:14-mc-02884, Doc. No. 1). Indeed, Mr.
Khoury claims that he and others in the industry could
readily tell that he was the unidentified consultant
referred to in Mr. Stanley’s indictment issued in 2008.
(Doc. No. 37 at 18).
Collectively, these facts constitute credible evidence
that Mr. Khoury remained in Lebanon purposely to

14a
evade prosecution during the roughly ten-year period
in question. “[A] defendant who intentionally evades
the government’s efforts to bring him to trial is culpable in causing the delay.” United States v. Ingram, 446
F.3d 1332, 1337–38 (11th Cir. 2006) (internal citations
omitted). Thus, “the prejudice growing from such
delay cannot be weighed in his favor.” Brown, 169 F.3d
at 349. The Court therefore determines that the
balance of Barker factors weighs in the government’s
favor. Mr. Khoury’s Sixth Amendment right to a
speedy trial has not been violated.
B. Statute of Limitations
Title 18 includes a general five-year statute of
limitations for non-capital federal crimes.
1. The Sharpe Exception
“A sealed indictment will not relate back to the time
of its filing for limitations purposes if the defendant
can demonstrate that substantial actual prejudice
occurred between the sealing and the unsealing.”
Sharpe, 995 F.2d at 51. Mr. Khoury argues that,
because he was prejudiced by the government’s decision to seal his indictment, his indictment was not
“found” for purposes of § 3282 until it was unsealed on
July 9, 2018. (Doc. 37 at 39–40). Accordingly, Mr.
Khoury argues that all counts in the indictment are
time-barred because the § 3282 statute of limitations
expired before July 9, 2018. (Doc. 37 at 39–40).
For the reasons stated in Section II.A, the Court
agrees that Mr. Khoury suffered “substantial actual
prejudice . . . between the sealing and the unsealing.”
Sharpe, 995 F.2d at 51. The government has argued
persuasively, however, that the prejudice to Mr.
Khoury is “self-inflicted.” (Doc. No. 38 at 38). As

15a
discussed above, the delay in Mr. Khoury’s case was
caused by his decision to retreat to Lebanon, not the
government’s decision to seal. The Court doubts that
the Fifth Circuit intended for the Sharpe exception to
extend to cases involving self-inflicted prejudice.
Applying the rule rather than the exception, the Court
therefore finds that Mr. Khoury’s indictment was
“found” when it was filed and sealed on November 24,
2008.
Mr. Khoury argues that this Court should recognize
an exception for instances in which the indictment was
sealed for an improper purpose or an inappropriate
amount of time. See e.g., United States v. Gigante, 436
F. Supp. 2d 647, 654 (S.D.N.Y. 2006); United States v.
Sherwood, 38 F.R.D. 14 (D. Conn. 1964). The Court
agrees that “the government’s ability to toll the statute
of limitations by sealing and indictment is not unlimited.” Sharpe, 995 F.2d at 52 n.5. Under the circumstances, however, the government’s decision to seal
the indictment was of reasonable purpose and length.
In particular, it was reasonable to keep the indictment
sealed to increase the likelihood that Defendant would
venture outside Lebanon where he could be
apprehended.
2. Section 3292 Suspension
Counts Two, Three, Nine and Ten allege conduct
that occurred between December 8, 2000 and August
24, 2001. (Doc. No. 1). The indictment was filed and
sealed on November 24, 2008. (Doc. No. 1). Thus,
absent tolling of the § 3282 statute of limitations,
Counts Two, Three, Nine and Ten would have been
time-barred at the time of indictment.

16a
The government relies on the suspension provision
in § 3292 to argue that the counts are not time-barred.
(Doc. No. 38 at 34). Section 3292 provides:
(a)(1) Upon application of the United States,
filed before return of an indictment, indicating that evidence of an offense is in a foreign
country, the district court before which a
grand jury is impaneled to investigate the
offense shall suspend the running of the
statute of limitations for the offense if the
court finds by a preponderance of the evidence
that an official request has been made for such
evidence and that it reasonably appears, or
reasonably appeared at the time the request
was made, that such evidence is, or was, in
such foreign country.
(2) The court shall rule upon such application
not later than thirty days after the filing of
the application.
(b) Except as provided in subsection (c) of this
section, a period of suspension under this section shall begin on the date on which the
official request is made and end on the date
on which the foreign court or authority takes
final action on the request.
(c) The total of all periods of suspension under
this section with respect to an offense—
(1) shall not exceed three years; and
(2) shall not extend a period within which
a criminal case must be initiated for more
than six months if all foreign authorities
take final action before such period would
expire without regard to this section.

17a
(d) As used in this section, the term “official
request” means a letter rogatory, a request
under a treaty or convention, or any other
request for evidence made by a court of the
United States or an authority of the United
States having criminal law enforcement
responsibility, to a court or other authority of
a foreign country.
18 U.S.C. § 3292 (emphasis added). In Mr. Khoury’s
case, the government made an official request for
evidence to a foreign country on September 30, 2004,
and in November 2006 applied for and received an
order suspending the limitations period. (Doc. 38 at
34). Final action on the request occurred in July 2008.
(Doc. 38 at 34).
Relying on § 3292, the government argues that
Counts Two, Three, Nine and Ten are not time-barred
because the five-year limitations period was suspended starting on September 30, 2004, the date the
government requested foreign aid. See United States
v. Bischel, 61 F.3d 1429, 1434 (9th Cir. 1995) (“[T]he
statute plainly contemplates that the starting point
for tolling the limitations period is the official request
for evidence, not the date the § 3292 [application] is
made or granted”). The suspension lasted for the statutory maximum of three years because final action on
the request was not received until July 2008. See 18
§ 3292(c)(1) (The period of suspension “shall not exceed
three years”). Thus, the limitations period for each
count was suspended between September 30, 2004 and
September 30, 2007. Once that three-year suspension
is added to the original five-year limitations period, it
is clear that Counts Two, Three, Nine and Ten are not
time-barred.

18a
Mr. Khoury argues that the government’s reasoning
is flawed because, although the government requested
foreign aid on September 30, 2004, it waited until
November 2006 to apply for a court order suspending
the limitations period pursuant to § 3292. By then, the
argument goes, there was no statute of limitations to
“suspend” because the five-year statute of limitations
on Counts Two, Three, Nine and Ten had expired
between December 8, 2005 and August 24, 2006. (Doc.
No. 37 at 34). In support of this argument, Mr. Khoury
points to United States v. Kozeny, in which the Second
Circuit held that “the plain language of [§ 3292]
requires that an application to suspend the running of
the statute of limitations be filed before the limitations
period has expired.” 541 F.3d 166, 174 (2d Cir. 2008).
The Ninth Circuit has held otherwise however. See
Bischel, 61 F.3d at 1434 (rejecting Defendant’s argument that a § 3292 order cannot “revive” an expired
period of limitations). The Fifth Circuit has not
addressed whether § 3292 suspension is appropriate
when the government makes an official request
for foreign evidence before the statute of limitation
has run, but applies for suspension of the statute of
limitations after it has run. The issue is a close one.
The Court determines, however, that the text of § 3292
favors the government’s view that the application for
suspension may be filed any time prior to filing of the
indictment, so long as the official request for evidence
is made while the statute of limitations is still running. Again, § 3292 provides in relevant part:
Upon application of the United States, filed
before return of an indictment, indicating that
evidence of an offense is in a foreign country,
the district court . . . shall suspend the running of the statute of limitations for the
offense if the court finds by a preponderance

19a
of the evidence that an official request has
been made for such evidence and that it reasonably appears, or reasonably appeared at
the time the request was made, that such evidence is, or was, in such foreign country. . . .
[A] period of suspension under this section
shall begin on the date on which the official
request is made and end on the date on which
the foreign court or authority takes final
action on the request.
18 U.S.C. § 3292 (emphasis added). The Court hesitates to read the phrase “filed before return of an
indictment” to mean, as Mr. Khoury would have it,
“filed before return of an indictment and before
expiration of the un-tolled statute of limitations.” The
Court therefore agrees with the government’s interpretation of § 3292 and holds that Counts Two, Three,
Nine and Ten are not time-barred.
III Conclusion
The Court DENIES Defendant’s Renewed Motion to
Dismiss. (Doc. No. 37).
IT IS SO ORDERED.
SIGNED at Houston, Texas, on this the 6th day of
December 2019.
/s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

20a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed February 24, 2020]
————
Criminal Action No. 4:08-Cr-763
————
UNITED STATES OF AMERICA
vs.
SAMIR RAFIC KHOURY
————
MEMORANDUM AND ORDER
On December 6, 2019, the Court issued a Memorandum and Order (Doc. No. 47), denying Defendant Samir
Khoury’s Renewed Motion to Dismiss (Doc. No. 37).
Defendant has filed a Motion for Rulings on Constitutional Issues not Addressed in December 6, 2019
Memorandum and Order. (Doc. No. 48). Defendant
asks the Court to rule on the following constitutional
issues:
(1) Whether prosecutors violated Khoury’s Fifth
Amendment right to due process in 2008 by
publicly accusing him of a crime in a criminal
proceeding without providing him a public
forum for vindication.
(2) Whether prosecutors had a Sixth Amendment
duty to notify Mr. Khoury of the charges no
later than November 2009 when pre-trial delay
became presumptively prejudicial or, alternatively, in February 2014 when the government,

21a
by its own admission, confirmed that Mr. Khoury
was not traveling outside Lebanon.
The Court found it unnecessary to reach issue (1) in
its December 6th Memorandum and Order. After considering Mr. Khoury’s motion, the Court continues to
find the alleged Fifth Amendment due process violation irrelevant to its Sixth Amendment speedy trial
analysis.
Mr. Khoury argues that his due process claim is
relevant because it bears on the second Barker factor,
which looks at the reason for the delay. Specifically, he
argues that “because sealing the indictment violated
due process, the sealing also made the government
exclusively responsible under the second Barker factor
for the nearly ten years resulting delay.” (Doc. 48 at 6).
However, even assuming, without deciding, that Mr.
Khoury’s due process right to a public forum for vindication was violated, that second Barker factor weighs
against him. The violation of an accused’s due process
right to a public forum for vindication may make the
need for a speedy trial more pressing. See United
States v. Briggs, 514 F.2d 794, 798 (5th Cir. 1975)
(“The public ignominy of being accused of crime is one
of the factors underlying the Sixth Amendment right
to speedy trial.”). But the issue of who caused the
delay—the government or the defendant—is a separate issue. The Court found, and continues to find, that
Mr. Khoury caused the delay because “Mr. Khoury
strongly suspected his indictment and chose to remain
in Lebanon as a result,” with the purpose of “evadi[ng]
prosecution.” (Doc. 47 at 8).
Mr. Khoury further argues that the court should
rule on his alleged due process violation because it is
relevant to his argument that the indictment counts

22a
are time-barred by the five-year statute of limitations
imposed by 18 U.S.C. § 3282(a). He argues: “A sealing
that violates Due Process is indisputably improper, so
the Indictment was ‘found’ only when it was unsealed.”
(Doc. 48 at 6). However, Mr. Khoury has cited to no
case in which a court has dismissed an indictment as
untimely because its sealing deprived the accused of a
forum of vindication in violation of the Fifth Amendment. The Court declines to create such a novel exception in this case.
Regarding issue (2), the Court concludes it has
adequately addressed the issue in its December 6th
Memorandum and Order. (Doc. 47). In that Order, the
Court held that “[u]nder the circumstances, the government demonstrated reasonable diligence.” (Doc. 47
at 7). This holding implies that, under the circumstances, reasonable diligence did not require the government to notify Mr. Khoury of the charges against
him. Indeed, this Court held that “it was reasonable to
keep the indictment sealed to increase the likelihood
that Defendant would venture outside Lebanon where
he could be apprehended.” (Doc. 47 at 10–11). The
Court therefore construes the second half Mr. Khoury’s
Motion (Doc. 48) as a motion for reconsideration of
these holdings.
Mr. Khoury cites to several cases in support of his
claim that “sealing of indictments, or other delay in
notifying a defendant of criminal charges, can no
longer be justified when pre-trial delay approaches
one year.” (Doc. 48 at 6). However, none of the cases
that Mr. Khoury cites supports such a bright line rule.
In each case cited, the defendant was unaware of the
pending indictment, and so would have benefited from
notice by the government. Here, in contrast, the Court
previously found that Mr. Khoury “strongly suspected

23a
his indictment and chose to remain in Lebanon as a
result.” (Doc. 47 at 8). This difference matters because,
as one of the opinions cited by Mr. Khoury states, “a
defendant who evades prosecution is culpable in
causing the delay, and the prejudice growing from
such delay cannot be weighed in his favor.” United
States v. Brown, 169 F.3d 344, 349 (6th Cir. 1999).
Finally, Mr. Khoury argues that that reasonable diligence at least required the government to notify Mr.
Khoury “in February 2014 when the government, by
its own admission, confirmed that Mr. Khoury was not
traveling outside Lebanon.” (Doc. 48 at 10). The
alleged “admission” is the government’s statement
that Mr. Khoury’s decision to allow his U.S. passport
to expire by 2014 “further confirmed his continued
intention to avoid U.S. jurisdiction.” (Doc. 38 at 23). If
anything, however, the lapse of Mr. Khoury’s U.S.
passport supports the Court’s prior holding that “it
was reasonable to keep the indictment sealed to
increase the likelihood that Defendant would venture
outside Lebanon where he could be apprehended,”
(Doc. 47 at 10–11), because it confirms that was the
governments only prospect for securing Mr. Khoury’s
presence for trial.
The Motion for Rulings on Constitutional Issues
(Doc. No. 48) is DENIED.
IT IS SO ORDERED.
SIGNED at Houston, Texas, on this the 24th day of
February, 2020.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

24a
APPENDIX E
UNDER SEAL
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed February 19, 2015]
————
Case No. 14-mc-2884
————
UNITED STATES OF AMERICA
vs.
SAMIR KHOURY
————
ORDER
Whereas Samir Khoury filed on December 12, 2014,
a “Motion by Samir Khoury to Dismiss the Indictment
as Time-Barred or, Alternatively, for Violation of His
Right to a Speedy Trial”; and an Order was issued on
December 13, 2014, directing that the Motion to
Dismiss and related documents remain under seal and
that the United States “provide any sealed indictment
to counsel for the defendant”; and the United States
filed on December 24, 2014, a “Motion for Reconsideration, in Part, of Court Order to Produce ‘Any Sealed
Indictment’ to Counsel for Samir Khoury,”
It is hereby ORDERED that the United States’
Motion for Reconsideration is GRANTED in so far as
the United States is not required to “provide any
sealed indictment to counsel for the defendant”; and it
is further ORDERED that Samir Khoury’s Motion to
Dismiss the Indictment is DENIED.

25a
It is also hereby ORDERED that this Order, Samir
Khoury’s Motion to Dismiss and related documents,
and the February 4, 2015 court transcript are and
shall remain SEALED until further order of this
Court.
Signed: Houston, Texas on February 19, 2015.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

26a
APPENDIX F
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed July 9, 2018]
————
No. 4:17-MC-2553
MISCELLANEOUS ACTION
————
UNITED STATES OF AMERICA
vs.
SAMIR KHOURY
————
ORDER
Pending before the Court is the Motion of Samir
Khoury to Unseal and Dismiss the Indictment for Violation of His Right to a Speedy Trial, or as TimeBarred (“Motion”).1 Mr. Khoury believes that he is the
subject of a sealed indictment, and he moves to unseal
and dismiss that indictment, without knowing for
certain that it exists.
On June 11, 2018, the Court issued a Memorandum
and Order on Mr. Khoury’s Motion. (Doc. No. 22.) The
Court addressed arguments regarding the unsealing
of the indictment, but not arguments regarding the
dismissal of the indictment. The Court agreed to
1

The Motion appears with redactions at Docket Number 1,
and without redactions at Docket Number 4-2. The Court has previously ordered the redacted version unsealed, upon Mr. Khoury’s
unopposed motion to do so. (Doc. No. 12.)

27a
review, in camera, any evidence that the Government
wished to adduce in opposition to Mr. Khoury’s
Motion. The Government then filed an Ex Parte Notice
under seal. (Doc. No. 23.)
Mr. Khoury also moves to unseal the Government’s
Ex Parte Notice. (Doc. No. 24.) The Court GRANTS
Mr. Khoury’s motion to unseal the Government’s Ex
Parte Notice.
In its Ex Parte Notice, the Government withdraws
its opposition to the unsealing of the indictment and
arrest warrant in United States v. Samir Khoury, No.
4:08-cr-763. The Government remains opposed to Mr.
Khoury’s motion to dismiss the indictment. (See Doc.
No. 23 at 2 n.2.)
The Court GRANTS IN PART Mr. Khoury’s Motion,
and orders the indictment and arrest warrant in
United States v. Samir Khoury, No. 4:08-cr-763, to be
unsealed.
IT IS SO ORDERED.
SIGNED at Houston, Texas, on this the 9th day of
July, 2018.
/s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

28a
APPENDIX G
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
Office of The Clerk
Lyle W. Cayce
Clerk

Tel. 504-310-7700
600 S. Maestri Place,
Suite 115
New Orleans, LA 70130

July 13, 2020
MEMORANDUM TO COUNSEL
OR PARTIES LISTED BELOW:
No. 20-20126 USA v. Samir Khoury
USDC No. 4:08-CR-763-1
Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk
By: /s/ Jann M. Wynne
Jann M. Wynne, Deputy Clerk
504-310-7688
Mr. David Benjamin Gerger
Mr. Charles S. Leeper
Ms. Carmen Castillo Mitchell
Mr. John Alexander Romano
Mr. Jeremy Raymond Sanders

29a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
————
No. 20-20126
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
SAMIR RAFIC KHOURY,
Defendant-Appellant
————
Appeal from the United States District Court
for the Southern District of Texas
————
ON PETITION FOR REHEARING EN BANC
Before HIGGINBOTHAM,
WILLETT, Circuit Judges.

SOUTHWICK,

and

PER CURIAM:
(X) No member of the panel nor judge in regular active
service of the court having requested that the court
be polled on Rehearing En Banc (FED. R. APP. P.
and 5TH CIR. R. 35), the Petition for Rehearing En
Banc is DENIED.
( ) The court having been polled at the request of one
of the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor (FED. R. APP.
P. and 5TH CIR. R. 35), the Petition for Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Don. R. Willett
UNITED STATES CIRCUIT JUDGE

30a
APPENDIX H
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed November 24, 2008]
————
Criminal No. 4:08 CR 763
18 U.S.C. § 1349
18 U.S.C. § 1341
18 U.S.C. § 1343
18 U.S.C. § 1346
————
UNITED STATES OF AMERICA
v.

Plaintiff,

SAMIR RAFIC KHOURY,
Defendant.
————
INDICTMENT
The Grand Jury charges:
COUNT 1
Conspiracy to Commit Mail and Wire Fraud
(18 U.S.C. § 1349)
I. Introduction
At all times material to this Indictment, unless otherwise stated:
1. Defendant SAMIR RAFIC KHOURY was a citizen of the United States and a citizen of Lebanon.
From in or about 1988, until in or about February

31a
2004, when he moved to Lebanon, Khoury’s primary
residence was in Cleveland, Ohio. From in or about
1977, until in or about 1988, KHOURY was an
employee of The M.W. Kellogg Company (“Kellogg”).
In or about 1988, KHOURY resigned from Kellogg
and became a consultant to Kellogg and subsequently
Kellogg’s successor, Kellogg, Brown & Root, Inc.
(“KBR”), among other firms.
2. Before September 1998, Kellogg was a wholly
owned subsidiary of Dresser Industries, Inc. (“Dresser”),
a publicly traded U.S. corporation. In September 1998,
Halliburton Company (“Halliburton”) merged with
Dresser, and Dresser’s Kellogg subsidiary was merged
with Halliburton’s Brown & Root construction subsidiary to form KBR. Kellogg and subsequently KBR were
engaged in the business of providing engineering, procurement, and construction (“EPC”) services around
the world, including designing and building liquefied
natural gas (“LNG”) production plants, ethylene production plants, and other petrochemical production
plants. At all times relevant to this Indictment,
Kellogg and KBR were incorporated in Delaware and
headquartered in Houston, Texas. Halliburton was
incorporated in Delaware and headquartered in
Dallas, Texas, until 2002, when it became headquartered in Houston, Texas.
3. Albert Jackson Stanley (“Stanley”) was a resident of Houston, Texas. From in or about March 1991,
until in or about June 1995, Stanley was Executive
Vice President of Kellogg. From in or about June 1995,
until in or about 1997, Stanley was President of
Kellogg. From in or about 1997, until September 1998,
Stanley was Chairman and Chief Executive Officer of
Kellogg. From on or about September 29, 1998, to on
or about March 31, 2001, Stanley was President and

32a
Chief Executive Officer of KBR. From on or about
April 1, 2001, until he was terminated on or about
June 16, 2004, Stanley was the Chairman of KBR, first
as an employee and then, after January 1, 2004, pursuant to a consulting agreement.
4. As an officer and employee of Kellogg, STANLEY
owed a fiduciary duty of loyalty, fidelity, and allegiance to Kellogg and Dresser. As an officer and
employee of KBR, STANLEY owed a fiduciary duty
of loyalty, fidelity, and allegiance to KBR and
Halliburton. Under his consulting agreement with
Halliburton, STANLEY owed a fiduciary duty of loyalty, fidelity, and allegiance to KBR and Halliburton.
5. Gulf Commercial Agencies (“GCA”) was a British
Virgin Islands corporation established in or about
1993 that KHOURY used as a corporate vehicle for his
consulting business. Bank accounts for GCA and for
an acquaintance (the “GCA Nominee Owner”) were
established in Switzerland. The GCA Nominee Owner
and others served as the nominal owners and directors
of GCA and as the signatories for GCA’s and the GCA
Nominee Owner’s bank accounts. KHOURY caused
GCA to enter into a series of consulting agreements
with Kellogg and KBR. KHOURY caused GCA’s consulting contracts to be signed in the name of the GCA
Nominee Owner rather than in Khoury’s own name.
GCA’s activities and its bank accounts were in fact
controlled by and for the benefit of KHOURY.
6. The GCA agreements with Kellogg and KBR
generally provided for GCA to receive much larger fees
than KHOURY previously had received from Kellogg.
At least five of the agreements between GCA and
Kellogg or KBR provided for a fixed $10 million success fee if the LNG plant project covered by the agreement was awarded to Kellogg or KBR. From in or

33a
about January 1996, until in or about December 2003,
Kellogg and KBR paid GCA approximately $34 million
in consulting fees in connection with EPC contracts
that Kellogg or KBR won to design and/or build LNG
plants in the Sultanate of Oman, the Federal Republic
of Nigeria, Qatar, Malaysia, the Republic of Indonesia,
and the Arab Republic of Egypt.
7. In return for Stanley assisting KHOURY in
obtaining lucrative consulting fees from Kellogg and
KBR, KHOURY paid Stanley kickbacks of approximately $4 million from consulting fees that Kellogg
had paid to a KHOURY-controlled consulting company in Lebanon (the “Lebanese Consulting Company”) in connection with an LNG project in Malaysia
and of approximately $7 million from consulting fees
that Kellogg and KBR had paid to GCA in connection
with an LNG project in Nigeria and another LNG project in Malaysia.
II. The Conspiracy and the Scheme to Defraud
8. Beginning no later than in or about December
1991, and continuing to in or about 2004, in the Southern District of Texas, and elsewhere, defendant
KHOURY did unlawfully, willfully, and knowingly
combine, conspire, confederate, and agree, with
Stanley and with others, known and unknown to the
Grand Jury, to commit offenses against the United
States of America, to wit: to devise and attempt to
devise a scheme and artifice to defraud and obtain
money and property from Kellogg, KBR, and others by
means of false and fraudulent pretenses, representations, and promises, and to defraud Kellogg, Dresser,
KBR, and Halliburton of their rights to their
employee’s honest services, and did knowingly use the
mails and interstate wires for the purpose of executing

34a
such scheme and artifice, in violation of Title 18,
United States Code, Sections 1341, 1343, and 1346.
III. Purpose of the Conspiracy and Scheme to
Defraud
9. The purpose and object of the conspiracy was for
KHOURY and Stanley to unjustly enrich themselves
by obtaining money and property falsely and fraudulently from Kellogg, KBR, and others in the form of
consulting fees which were paid, directly or indirectly,
to KHOURY and portions of which, in turn, were paid
by KHOURY to Stanley as “kickbacks.”
IV. Manner and Means of the Conspiracy and
Scheme to Defraud
10. KHOURY and Stanley employed various manner and means to carry out the conspiracy, including
but not limited to the following:
a. Stanley caused Kellogg and KBR to enter
into lucrative consulting agreements with
KHOURY or companies designated and controlled
by KHOURY in connection with various LNG projects around the world.
b. Pursuant to the consulting agreements,
KHOURY or companies designated and controlled
by KHOURY were paid tens of millions of dollars
in “success” fees on LNG projects obtained by
Kellogg and KBR.
c. KHOURY paid kickbacks to Stanley out of
the consulting fees that Kellogg and KBR had paid
KHOURY or companies designated and controlled
by KHOURY.
d. KHOURY and Stanley concealed from
Kellogg and KBR that KHOURY was paying kick-

35a
backs to Stanley out of consulting fees that Kellogg
and KBR had paid KHOURY or companies designated and controlled by KHOURY.
e. KHOURY and Stanley caused the kickbacks
to be routed through Swiss bank accounts, including through accounts held in the names of nominees and shell companies, in order to conceal their
scheme.
V. Overt Acts
11. In furtherance of the conspiracy and to achieve
its purpose and object, at least one of the coconspirators committed or caused to be committed, in
the Southern District of Texas, and elsewhere, the
following overt acts, among others:
a. On or about December 23, 1991, Stanley
signed a Kellogg approval request form for a $9
million consulting agreement with the Lebanese
Consulting Company in connection with an LNG
project in Malaysia.
b. On or about January 3, 1992, Stanley signed
the Kellogg approval form authorizing a $9 million
consulting agreement between Kellogg and the
Lebanese Consulting Company in connection with
an LNG project in Malaysia.
c. On or about April 6, 1992, Stanley signed a
new Kellogg approval request form for the consulting agreement with the Lebanese Consulting Company increasing the fee to $15 million.
d. On or about April 7, 1992, Stanley signed the
Kellogg approval form authorizing the $15 million
consulting agreement between Kellogg and the
Lebanese Consulting Company in connection with
an LNG project in Malaysia.

36a
e. On or about April 7, 1992, Stanley caused
Kellogg to sign a $15 million consulting agreement
with the Lebanese Consulting Company in connection with an LNG project in Malaysia.
f. On or about April 25, 1992, Stanley approved
on Kellogg’s behalf a $1.5 million “Finder’s Agreement” between the Lebanese Consulting Company
and another company controlled by KHOURY.
g. On or about May 18, 1992, the Lebanese Consulting Company received in its Swiss bank
account a $5 million wire transfer from Kellogg
pursuant to the consulting agreement for the
Malaysia LNG project.
h. On or about May 21, 1992, the Lebanese
Consulting Company wire transferred $1,374,750
to a Swiss bank account controlled by Stanley.
i. On or about June 30, 1992, the Lebanese Consulting Company received in its Swiss bank
account a $1,502,000 wire transfer from Kellogg
pursuant to the consulting agreement for the
Malaysia LNG project.
j. On or about July 6, 1992, the Lebanese Consulting Company wire transferred $412,936.63 to a
Swiss bank account controlled by Stanley.
k. On or about September 30, 1992, the
Lebanese Consulting company received in its Swiss
bank account a $624,000 wire transfer from
Kellogg pursuant to the consulting agreement for
the Malaysia LNG project.
l. On or about September 30, 1992, the
Lebanese Consulting Company wire transferred
$171,515.86 to a Swiss bank account controlled by
Stanley.

37a
m. On or about December 31, 1992, the
Lebanese Consulting Company received in its
Swiss bank account a $718,000 wire transfer from
Kellogg pursuant to the consulting agreement for
the Malaysia LNG project.
n. On or about January 7, 1993, the Lebanese
Consulting Company wire transferred $197,307.62
to a Swiss bank account controlled by Stanley.
o. On or about March 31, 1993, the Lebanese
Consulting Company received in its Swiss bank
account a $716,000 wire transfer from Kellogg pursuant to the consulting agreement for the Malaysia
LNG project.
p. On or about March 31, 1993, the Lebanese
Consulting Company wire transferred $196,850.22
to a Swiss bank account controlled by Stanley.
q. On or about June 30, 1993, the Lebanese
Consulting Company received in its Swiss bank
account a $947,000 wire transfer from Kellogg pursuant to the consulting agreement for the Malaysia
LNG project.
r. On or about July 2, 1993, the Lebanese Consulting Company wire transferred $260,347.93 to a
Swiss bank account controlled by Stanley.
s. On or about September 30, 1993, the
Lebanese Consulting Company received in its
Swiss bank account a $993,000 wire transfer from
Kellogg pursuant to the consulting agreement for
the Malaysia LNG project.
t. On or about October 5, 1993, the Lebanese
Consulting Company wire transferred $273,011.75
to a Swiss bank account controlled by Stanley.

38a
u. On or about December 31, 1993, the
Lebanese Consulting Company received in its
Swiss bank account an $896,000 wire transfer from
Kellogg pursuant to the consulting agreement for
the Malaysia LNG project.
v. On or about January 4, 1994, the Lebanese
Consulting Company wire transferred $246,283.79
to a Swiss bank account controlled by Stanley.
w. On or about March 31, 1994, the Lebanese
Consulting Company received in its Swiss bank
account a $901,000 wire transfer from Kellogg pursuant to the consulting agreement for the Malaysia
LNG project.
x. On or about April 7, 1994, the Lebanese Consulting Company wire transferred $247,659.96 to a
Swiss bank account controlled by Stanley.
y. On or about May 5, 1994, Stanley signed a
Dresser code of conduct certification in which he
failed to disclose any of the millions of dollars of
kickbacks he had received from KHOURY.
z. On or about June 30, 1994, the Lebanese
Consulting Company received in its Swiss bank
account a $901,000 wire transfer from Kellogg pursuant to the consulting agreement for the Malaysia
LNG project.
aa. On or about July 6, 1994, the Lebanese Consulting Company wire transferred $247,717.31 to a
Swiss bank account controlled by Stanley.
bb. On or about September 30, 1994, the
Lebanese Consulting Company received in its
Swiss bank account a $901,000 wire transfer from
Kellogg pursuant to the consulting agreement for
the Malaysia LNG project.

39a
cc. On or about October 4, 1994, the Lebanese
Consulting Company wire transferred $247,704.99
to a Swiss bank account controlled by Stanley.
dd. On or about December 30, 1994, the
Lebanese Consulting Company received in its
Swiss bank account a $901,000 wire transfer from
Kellogg pursuant to the consulting agreement for
the Malaysia LNG project.
ee. On or about January 5, 1995, the Lebanese
Consulting Company wire transferred $247,717.09
to a Swiss bank account controlled by Stanley.
ff. On or about August 18, 1995, Stanley signed
a Dresser code of conduct certification in which he
failed to disclose any of the millions of dollars of
kickbacks he had received from KHOURY.
gg. On or about January 22, 1996, Stanley
signed a consulting agreement between Kellogg
and GCA which provided, among other things, that
Kellogg would pay GCA a $10 million success fee in
connection with the LNG project in Nigeria.
hh. On or about January 24, 1996, Stanley
signed the Kellogg approval form authorizing a $10
million consulting agreement between Kellogg and
GCA for the LNG project in Nigeria.
ii. On or about February 5, 1996, Stanley sent
a facsimile from Houston, Texas, to KHOURY in
London, England, stating that the first payment to
GCA under its consulting agreement for Nigeria
should be made by wire transfer the next day.
jj. On or about February 7, 1996, KHOURY
received in GCA’s bank account in Switzerland a
$5 million wire transfer from Kellogg pursuant to

40a
the consulting agreement for the Nigeria LNG
project.
kk. On or about February 14, 1996, KHOURY
wire transferred $1.2 million from one of his Swiss
bank accounts to a Swiss bank account controlled
by Stanley.
ll. On or about June 4, 1996, KHOURY
received in GCA’s bank account in Switzerland a
$2.5 million wire transfer from Kellogg pursuant to
the consulting agreement for the Nigeria LNG
project.
mm. On or about June 25, 1996, KHOURY wire
transferred $375,000 from his Swiss bank account
to a Swiss bank account controlled by Stanley.
nn. On or about September 18, 1996, Stanley
caused to be opened a Swiss bank account in the
name of Amal Development Inc., a Panama corporation (“Amal”).
oo. On or about November 27, 1996, KHOURY
received in GCA’s bank account in Switzerland a
$2.5 million wire transfer from Kellogg pursuant to
the consulting agreement for the Nigeria LNG
project.
pp. On or about December 12, 1996, KHOURY
wire transferred $375,000 from his Swiss bank
account to a Swiss bank account controlled by
STANLEY.
qq. On or about May 23, 1997, Stanley signed a
Dresser code of conduct certification in which he
failed to disclose any of the millions of dollars of
kickbacks he had received from KHOURY.
rr. On or about April 20, 1998, Stanley signed a
Dresser code of conduct certification in which he

41a
failed to disclose any of the millions of dollars of
kickbacks he had received from KHOURY.
ss. On or about August 19, 1998, Stanley signed
the Kellogg approval form authorizing a $10 million consulting agreement between Kellogg and
GCA for a new phase of an LNG project in
Malaysia.
tt. On or about August 19, 1998, Stanley signed
a consulting agreement between Kellogg and GCA
which provided, among other things, that Kellogg
would pay GCA a $10 million success fee if an EPC
contract to build a new phase of an LNG plant in
Malaysia was awarded to Kellogg’s consortium.
uu. On or about March 19, 1999, KHOURY
sent the executed consulting agreement between
Kellogg and GCA for the new phase of the Malaysia
LNG project via Federal Express from Ohio to the
legal department of Kellogg in Houston, Texas.
vv. On or about November 12, 1999, Stanley
submitted his Halliburton code of conduct certification in which he failed to disclose any of the millions of dollars of kickbacks that he had received
from KHOURY.
ww. On or about December 3, 1999, Stanley
signed a letter addressed to GCA increasing the
success fee for the Malaysia LNG project to $13.3
million.
xx. On or about December 17, 1999, Stanley
signed the KBR approval form authorizing a $3.3
million increase in GCA’s consulting fee for the
LNG project in Malaysia.

42a
yy. On or about December 24, 1999, KHOURY
received in GCA’s bank account in Switzerland a
$2.5 million wire transfer from KBR pursuant to
the consulting agreement for the Malaysia LNG
project.
zz. On or about December 27, 1999, GCA wire
transferred $2.5 million to a Swiss bank account
that KHOURY had opened in an acquaintance’s
name.
aaa. On or about December 27, 1999, KHOURY
caused $2.5 million to be wire transferred from the
acquaintance’s Swiss bank account to another
Swiss bank account that KHOURY controlled (the
“Nominee Swiss Account”).
bbb. On or about January 18, 2000, KHOURY
caused $1 million to be wire transferred from the
Nominee Swiss Account to the Swiss bank account
of Amal Development for the benefit of Stanley.
ccc. On or about February 14, 2000, KHOURY
received in GCA’s bank account in Switzerland a
$825,000 wire transfer from KBR pursuant to the
consulting agreement for the Malaysia LNG
project.
ddd. On or about July 20, 2000, KHOURY
received in GCA’s bank account in Switzerland a
$3.325 million wire transfer from KBR pursuant to
the consulting agreement for the Malaysia LNG
project.
eee. On or about August 28, 2000, GCA wire
transferred $1.25 million to the Swiss bank account
of Amal Development for the benefit of Stanley.
fff. On or about October 2, 2000, Stanley submitted his Halliburton code of conduct certification

43a
in which he failed to disclose any of the millions of
dollars of kickbacks he had received from
KHOURY.
ggg. On or about December 8, 2000, KHOURY
received in GCA’s bank account in Switzerland a
$3.325 million wire transfer from KBR pursuant to
the consulting agreement for the Malaysia LNG
project.
hhh. On or about January 16, 2001, GCA wire
transferred $1.25 million to the Swiss bank account
of Amal Development for the benefit of Stanley.
iii. On or about June 1, 2001, Stanley, as Chairman of KBR, signed the KBR approval form
authorizing a $10 million consulting agreement
between KBR and GCA for an LNG project in
Yemen.
jjj. On or about June 1, 2001, Stanley, as Chairman of KBR, signed the KBR approval form
authorizing a $10 million consulting agreement
between KBR and GCA for an LNG project in
Egypt.
kkk. On or about June 6, 2001, KHOURY
received in GCA’s bank account in Switzerland a
$3.325 million wire transfer from KBR pursuant to
the consulting agreement for the Malaysia LNG
project.
lll. On or about July 26, 2001, KBR signed a
consulting agreement between KBR and GCA
which provided, among other things, that KBR
would pay GCA a $10 million success fee if an LNG
project in Egypt was awarded to KBR’s consortium.

44a
mmm. On or about August 2, 2001, GCA wire
transferred $3.27 million from GCA’s Swiss bank
account to the Nominee Swiss Account.
nnn. On or about August 6, 2001, KHOURY
caused $1.25 million to be wire transferred from
the Nominee Swiss Account to the Swiss bank
account of Amal Development for the benefit of
Stanley.
ooo. On or about August 20, 2001, Stanley
signed a consulting agreement between KBR and
GCA which provided, among other things, that
KBR would pay GCA a $10 million success fee if an
LNG project in Yemen was awarded to KBR’s
consortium.
ppp. On or about September 24, 2001, Stanley
submitted his Halliburton code of conduct certification in which he failed to disclose any of the millions of dollars of kickbacks he had received from
KHOURY.
qqq. On or about January 16, 2002, GCA submitted an invoice to KBR for $2.5 million pursuant
to the consulting agreement for the Egypt LNG
project.
rrr. On or about February 19, 2002, KHOURY
received in GCA’s bank account in Switzerland a
$2.5 million wire transfer from KBR pursuant to
the consulting agreement for the Egypt LNG
project.
sss. On or about May 15, 2002, GCA submitted
an invoice to KBR for $2.5 million pursuant to the
consulting agreement for the Egypt LNG project.
ttt. On or about June 5, 2002, Stanley caused
an email to be sent to the sales person responsible

45a
for an LNG project in Indonesia notifying the sales
person that he would be contacted by KHOURY
and instructing him to give KHOURY his full cooperation.
uuu. On or about June 5, 2002, KHOURY
received in GCA’s bank account in Switzerland a
$2.5 million wire transfer from KBR pursuant to
the consulting agreement for the Egypt LNG
project.
vvv. On or about November 20, 2002, GCA submitted an invoice to KBR for $2.5 million pursuant
to the consulting agreement for the Egypt LNG
project.
www. On or about December 19, 2002,
KHOURY received in GCA’s bank account in
Switzerland a $2.5 million wire transfer from KBR
pursuant to the consulting agreement for the Egypt
LNG project.
xxx. On or about April 15, 2003, in Houston,
Texas, Stanley signed a consulting agreement
between KBR and GCA which provided, among
other things, that KBR would pay GCA a $10 million success fee if an LNG project in Indonesia was
awarded to KBR’s consortium.
yyy. On or about April 24, 2003, KHOURY
caused a KBR employee to send from Houston,
Texas, to KHOURY in London, United Kingdom,
the executed consulting agreement for the LNG
project in Indonesia.
zzz. On or about July 29, 2003, KHOURY
received in GCA’s bank account in Switzerland a
$2.5 million wire transfer from KBR pursuant to

46a
the consulting agreement for the Egypt LNG
project.
aaaa. In or about early 2004, KHOURY and
Stanley discussed cover stories they could use to
explain Stanley’s receipt of payments from companies controlled by KHOURY.
All in violation of Title 18, United States Code,
Section 1349.
COUNTS 2-8
Wire Fraud
(18 U.S.C. §§ 1343, 1346, and 2)
12. Paragraphs 1 through 7 and 9 through 11 are
realleged and incorporated by reference as if set forth
fully herein.
13. On or about the dates set forth below, in the
Southern District of Texas and elsewhere, defendant
KHOURY, and others, known and unknown to the
Grand Jury, having devised a scheme and artifice to
defraud and to obtain money and property by means
of materially false and fraudulent pretenses, representations, and promises, and to deprive Kellogg, Dresser,
KBR, and Halliburton of their intangible rights to
their employee’s honest services, for the purpose of
executing such scheme and artifice, transmitted and
caused to be transmitted by means of wire communication in interstate and foreign commerce writings,
signs, signals, pictures, and sounds, including the
following:

47a
Count

Date

From/To

Substance

2

12/08/00 Houston/Scranton Wire re: transfer
of $3.325M to
GCA

3

6/7/01 Houston/Scranton Wire re: transfer
of $3.325M to
GCA

4

2/15/02 Houston/New York Wire re: transfer
of $2.5M to GCA

5

6/5/02 Houston/Jakarta

6

6/5/02 Houston/New York Wire re: transfer
of $2.9M to GCA

7

12/18/02 Houston/New York Wire re: transfer
of $2.5M to GCA

8

7/29/03 Houston/New York Wire re: transfer
of $2.5M to GCA

Email from
Stanley re:
Khoury

All in violation of Title 18, United States Code,
Sections 1343, 1346, and 2.
COUNTS 9-11
Mail Fraud
(18 U.S.C. §§ 1341, 1346, and 2)
14. Paragraphs 1 through 7 and 9 through 11 are
realleged and incorporated by reference as if set forth
fully herein.
15. On or about the dates set forth below, in the
Southern District of Texas and elsewhere, defendant
KHOURY, and others, known and unknown to the

48a
Grand Jury, having devised a scheme and artifice to
defraud and to obtain money and property by means
of materially false and fraudulent pretenses, representations, and promises, and to deprive Kellogg, Dresser,
KBR, and Halliburton of their intangible right to their
employee’s honest services, for the purpose of executing such scheme and artifice, caused to be deposited
for delivery by interstate carrier the following:

All in violation of Title 18, United States Code,
Sections 1341, 1346, and 2.
Forfeiture Allegations
16. Paragraphs 1 through 7, 9 through 11, 13, and
15 are realleged and incorporated by reference as if set
forth fully herein.
Upon conviction of one or more of the offenses in
violation of Title 18, United States Code, Sections
1341, 1343, and 1346 alleged in Counts 2 through 11
of this Indictment, defendant KHOURY shall forfeit to
the United States, pursuant to Title 28, United States
Code, Section 2461, and Title 18, United States Code,
Section 981(a)(1)(C), all property, real and personal,
which constitutes or is derived from proceeds traceable
to the violations, including but not limited to the
following:

49a
Approximately $49 million in United States Currency, all interest and other return thereon, and all
property traceable thereto.
If any of the property described above as being
subject to forfeiture, as a result of any act or omission
of defendant KHOURY,
(1) cannot be located upon the exercise of due
diligence;
(2) has been transferred or sold to or deposited with a third person;
(3) has been placed beyond the jurisdiction of
the Court;
(4) has been substantially diminished in
value; or
(5) has been commingled with other property
which cannot be divided without difficulty,
it is the intent of the United States, pursuant to Title
21, United States Code, Section 853(p), incorporated
by Title 28, United States Code, Section 2461(c), to
seek forfeiture of any other property of defendant
KHOURY up to the value of the above forfeitable property.
All pursuant to Title 18, United States Code, Section 2461, and Title 18, United States Code, Section
981(a)(1)(C), and Rule 32.2 of the Federal Rules of
Criminal Procedure.
A TRUE BILL
ORIGINAL SIGNATURE ON FILE
Foreperson

50a
STEVEN A. TYRRELL, CHIEF
FRAUD SECTION
CRIMINAL DIVISION
U.S. DEPARTMENT OF JUSTICE
By: /s/ William J. Stuckwisch
William J. Stuckwisch
D.C. Bar No. 457278
Patrick F. Stokes
Maryland State Bar
Trial Attorneys
Fraud Section, Criminal Division
U.S. Department of Justice
1400 New York Avenue, N.W., Room 3428
Washington, DC 20005
Tel: (202) 353-2393
Fax: (202) 514-0152

51a
APPENDIX I
UNDER SEAL
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed April 23, 2015]
————
No. 15-98003
————
SEALED APPELLEE I
Plaintiff-Appellee
v.
SEALED APPELLANT I,
Defendant-Appellant.
————
On Appeal from the United States District Court
for the Southern District of Texas
Misc. No. 4:14-Mc-2884
(Hon. Keith P. Ellison)
————
DECLARATION OF SAMIR KHOURY
I, Samir Khoury, in accordance with the provisions
of 28 U.S.C. § 1746, declare as follows:
1. I am a native of Beirut, Lebanon. I was born on
February 22, 1954. I resided in Lebanon with my
family from 1954 until 1971. After living elsewhere
in the Middle East, Africa, Europe and the United
States for a period of years, I returned to Lebanon
in 2004 and have been a permanent resident of my
native country since that time.

52a
2. I began living in the United States in 1971 for purposes of attending college.
3. I attended college at Cleveland State University in
Cleveland, Ohio from 1971 to 1975. I graduated
from Cleveland State University in 1975 with a
Bachelor of Chemical Engineering degree, and a
Bachelor of Arts (B.A.) in French.
4. In 1976, while attending graduate school in
Cleveland, I became a naturalized citizen of the
United States.
5. I left the United States in 1977 to work overseas as
a full-time employee of The M.W. Kellogg Company
(“Kellogg”), an engineering and construction company based in Houston, Texas.
6. From 1977 until 1988. I held a number of international sales-based positions for Kellogg, and during
that time I resided in various countries in the
Middle East, Africa, or in London. Throughout my
tenure at Kellogg, I was involved primarily in seeking and obtaining Engineering, Procurement and
Construction (“EPC”) contracts on behalf of Kellogg
in areas of interest to the company, namely oil
refineries, chemical fertilizer plants, petrochemical
plants, and liquefied natural gas (“LNG”) plants in
the Middle East and Africa.
7. In 1988, I resigned from Kellogg to pursue a career
as an independent consultant, offering my expertise to companies engaged in the provision of EPC
services worldwide. My consulting company, and
other consulting companies with which I was associated, were subsequently retained by Kellogg,
and/or its successor, Kellogg Brown & Root (KBR),
to represent them in the pursuit and performance

53a
of LNG projects in the Middle East, Africa, and the
Far East.
8. In early 2004, I returned home to Lebanon to
attend to personal family matters. Since that time
I have lived in Lebanon, either in Beirut or in the
small town of Broummana where my elderly parents reside, which is located some ten miles outside
of Beirut. Since 2004 I have traveled to the United
States only once, as described below.
9. In the summer of 2006 I traveled to the United
States at the request of the U.S. Department of
Justice (“DOJ”) and, represented by U.S. legal
counsel, was interviewed by prosecutors and investigators. Thereafter, I returned to my home in
Lebanon and have not traveled outside of Lebanon
since that time.
10. In October 2008, Charles S. Leeper of Drinker
Biddle & Reath, LLP assumed responsibility as my
U.S. legal counsel. At that time I authorized Mr.
Leeper to provide additional information that I had
received to the DOJ. No further communications
were initiated by the DOJ.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on this 22nd day of APRIL, 2015.
/s/ Samir Khoury
Samir Khoury

54a
APPENDIX J
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed August 20, 2018]
————
Crim. No. 08-cr-763
[Related to Misc. No. 17-mc-2553]
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAMIR KHOURY,
Defendant.
————
DECLARATION OF CHARLES S. LEEPER
I, Charles S. Leeper, pursuant to the provisions of
28 U.S.C. § 1746, declare as follows:
1. I am counsel for Samir Khoury in the abovecaptioned case. Attached hereto as Exhibits A-E are
true and correct copies of the following documents:
A: Trade License for Gulfbridge Ltd. issued by the
Government of Dubai on November 5, 2002;
B: Work Permit issued by the United Arab Emirates
(“UAE”) Ministry of Interior to Mr. Khoury on
May 27, 2003;
C: Residence Permit issued by the UAE to Mr.
Khoury on June 11, 2003;

55a
D: Affidavit of Mr. Khoury in Cuyahoga County
Court of Common Pleas, Domestic Relations
Division, in the Matter of Sylvia V. Korey v.
Samir R. Korey, dated February 18, 2004; and
E. Agreed Judgment Entry in Cuyahoga County
Court of Common Pleas, Domestic Relations
Division, in the Matter of Sylvia V. Korey v.
Samir R. Korey, dated February 18, 2004.
I declare under penalty of perjury that the foregoing
is true and correct. Executed on this 20th day of
August, 2018.
/s/ Charles S. Leeper
Charles S. Leeper

56a

This page intentionally left blank

61a
EXHIBIT D
In the Court of Common Pleas
Division of Domestic Relations
Case Number
JUDGE
————
STATE OF OHIO

)
) ss.
COUNTY OF CUYAHOGA )
————
SYLVIA V. KOREY
Plaintiff
3450 Roundwood Road, Hunting Valley, OH 44022
Address
SAMIR R. KOREY
Defendant
3450 Roundwood Road, Hunting Valley, OH 44022
Address
————
AFFIDAVIT
PARENTING PROCEEDING INFORMATION
Samir R. Korey, being duly sworn, states the following answers to the questions set out herein relevant to
the parenting of the minor child(ren), to wit (names
and birthdates)
Stephanie A. (DOB: 7/25/87) and Alexandra J. (DOB:
1/18/89).

62a
NOTES: (1) If you need more space to answer any
questions, please use a separate sheet and
attach it to the back.
(2) If the answers to the following questions
are not the same for all children, a separate
affidavit must be filed for each child.
1. Beginning with the child(ren)’s present address,
state the places where the child(ren) lived within
the last five years, and the names and present
addresses of the persons with whom the child(ren)
lived during that period.
Places and Dates

Persons and Present
Addresses

AT 3450 Roundwood Road, WITH mother and father
Hunting Valley, OH
44022
FROM birth TO present

AT

AT

WITH

FROM

TO

WITH

2. Have you participated as a party, witness, or in any
other capacity in any other litigation in this or any
other slate that concerned the allocation, between
the parents of the same child, of parental rights
and responsibilities for the care of the child and the
designation of the residential parent and legal
custodian of the child or that otherwise concerned
the custody of the same child?
NO
3. State any information you have about any parenting proceeding concerning the child(ren) pending in
a court of this or any other state. Include the case

63a
number, the name of the court and the address of
the court.
NONE
4. State the name and address of any person who is
not a party to this proceeding and has physical
custody of the chid(ren) or claims to be a parent of
the child who is designated the residential parent
and legal custodian of the child or to have visitation
rights with respect to the chlld(ren) or to be a person other than a parent of the child who has custody
or visitation rights with respect to the child(ren)
(O.R.C. 3109.27(A) (3).
NONE
5. State whether you have previously been convicted
of or pleaded guilty to any criminal offense involving any act that resulted in a child being an abused
child or a neglected child or have previously been
determined, In a case in which a child has been
adjudicated an abused child or a neglected child, to
be the perpetrator of the abusive or neglectful act
that was the basis of the adjudication (O.R.C.
3109.27(A) (4).
NO
6. State whether you have been convicted of or
pleaded guilty to a violation of O.R.C. 2919.25
(criminal domestic violence) Involving a victim who
at the time of the offense was a member of the
family or household that is the subject of this proceeding. Further, have you been convicted of or
pleaded guilty to any other offense involving a
victim who at the time of the offense was a member
of the family or household that is the subject of this

64a
proceeding and caused physical harm to the victim
in the commission of that offense?
NO
I understand that I have a continuing duty to inform
the court of any parenting proceeding concerning the
child(ren) in this or any other state of which I obtain
information during this proceeding and to notify the
child support agency of any change in the information
listed on this form.
/s/ [Illegible]
AFFIANT
Sworn to and subscribed before me this 18th day of
February, 2004.
/s/ Heather Anderson
NOTARY PUBLIC
[STAMP]

65a
EXHIBIT E
IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
————
CASE NO. D- 297387
JUDGE
Anthony J. Russo
————
SYLVIA V. KOREY
Plaintiff,
vs.
SAMIR R. KOREY
Defendant.
————
AGREED JUDGMENT ENTRY
(DIVORCE DECREE)
This cause came on for hearing this 20th day of
April, 2004, and was duly heard before Anthony J.
Russo, Judge of the Domestic Relations Division of the
Court of Common Pleas, upon the Plaintiff’s Complaint,
Defendant having failed to file an Answer, although
duly served with process according to law.
Upon due consideration thereof the Court finds the
Plaintiff was a resident of the State of Ohio for more
than six (6) months and a bona fide resident of
Cuyahoga County for more than ninety (90) days, both
immediately proceeding the filing of this Complaint;
the parties married as alleged and four children were
born as issue of the marriage, to-wit: Jamie A. (DOB
2/24/81); Kristen A. (DOB: 11/17/82); Stephanie A.
(DOB: 7/25/87) and Alexandra J. (DOB: 1/18/89).

66a
The Court further finds that the Plaintiff has
established the cause of incompatibility and that by
reason thereof that she is entitled to divorce from the
Defendant.
The Court further finds that the parties have, prior
to this hearing, entered into a Separation Agreement
which is fair, just and equitable, and orders said
agreement, a copy of which is attached hereto and for
identification purposes marked as Exhibit “A,” be
incorporated herein as if fully rewritten and its terms
ordered into execution.
The Court further finds that Defendant stipulates,
by execution of his Agreed Judgment Entry, that he
has not been represented by counsel, that he had a full
opportunity and was advised to retain counsel, that he
voluntarily and knowingly waived the right to counsel
and that Roger L. Kleinman. acted solely as legal
counsel for Plaintiff and not as legal counsel to
Defendant.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that the marriage contract
heretofore existing between the parties be and is
hereby dissolved and set aside and the terms of
the attached Separation Agreement ordered into
execution.
The Court finds the following group health insurance
health care policies, contracts, and plans are available
at a reasonable cost to the Obligor:
Available to:
Defendant/Obligor

Insurer
Medical Mutual of Ohio

The Court finds that Obligor has health insurance
available at a reasonable cost through a group health
insurance or health care policy, contract or plan

67a
offered through Obligor’s employer or through another
group health insurance or health care policy, contract
or plan. The health insurance coverage is not available
at a more reasonable cost through a group health
insurance or health care policy, contract or plan available to the Obligee.
IT IS THEREFORE ORDERED, ADJUDGED AND
DECREED that no later than 30 days after the
issuance of this order the Obligor obtain health
insurance coverage for and designate as covered
dependents under any health insurance or health care
policy, contract or plan the following children:
Full Name

Address

Date of Birth

Stephanie A. 3450 Roundwood Road 07/25/87
Hunting Valley, OH
44022
Alexandra J. 3450 Roundwood Road 01/18/89
Hunting Valley, OH
44022

IS FURTHER ORDERED, ADJUDGED AND
DECREED that the Obligor supply the Obligee with
information regarding the benefits, limitations and
exclusions of the health insurance coverage, copies of
any insurance forms necessary to receive reimbursement, payment of other benefits under the health
insurance Coverage, and a copy of any necessary


It Is Further Ordered Adjudged and Decreed that
the Plaintiff/Obligee shall not receive, nor shall
Defendant/Obligor pay, child support for the minor
children in consideration of the unequal division of the
marital estate.
/s/ Sylvia Korey

68a
insurance cards; that the Obligor submits a copy of
this Order to the insurer at the time application is
made to enroll the child and that the Obligor, no later
than 30 days after the issuance of this Order,
furnishes written proof to the CSEA that the foregoing
orders have been satisfied.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that co-payments/deductible costs required
under. the health insurance or health care policy; contract shall be paid as follows: Obligee/Plaintiff shall
pay all costs.
Reimbursement for out-of-pocket medical, hospital,
dental, or prescription expenses paid for the minor
children shall be made to:
Name:

Sylvia V. Korey

Address: 3450 Roundwood Road
Hunting Valley, Ohio 44022
The insurer that provides the health insurance
coverage for the child may continue making payments
for medical, optical, hospital, dental, or prescription
services directly to any health care provider in accordance with the applicable health insurance or health
care policy, contract, or plan.
If the Obligor or Obligee is required to obtain health
insurance coverage pursuant to the child support
order for the child and if the Obligor or Obligee fails to
obtain health insurance coverage the child support
enforcement agency shall comply with Chapter 3119
of the Revised Code to obtain a court order requiring
the Obligor or Obligee to obtain the health insurance
coverage.
The employer of the Obligor or Obligee required to
obtain health insurance coverage is required to release

69a
to the other parent or the child support enforcement
agency upon written request. any necessary information on the health insurance coverage, including,
but not limited to, the name and address of the insurer
and any policy, contract, or plan number, and to
otherwise comply with Chapter 3119 of the Revised
Code and any court order issued under this section.
If the person required to obtain health care
insurance coverage for the child subject to this child
support order obtains new employment and the health
insurance coverage for the child is provided through
the previous employer, the agency shall comply with
the requirements of Chapter 3119 which may result in
the issuance of a notice requiring the new employer to
take whatever action is necessary to enroll the child in
health care insurance coverage provided by the new
employer.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that Obligee immediately inform the Court
if health insurance coverage for the child becomes
available at a reasonable cost through a group health
insurance or health care policy, contract or plan
offered by the Obligee’s employer or through any other
group health insurance or health care policy, contract
or plan available to the Obligee:
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that the Obligee immediately notify the
C.S.E.A of any reason for which the support order
should terminate, including but not limited to, death,
marriage, emancipation (age 18 or high school
completion/termination), incarcerations, enlistment in
Armed Services, deportation, or change of legal or
physical custody. of the child.
The following information is provided for the use of
the Cuyahoga Support Enforcement Agency in accord-

70a
ance with Section 2301.34 to 2301.41 and Chapter
3119 of the Ohio Revised Code:
OBLIGEE: NAME:
Sylvia V. Korey
RESIDENCE ADDRESS: 3450 Roundwood Road
Hunting Valley, OH 44022
MAILING ADDRESS:
Same
S.S.#:
272-56-8441
DOB:
12/21/54
OBLIGOR: NAME:
Samir R. Korey
RESIDENCE ADDRESS: 3450 Roundwood Road
Hunting Valley, OH 44022
MAILING ADDRESS:
Same
S.S.#:
275-56-9973
DOB:
2/22/54
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that the parties equally pay the costs of
this proceeding, for which judgment is rendered and
execution may issue.
IT IS SO ORDERED.
/s/ Anthony J. Russo
JUDGE
JUDGE ANTHONY J. RUSSO
APPROVED:
/s/ Samir R. Korey
SAMIR R. KOREY
/s/ Sylvia V. Korey
SYLVIA V. KOREY
/s/ Roger L. Kleinman
Roger L. Kleinman (0022272)
Attorney for Sylvia V. Korey
[FILING STAMP]

71a
APPENDIX K
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
————
Criminal No. H-08-597
18 U.S.C. § 371 (Counts 1 & 2)
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
ALBERT JACKSON STANLEY,
Defendant.
————
FILED UNDER SEAL
August 29, 2008
UNSEALED PER ARREST
September 3, 2008
————
INFORMATION
The United States charges:
General Allegations.
At all times material to this Information, unless
otherwise stated:
1. The Foreign Corrupt Practices Act of 1977, as
amended, Title 15, United States Code, Sections 78dd1, et seq. (“FCPA”), was enacted by Congress for the
purpose of, among other things, making it unlawful for
certain classes of persons and entities to act corruptly

72a
in furtherance of an offer, promise, authorization, or
payment of money or anything of value to a foreign
government official for the purpose of securing any
improper advantage, or of obtaining or retaining
business for, or directing business to, any person.
Relevant Entities and Individuals
The Defendant and His Employer
2. Defendant ALBERT JACKSON STANLEY was a
United States citizen and a resident of Houston,
Texas. From in or about March 1991, until in or about
June 2004, STANLEY served in various capacities as
an officer and/or director of “EPC Contractor A” and
its successor company, “EPC Contractor A1.” STANLEY
was a “domestic concern” and an officer, employee, and
agent of a “domestic concern” within the meaning of
the FCPA, Title 15, United States Code, Section 78dd2.
3. Both EPC Contractor A and EPC Contractor A1
were engaged in the business of providing engineering, procurement, and construction (“EPC”) services
around the world, including designing and building
liquefied natural gas (“LNG”) production plants. Both
were incorporated in Delaware and headquartered in
Houston, Texas. As such, both were “domestic concerns” within the meaning of the FCPA, Title 15,
United States Code, Section 78dd-2.
The Joint Venture, Its Members, and Related Entities
4. “Joint Venture” was a four-company joint venture
consisting of EPC Contractor A and then EPC Contractor A1, and three other companies referred to
herein as “EPC Contractor B,” “EPC Contractor C,”
and “EPC

73a
Contractor D.” The Steering Committee of Joint
Venture consisted of high level executives from each of
the four joint venture companies, including STANLEY.
Pursuant to a joint venture agreement, the Steering
Committee made major decisions on behalf of Joint
Venture, including whether to hire agents to assist
Joint Venture in winning EPC contracts, whom to hire
as agents, and how much to pay the agents. Profits,
revenues, and expenses, including the cost of agents,
were shared equally among the four joint venture
partners.
5. “U.K. Subsidiary” was a corporation organized
under the laws of the United Kingdom. U.K. Subsidiary was 55% owned by EPC Contractor A and then
EPC Contractor A1, and 45% owned by EPC Contractor D.
6. Joint Venture operated through three Portuguese
corporations based in Madeira, Portugal: “Madeira
Company 1,” “Madeira Company 2,” and “Madeira Company 3.” Madeira Company 1 and Madeira Company 2
each were owned equally by the four joint venture
companies. Madeira Company 3, the entity that Joint
Venture used to enter into consulting agreements with
Joint Venture’s agents, was 50% owned by U.K.
Subsidiary, 25% owned by EPC Contractor B, and 25%
owned by EPC Contractor C.
The Joint Venture’s Agents
7. “Consultant A” was a citizen of the United
Kingdom and a resident of London, England. Joint
Venture hired Consultant A to help it obtain business
in Nigeria, including by offering to pay and paying
bribes to high-level Nigerian government officials.
Consultant A was an agent of Joint Venture and of
each of the joint venture companies.

74a
8. “Consulting Company A” was a Gibraltar
corporation that Consultant A used as a corporate
vehicle to sign agent contracts with and receive payments from Joint Venture. Before Joint Venture
stopped paying Consulting Company A in January
2004, Joint Venture paid Consulting Company A over
$130 million for use in bribing Nigerian government
officials. Consulting Company A was an agent of Joint
Venture and of each of the joint venture companies.
9. Consulting Company B was a global trading
company headquartered in Tokyo, Japan. Joint
Venture hired Consulting Company B to help it obtain
business in Nigeria, including by offering to pay and
paying bribes to Nigerian government officials. Before
Joint Venture stopped paying Consulting Company B
in June 2004, Joint Venture paid Consulting Company
B over $50 million for use in bribing Nigerian government officials. Consulting Company B was an agent of
Joint Venture and of each of its member companies.
The Nigerian Government Entities
10. The Nigerian National Petroleum Corporation
(“NNPC”) was a government-owned company charged
with development of Nigeria’s oil and gas wealth and
regulation of the country’s oil and gas industry. NNPC
was a shareholder in certain joint ventures with multinational oil companies. NNPC was an entity and instrumentality of the Government of Nigeria, within the
meaning of the FCPA, Title 15, United States Code,
Sections 78dd-1(f)(1)(A) and 78dd-2(h)(2)(A). Officers
and employees of NNPC were “foreign officials,” within
the meaning of the FCPA, Title 15, United States Code,
Sections 78dd-1(f)(1)(A) and 78dd-2(h)(2)(A).
11. Nigeria LNG Limited (“NLNG”) was created by
the Nigerian government to develop an LNG facility

75a
on Bonny Island, Nigeria (“the Bonny Island Project”)
and was the entity that awarded the related EPC
contracts. The largest shareholder of NLNG was
NNPC, which owned 49% of NLNG. The other owners
of NLNG were multinational oil companies. Through
the NLNG board members appointed by NNPC, the
Nigerian government exercised control over NLNG,
including but not limited to the ability to block the
award of EPC contracts. NLNG was an entity and
instrumentality of the Government of Nigeria, within
the meaning of the FCPA, Title 15, United States
Code, Sections 78dd-1(f)(1)(A) and 78dd-2(h)(2)(A).
Officers and employees of NLNG were “foreign officials,” within the meaning of the FCPA, Title 15, United
States Code, Sections 78dd-1(f)(1)(A) and 78dd2(h)(2)(A).
The Bonny Island Project
12. Between 1995 and 2004, Joint Venture was
awarded four EPC contracts to build the Bonny Island
Project. The Bonny Island Project was constructed in
four phases, with each phase corresponding to an EPC
contract. An LNG “train” is the infrastructure necessary to pipe raw natural gas from wellheads, convert
the raw gas to purified LNG, and deliver that LNG to
a tanker. The first phase of the Bonny Island Project
consisted of two trains (Trains 1 and 2), the second
phase consisted of one train (Train 3), the third phase
consisted of two trains (Trains 4 and 5), and the fourth
phase consisted of one train (Train 6). The first EPC
contract, covering Trains 1 and 2, was awarded to
Joint Venture through a competitive international
tender. The other three EPC contracts were awarded
to Joint Venture on a sole-source, negotiated basis.
The four EPC contracts awarded to Joint Venture
collectively were valued at over $6 billion.

76a
COUNT 1
Conspiracy to Violate the Foreign
Corrupt Practices Act
(18 U.S.C. § 371)
13. Paragraphs 1 through 12 are realleged and
incorporated by reference as though fully set forth
herein.
14. From at least in or around August 1994, though
in or around June 2004, in the Southern District of
Texas, and elsewhere, defendant ALBERT JACKSON
STANLEY did unlawfully, willfully, and knowingly
combine, conspire, confederate, and agree with Joint
Venture, EPC Contractor B, EPC Contractor C, EPC
Contractor D, officers and employees of the foregoing,
Consultant A, Consulting Company A, Consulting
Company B, and others, known and unknown, to commit offenses against the United States, that is, being
a domestic concern and an officer, employee, and agent
of EPC Contractor A and then EPC Contractor A1,
both domestic concerns, to willfully make use of the
mails and means and instrumentalities of interstate
commerce corruptly in furtherance of an offer, payment, promise to pay, and authorization of the
payment of any money, offer, gift, promise to give, and
authorization of the giving of anything of value to any
foreign official for purposes of: (i) influencing acts and
decisions of such foreign official in his official capacity;
(ii) inducing such foreign official to do and omit to do
acts in violation of the lawful duty of such official; (iii)
securing an improper advantage; and (iv) inducing
such foreign official to use his influence with a foreign
government and instrumentalities thereof to affect
and influence acts and decisions of such government
and instrumentalities, in order to assist STANLEY,
Joint Venture, and others in obtaining and retaining

77a
business for and with, and directing business to, Joint
Venture and others, in violation of Title 15, United
States Code, Section 78dd-2(a).
Purpose of the Conspiracy
15. The purpose and object of the conspiracy was to
make corrupt payments to officials of the executive
branch of the Government of Nigeria, officials of NNPC,
officials of NLNG, and others in order to obtain and
retain business related to the Bonny Island Project.
Manner and Means of the Conspiracy
16. STANLEY and his co-conspirators employed
various manner and means to carry out the conspiracy, including but not limited to the following:
a. STANLEY and his co-conspirators held socalled “cultural meetings” in which they discussed,
among other things, the use of particular agents to
pay bribes to officials of the Government of Nigeria
in order to secure their support for Joint Venture
to obtain and retain contracts to build the Bonny
Island Project.
b. STANLEY and his co-conspirators agreed
that Joint Venture would hire Consulting Company
A to pay bribes to high-level Nigerian government
officials, including top-level executive branch officials, and Consulting Company B to pay bribes to
lower level Nigerian government officials, including employees of NLNG, in exchange for the
officials’ assistance in obtaining and retaining
contracts to build the Bonny Island Project.
c. STANLEY and his co-conspirators caused
Madeira Company 3 to execute consulting contracts with Consulting Company A and Consulting
Company B providing for the payment of tens of

78a
millions of dollars in consulting fees in exchange
for vaguely described marketing and advisory services, when in fact the primary purpose of the
contracts was to facilitate the payment of bribes to
Nigerian government officials.
d. Prior to NLNG’s award to Joint Venture of the
various EPC contracts, STANLEY and other coconspirators met with three successive holders of a
top-level office in the executive branch of the
Government of Nigeria and negotiated with the
office holders’ representatives regarding the amount
of the bribes that Joint Venture would pay to the
Nigerian government officials.
e. STANLEY and his co-conspirators caused
wire transfers totaling approximately $132 million
from Madeira Company 3’s bank account in
Amsterdam, The Netherlands, to bank accounts in
New York, New York, to be further credited to bank
accounts in Switzerland and Monaco controlled by
Consultant A for Consultant A to use to bribe
Nigerian government officials,
f. On behalf of Joint Venture and the four joint
venture companies, Consultant A wire transferred
bribe payments to or for the benefit of various
Nigerian government officials, including officials of
the executive branch of the Government of Nigeria,
NNPC, and NLNG, and for the benefit of a political
party in Nigeria.
g. STANLEY and his co-conspirators caused
wire transfers totaling over $50 million from
Madeira Company 3’s bank account in Amsterdam,
The Netherlands, to Consulting Company B’s bank
account in Japan for Consulting Company B to use
to bribe Nigerian government officials.

79a
Overt Acts
17. In furtherance of the conspiracy and to achieve
its purpose and object, at least one of the co-conspirators
committed or caused to be committed, in the Southern
District of Texas, and elsewhere, the following overt
acts, among others:
a. On or about August 3, 1994, the U.K.
Subsidiary salesperson responsible for the Bonny
Island Project (“Salesperson A”) sent a facsimile
from London, England, to STANLEY in Houston,
Texas, and to other co-conspirators stating, among
other things, that STANLEY and other top executives of the joint venture companies had agreed to
send a message “to the top man that we are ready
to do business in the customary manner” and to ask
Consulting Company B to secure support from the
key individuals at the working level of NLNG.
b. On or about November 2, 1994, Consultant A
told Salesperson A that he had spoken with a
senior official of the Ministry of Petroleum, that
Consultant A’s fee would be $60 million, that the
first top-level executive branch official of the
Government of Nigeria would get $40-45 million of
that fee, that other Nigerian government officials
would get $15-20 million of that fee, and that there
would be a meeting between STANLEY and the
first top-level Nigerian executive branch official
before any written agreement between Joint
Venture and Consultant A.
c. On or about November 30, 1994, STANLEY
and other co-conspirators met in Abuja, Nigeria,
with the first top-level executive branch official of
the Government of Nigeria to verify that the official
was satisfied with Joint Venture using Consultant

80a
A as its agent and to confirm that the official
wanted Joint Venture to negotiate with the senior
official of the Ministry of Petroleum the bribes to
Nigerian government officials.
d. On or about March 20, 1995, Madeira Company 3 entered into an agreement with Consulting
Company A providing, among other things, that
Madeira Company 3 would pay $60 million to
Consulting Company A if Joint Venture was
awarded a contract to construct Trains 1 and 2 of
the Bonny Island Project.
e. On or about December 15, 1995, Madeira
Company 3 wire transferred $1.542 million to
Consulting Company A, via a correspondent bank
account in New York, New York, in payment of
Consulting Company A’s first invoice under the
consulting agreement for Trains 1 and 2.
f. On or about April 9, 1996, Madeira Company
3 entered into an agreement with Consulting Company B whereby it agreed to pay Consulting
Company B $29 million for assisting Joint Venture
in winning the contract to build Trains 1 and 2 of
the Bonny Island Project.
g. On or about May 1, 1997, STANLEY and
other co-conspirators met in Abuja, Nigeria, with
the first top-level executive branch official of the
Government of Nigeria and requested that the
official designate a representative with whom Joint
Venture should negotiate the bribes to Nigerian
government officials in exchange for the first toplevel executive branch official’s support of the
award of the Train 3 EPC contract.
h. On or about February 28, 1999, STANLEY
and other co-conspirators met in Abuja, Nigeria,

81a
with a second top-level executive branch official of
the Government of Nigeria to request that the
official designate a representative with whom Joint
Venture should negotiate the bribes to Nigerian
government officials in exchange for the second
top-level executive branch official’s support o’ the
award of the Train 3 EPC contract.
i. On or about March 5, 1999, STANLEY and
other co-conspirators met in London, England,
with the representative designated by the second
top-level executive branch official of the Government of Nigeria to negotiate the bribes to Nigerian
government officials in exchange for the award of
the Train 3 EPC contract.
j. On or about March 18, 1999, Madeira
Company 3 entered into an agreement with Consulting Company A providing, among other things,
that Madeira Company 3 would pay $32.5 million
to Consulting Company A if Joint Venture was
awarded a contract to construct Train 3 of the
Bonny Island Project.
k. On or about March 13, 2000, Madeira Company 3 entered into a consulting agreement with
Consulting Company B promising to pay it $4
million in connection with Train 3.
l. On or about November 11, 2001, STANLEY
and a salesperson from EPC Contractor A1 met in
Abuja, Nigeria, with a third top-level executive
branch official of the Government of Nigeria and an
NNPC official to request that the top-level executive branch official designate a representative with
whom Joint Venture should negotiate the bribes to
Nigerian government officials in exchange for the

82a
third top-level executive branch official’s support of
the award of the Trains 4 and 5 EPC contract.
m. On or about December 24, 2001, Madeira
Company 3 entered into an agreement with Consulting Company A providing, among other things,
that Madeira Company 3 would pay $51 million to
Consulting Company A if Joint Venture was
awarded a contract to construct Trains 4 and 5 of
the Bonny Island Project.
n. On or about June 14, 2002, STANLEY and
other members of Joint Venture’s Steering Committee authorized Joint Venture to enter into an
agreement with Consulting Company B for Trains
4 and 5 of the Bonny Island Project.
o. On or about June 28, 2002, Madeira Company
3 entered into an agreement with Consulting Company A providing, among other things, that Madeira
Company 3 would pay $23 million to Consulting
Company A if Joint Venture was awarded a contract to construct Train 6 of the Bonny Island
Project.
p. On or about June 15, 2004, Madeira Company
3 wire transferred $3 million to Consulting Company B via a correspondent bank account in New
York, New York, in payment of one of Consulting
Company B’s invoices under the agreement for
Trains 4 and 5. All in violation of Title 18, United
States Code, Section 371.
COUNT 2
Conspiracy to Commit Mail and Wire Fraud
(18 U.S.C. § 371)
18. Paragraphs 2 and 3 are realleged and incorporated by reference as though fully set forth herein.

83a
19. “LNG Consultant” was ,a citizen of the United
States and a citizen of Lebanon. From in or about
1977, until in or about 1988, LNG Consultant was a
salesperson employed by EPC Contractor A responsible for LNG and other projects in the Middle East. In
or about 1988, LNG Consultant resigned from EPC
Contractor A and became a consultant to EPC Contractor A and subsequently EPC Contractor A1, among
other firms. At various times after 1988, LNG Consultant used corporate vehicles for his consulting business.
20. With the assistance of STANLEY, LNG Consultant obtained, directly or indirectly, a series of
lucrative consulting agreements with EPC Contractor
A and EPC Contractor A1. These agreements generally provided for the payment of a fixed $10 million
success fee if the LNG plant project covered by the
agreement was awarded to EPC Contractor A/EPC
Contractor A1.
21. Beginning no later than in or about December
1991, and continuing to in or about 2004, in the
Southern District of Texas, and elsewhere, defendant
ALBERT JACKSON STANLEY did unlawfully, willfully, and knowingly combine, conspire, confederate,
and agree, with LNG Consultant and others, known
and unknown, to commit offenses against the United
States, that is, to devise and attempt to devise a
scheme and artifice to defraud and obtain money and
property from EPC Contractor A, EPC Contractor A1,
and others by means of false and fraudulent pretenses,
representations, and promises, and to defraud EPC
Contractor A and EPC Contractor A1 of their right to
their employees’ honest services, and knowingly use
the mails and interstate wires for the purpose of
executing such scheme and artifice, in violation of

84a
Title 18, United States Code, Sections 1341, 1343, and
1346.
Purpose of the Conspiracy
22. The purpose and object of the conspiracy was for
STANLEY and LNG Consultant to unjustly enrich
themselves by obtaining money and property falsely
and fraudulently from EPC Contractor A, EPC
Contractor A1, and others in the form of consulting
fees which were paid, directly or indirectly, to LNG
Consultant and portions of which, in turn, were paid
by LNG Consultant to STANLEY as “kickbacks.”
Manner and Means of the Conspiracy
23. STANLEY and his co-conspirators employed
various manner and means to carry out the conspiracy, including but not limited to the following:
a. STANLEY caused EPC Contractor A and EPC
Contractor A1 to enter into lucrative consulting
agreements with LNG Consultant or companies
designated and controlled by LNG Consultant in
connection with various LNG projects around the
world.
b. Pursuant to the consulting agreements, LNG
Consultant or companies designated and controlled
by LNG Consultant were paid tens of millions of
dollars in “success” fees on LNG projects obtained
by EPC Contractor A and EPC Contractor A1.
c. LNG Consultant paid kickbacks to STANLEY
out of the consulting fees that EPC Contractor A
and EPC Contractor A1 had paid LNG Consultant
or companies designated and controlled by LNG
Consultant.

85a
d. STANLEY and LNG Consultant concealed
from EPC Contractor A and EPC Contractor A1
that LNG Consultant was paying kickbacks to
STANLEY out of consulting fees that EPC Contractor A and EPC Contractor A1 had paid LNG Consultant or companies designated and controlled by
LNG Consultant.
e. STANLEY and LNG Consultant caused the
kickbacks to be routed through Swiss bank
accounts, including through accounts held in the
names of nominees and shell companies, in order to
conceal their scheme.
Overt Acts
24. In furtherance of the conspiracy and to achieve
its purpose and object, at least one of the co-conspirators
committed or caused to be committed, in the Southern
District of Texas, and elsewhere, the following overt
acts, among others:
a. On or about April 7, 1992, STANLEY signed
the EPC Contractor A approval form authorizing a
$15 million consulting agreement between EPC
Contractor A and a company designated by LNG
Consultant (“Lebanese Consulting Company”) for
an LNG project in Malaysia.
b. On or about May 21, 1992, Lebanese Consulting Company wire transferred $1,374,750 from its
Swiss bank account to a Swiss bank account
controlled by STANLEY.
c. On or about January 22, 1996, STANLEY
signed a consulting agreement between EPC
Contractor A and a company designated and controlled by LNG Consultant (“BVI Consulting Company”) providing, among other things, that EPC

86a
Contrctor A would pay BVI Consulting Company a
$10 million success fee in connection with Trains 1
and 2 of the Bonny Island LNG project in Nigeria.
d. On or about February 14, 1996, LNG Consultant wire transferred $1.2 million from his Swiss
bank account to a Swiss bank account controlled by
STANLEY.
e. On or about August 19, 1998, STANLEY
signed a consulting agreement between EPC Contractor A and BVI Consulting Company providing,
among other things, that EPC Contractor A would
pay BVI Consulting Company a $10 million success
fee if an EPC contract to build an LNG plant in
Malaysia was awarded to EPC Contractor A’s
consortium.
f. On or about June 1, 2001, STANLEY signed
the EPC Contractor A1 approval form authorizing
a $10 million consulting agreement between EPC
Contractor A1 and BVI Consulting Company for an
LNG project in Egypt.
g. On or about August 6, 2001, LNG Consultant
caused $1.25 million to be wire transferred to a
Swiss bank account controlled by STANLEY.
h. On or about August 20, 2001, STANLEY
signed a consulting agreement between EPC Contractor A1 and BVI Consulting Company providing
that EPC Contractor A1 would pay BVI Consulting
Company a $10 million success fee if an LNG
project in Yemen was awarded to EPC Contractor
A1’s consortium.
i. On or about April 13, 2003, in Houston, Texas,
STANLEY signed a consulting agreement between
EPC Contractor A1 and BVI Consulting Company

87a
providing that EPC Contractor A1 would pay BVI
Consulting Company a $10 million success fee if an
LNG project in Indonesia was awarded to EPC
Contractor A1’s consortium.
j. On or about July 29, 2003, LNG Consultant
received in BVI Consulting Company’s bank
account in Switzerland a $2.5 million wire transfer
from EPC Contractor A1 pursuant to the consulting agreement for the Egypt LNG project.
k. In or about early 2004, STANLEY and LNG
Consultant discussed cover stories they could use
to explain STANLEY’S receipt of payments from
Lebanese Consulting Company and BVI Consulting Company.
All in violation of Title 18, United States Code,
Section 371.
STEVEN A. TYRRELL, CHIEF
FRAUD SECTION
CRIMINAL DIVISION
U.S. DEPARTMENT OF JUSTICE
By: /s/ William J. Stuckwisch
William J. Stuckwisch
D.C. Bar No. 457278
Patrick F. Stokes
Maryland State Bar
Trial Attorneys
Fraud Section, Criminal Division
U.S. Department of Justice
1400 New York Avenue, Room 3428
Washington, DC 20005
Tel: (202) 353-2393
Fax: (202) 514-0152

88a
APPENDIX L
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed September 3, 2008]
————
Criminal No. H-08-597
————
UNITED STATES OF AMERICA,
v.

Plaintiff,

ALBERT JACKSON STANLEY,
Defendant.
————
REDACTED PURSUANT TO
E-GOVERNMENT ACT OF 2002
————
PLEA AGREEMENT
The United States of America, by and through
Steven A. Tyrrell, Chief of the Fraud Section, Criminal
Division, United States Department of Justice, and
William J. Stuckwisch and Patrick F. Stokes, Trial
Attorneys, and the Defendant, Albert Jackson Stanley,
by and through his counsel, Larry Veselka, pursuant
to Rule 11(c)(1)(C) of the Federal Rules of Criminal
Procedure, state that they have entered into an
agreement, the terms and conditions of which are as
follows:

89a
The Defendant’s Agreement
1. The Defendant agrees to waive Indictment and to
plead guilty to an Information (a copy of which is
attached) charging him with two counts of conspiracy
to commit an offense against the United States, in
violation of Title 18, United States Code, Section 371.
Count 1 of the Information charges the Defendant
with conspiracy to violate the Foreign Corrupt Practices Act, in violation of Title 15, United States Code,
Section 78dd-2. Count 2 of the Information charges the
Defendant with a conspiracy to commit mail and wire
fraud, in violation of Title 18, United States Code,
Sections 1341, 1343, and 1346. The Defendant, by
entering this plea, agrees that he is waiving any right
to have the facts that the law makes essential to the
punishment charged in the Information, or proven to
a jury or proven beyond a reasonable doubt.
2. Defendant agrees that this plea agreement binds
only the Criminal Division of the U.S. Department of
Justice and the Defendant; it does not bind any United
States Attorney or any other Division of the Department of Justice. Punishment Range
3. The statutory maximum penalty for each violation of Title 18, United States Code, Section 371, is
imprisonment for a term of not more than five years
and a fine of not more than $250,000, or twice the
gross pecuniary gain to the Defendant or loss to the
victim(s), whichever is greater. The combined statutory maximum term of imprisonment for the two
counts is imprisonment for a term of not more than ten
years. Additionally, the Defendant may receive a term
of supervised release after imprisonment of up to three
years on each count. Title 18, United States Code,
Sections 3559(a)(4) and 3583(b)(2). The Defendant
acknowledges and understands that should he violate

90a
conditions of supervised release which may be imposed
as part of his sentence, then the Defendant may be
imprisoned for an additional term of up to two years,
without credit for time already served on the term of
supervised release prior to such violation. Title 18,
United States Code, Sections 3559(a)(4) and 3583(e)(3).
The Defendant understands that he cannot have the
imposition or execution of the sentence suspended, nor
is he eligible for parole.
Mandatory Special Assessment
4. Pursuant to Title 18, United States Code, Section
3013(a)(2)(A), immediately after sentencing, the Defendant will pay to the Clerk of the United States District
Court a special assessment in the amount of one hundred dollars ($100.00) per count of conviction, for a
total of two hundred dollars ($200.00). The payment
will be by cashier’s check or money order payable to
the Clerk of the United States District Court, c/o
District Clerk’s Office, P.O. Box 61010, Houston,
Texas 77208, Attention: Finance.
Restitution, Forfeiture, and Fines
5. This plea agreement is being entered into by the
United States on the basis of the Defendant’s express
representation that the Defendant will make a full and
complete disclosure of all assets over which the
Defendant exercises direct or indirect control, or in
which the Defendant has any financial interest.
6. The Defendant agrees to make complete financial
disclosure to the United States by truthfully executing
a sworn financial statement by the deadline set by the
United States, or if no deadline is set, no later than
sentencing. The Defendant agrees to authorize the
release of all financial information requested by the

91a
United States, including, but not limited to, executing
authorization forms for the United States to obtain tax
information, bank account records, credit history, and
social security information. The Defendant agrees to
discuss or answer any questions by the United States
relating to the Defendant’s complete financial
disclosure.
7. The Defendant agrees to pay restitution to the
victim(s) of Count 2 of the Information. The Defendant
stipulates and agrees that as a result of his criminal
conduct the victim, his former employer, incurred a
monetary loss of $10.8 million. The Defendant and the
United States agree to recommend that the Court
order restitution of $10.8 million.
8. The parties contemplate that the United States
will seek the transfer to the United States of certain of
the Defendant’s assets in the following bank accounts
in Switzerland that have been frozen by the Swiss
authorities and will seek to apply those assets
to satisfy, in whole or in part, the Court’s restitution
order: Credit Suisse (ZH) account number [redacted_long], in the name of Kirton Investments Inc.;
Credit Suisse (ZH) account number [redacted_long] in
the name of Black Eagle Foundation; and Credit
Suisse (ZH) account number [redacted_long] in the
name of Meritco Investment S.A. Upon entering his
guilty plea, the Defendant agrees to waive all rights
in, interest in, and title to the aforementioned accounts,
to take all steps as requested by the United States to
facilitate the transfer of the assets in the aforementioned accounts to the United States and the application of the assets to restitution, and to testify truthfully in any related proceeding. The Defendant further
agrees that the amount of restitution that can be paid
using the assets in these accounts will be due and

92a
payable as soon as the assets are transferred to the
United States and available for restitution.
9. The Defendant further agrees to liquidate
through an arms-length transaction his interest in the
real property located at [redacted_address_including_state_city_and_zipcode], that he holds through
Kirton Investments Inc., within six months of the date
of the entry of his guilty plea, which time period may
be extended by the United States, and to pay all or
that portion necessary of the proceeds of the transaction, net of any transaction costs, to satisfy his obligation to make restitution under this agreement. The
United States agrees not to bring further charges
based on the transactions required by this paragraph.
10. The Defendant understands that under the
United States Sentencing Guidelines, the Court may
order the Defendant to pay a fine to reimburse the
government for the costs of any imprisonment or term
of supervised release. To the extent that the Court
orders restitution consistent with paragraph 7, the
United States agrees to recommend that the Court not
impose a fine.
Cooperation
11. The parties understand this agreement carries
the potential for a motion for departure under Section
5K1.1 of the United States Sentencing Guidelines. The
Defendant understands and agrees that whether such
a motion is filed will be determined solely by the
United States through the Fraud Section of the
Criminal Division of the United States Department of
Justice. Should the Defendant’s cooperation, in the
sole judgment and discretion of the United States,
amount to “substantial assistance,” the United States
reserves the sole right to file a motion for departure

93a
pursuant to Section 5K1.1 of the United States
Sentencing Guidelines. The Defendant understands
and agrees that the United States will request that
sentencing be deferred until his cooperation is
complete. During that time, the Defendant agrees to
persist in his plea of guilty through sentencing and to
fully cooperate with the United States as described
below.
12. The Defendant understands and agrees that
“fully cooperate,” as used herein, includes providing all
information relating to any criminal activity known to
the Defendant, including providing assistance to
foreign authorities at the direction of the United
States. The Defendant understands that this includes
providing information about all state, federal, and
foreign law offenses about which he has knowledge. In
that regard:
(a) Defendant agrees to testify truthfully as a
witness before a grand jury or in any other judicial or administrative proceeding when called
upon to do so by the United States, including in
a proceeding in a foreign jurisdiction. Defendant further agrees to waive his Fifth Amendment privilege against self-incrimination for
the purpose of this agreement;
(b) Defendant agrees to voluntarily attend any
interviews and conferences as the United States
may request on reasonable notice;
(c) Defendant agrees to provide truthful, complete
and accurate information and testimony and
understands any false statements made by the
Defendant to the Grand Jury or at any court
proceeding (criminal or civil), or to a government agent or attorney can and will be prose-

94a
cuted under the appropriate perjury, false
statement or obstruction statutes;
(d) Defendant agrees to provide to the United
States all documents in his possession or under
his control relating to all areas of inquiry and
investigation.
(e) Should the recommended departure, if any, not
meet the Defendant’s expectations, the Defendant
understands he remains bound by the terms of
this agreement and cannot, for that reason
alone, withdraw his plea.
Waiver of Appeal
13. The Defendant is aware that Title 18, United
States Code, Section 3742 affords a Defendant the
right to appeal the sentence imposed. Additionally, the
Defendant is aware that Title 28, United States Code,
Section 2255, affords the right to contest or “collaterally attack” a conviction or sentence after the conviction or sentence has become final. If the Court accepts
the plea agreement pursuant to Rule 11(c)(1)(C) and
sentences the Defendant to the agreed-upon sentence
as set forth in paragraph 19, the Defendant agrees to
waive the right to appeal the sentence imposed or the
manner in which it was determined, and the Defendant waives the right to contest his conviction or
sentence by means of any post-conviction proceeding.
14. In agreeing to these waivers, the Defendant is
aware that a sentence has not yet been determined by
the Court. The Defendant is also aware that any
promise, representation, or estimate of the possible
sentencing range under the Sentencing Guidelines
that he may have received from his counsel, the
United States, or the Probation Office is a prediction,
not a promise, and is not binding on the United States,

95a
the Probation Office, or the Court, other than as
provided in paragraph 19. The Defendant further
understands and agrees that the United States Sentencing Guidelines are “effectively advisory” to the
Court. United States v. Booker, 125 S.Ct. 738 (2005).
Accordingly, the Defendant understands that, although
the Court must consult the United States Sentencing
Guidelines and must take them into account when
sentencing the Defendant, the Court is not bound to
follow the United States Sentencing Guidelines and is
not required to sentence the Defendant within the
calculated guideline range. However, if the Court
accepts this plea agreement, the Court is bound by the
sentencing provision in paragraph 19.
15. The Defendant understands and agrees that all
waivers contained in the agreement are made in
exchange for the concessions made by the United
States in this plea agreement. If the Defendant
instructs his attorney to file a notice of appeal of his
sentence or of his conviction, or if the Defendant
instructs his attorney to file any other post-conviction
proceeding attacking his conviction or sentence, the
Defendant understands that the United States will
seek specific performance of the Defendant’s waivers
in this plea agreement of the Defendant’s right to
appeal his conviction or sentence and of the Defendant’s right to file any post-conviction proceedings
attacking his conviction or sentence.
The United States’ Agreements
16. The United States agrees that, except as provided in this agreement, no further criminal charges
will be brought against the Defendant for any act or
offense in which he participated in his capacity as an
officer and/or employee of EPC Contractor A or EPC
Contractor A1, or for any act or offense relating to the

96a
Defendant’s transactions with or use of the proceeds of
the conspiracies charged, provided such conduct was
disclosed to the United States by the Defendant prior
to the date the Defendant executes this agreement.
United States’ Non-Waiver of Appeal
17. The United States reserves the right to carry
out its responsibilities under guidelines sentencing.
Specifically, the United States reserves the right:
(a) to bring its version of the facts of this case,
including its evidence file and any investigative
files, to the attention of the Probation Office in
connection with that office’s preparation of a
presentence report;
(b) to set forth or dispute sentencing factors or facts
material to sentencing;
(c) to seek resolution of such factors or facts in
conference with the Defendant’s counsel and
the Probation Office;
(d) to file a pleading relating to these issues, in
accordance with U.S.S.G. Section 6A1.2 and
Title 18, United States Code, Section 3553(a);
and
(e) to appeal the sentence imposed or the manner
in which it was determined.
Sentence Determination
18 The Defendant is aware that the sentence will be
imposed after consideration of the United States
Sentencing Guidelines and Policy Statements, which
are only advisory, as well as the provisions of Title 18,
United States Code, Section 3553(a). The United
States and the Defendant agree that the applicable

97a
Sentencing Guidelines range exceeds 84 months’
imprisonment.
19. Pursuant to Rule 11(c)(1)(C) of the Federal
Rules of Criminal Procedure, the United States and
the Defendant agree that a term of imprisonment of 84
months is the appropriate disposition of the case. The
Defendant understands that, if the Court rejects the
plea agreement, the Court must (i) inform the parties
that the Court rejects the plea agreement, (ii) advise
the Defendant personally that the Court is not
required to follow the plea agreement and give the
Defendant the opportunity to withdraw the plea, and
(iii) advise the Defendant personally that if the plea is
not withdrawn, the Court may dispose of the case less
favorably toward the defendant than the plea agreement contemplated. The Defendant agrees that he will
not seek a sentence below 84 months’ imprisonment,
and the Defendant understands that except under the
circumstances described in paragraph 20 below, the
Court will be required to impose a sentence of 84
months’ imprisonment if the Court accepts the plea
agreement.
20. If the Defendant provides truthful, complete,
and accurate information to the United States and
fully cooperates with the United States pursuant to
the plea agreement, then the United States in its sole
and exclusive discretion may move the Court, pursuant to Section 5K1.1 of the United States Sentencing
Guidelines and Title 18, United States Code, Section
3553(e), to depart downward from the 84-month
agreed-upon sentence set forth in paragraph 19. The
Defendant agrees that he will not move for a
downward departure on any grounds and that no such
grounds are applicable.

98a
Rights at Trial
21. The Defendant represents to the Court that he
is satisfied that his attorneys have rendered effective
assistance. The Defendant understands that by entering into this agreement, he surrenders certain rights
as provided in this plea agreement. The Defendant
understands that the rights of a defendant include the
following:
(a) If the Defendant persisted in a plea of not guilty
to the charges, the Defendant would have the
right to a. speedy jury trial with the assistance
of counsel. The trial may be conducted by a
judge sitting without a jury if the Defendant,
the United States, and the court all agree.
(b) At a trial, the United States would be required
to present witnesses and other evidence against
the Defendant. The Defendant would have the
opportunity to confront those witnesses and his
attorney would be allowed to cross-examine
them. In turn, the Defendant could, but would
not be required to, present witnesses and other
evidence on his own behalf. If the witnesses for
the Defendant would not appear voluntarily, he
could require their attendance through the subpoena power of the court.
(c) At a trial, the Defendant could rely on a
privilege against self-incrimination and decline
to testify, and no inference of guilt could be
drawn from such refusal to testify. However, if
the Defendant desired to do so, he could testify
on his own behalf.

99a
Factual Basis for Guilty Plea
22. The Defendant is pleading guilty because he is
guilty of the charges contained in Counts 1 and 2 of
the Information. If this case were to proceed to trial,
the United States would prove each element of the
offenses charged in the Information beyond a reasonable doubt( The Defendant understands that the United
States would submit testimony and physical and documentary evidence that would establish the following
facts, among others:
The Defendant
a. At all times relevant to the Information,
STANLEY was a United States citizen and a
resident of Houston, Texas. STANLEY and his
co-conspirators committed acts in furtherance
of the schemes described below in Houston,
Texas. From in or about March 1991, until in or
about June 2004, STANLEY served in various
capacities as an officer and/or director of EPC
Contractor A1 and its successor company, EPC
Contractor A1.
The Bonny Island Bribery Scheme
b. At all times relevant to the Information,
STANLEY was one of the executives at EPC
Contractor A and then EPC Contractor A1 with
1

This factual basis refers to persons and entities, such as EPC
Contractor A, using the same terms as are used in the Information to which STANLEY is pleading guilty. STANLEY has
reviewed the “Relevant Entities and Individuals” section of the
Information (paragraphs 2-l2) and admits the facts alleged
therein based on his personal knowledge and/or admits that the
government would be able to prove the facts alleged therein at a
trial.

100a
responsibility for obtaining the EPC contracts
to build the Bonny Island Project, a series of
four contracts awarded between 1995 and 2004
(corresponding to Trains 1 and 2; Train 3;
Trains 4 and 5; and Train 6), collectively valued
at over $6 billion, to build liquefied natural gas
(“LNG”) facilities on Bonny Island, Nigeria.
STANLEY also was EPC Contractor A/EPC
Contractor A1 ‘s senior representative on the
Steering Committee of Joint Venture. The
Steering Committee made major decisions on
behalf of Joint Venture, including authorizing
the retention and compensation of agents.
c. STANLEY believed that support of Nigerian
government officials, including top-level executive branch officials, high-level Petroleum Ministry officials, NNPC officials, and NLNG officials
and employees, was necessary for the Bonny
Island Project EPC Contracts to be awarded to
Joint Venture. STANLEY also knew that it was
unlawful under U.S. law to bribe foreign government officials.
d. In 1994, 1999, 2001, and 2002, STANLEY
authorized the hiring of Consultant A and Consulting Company A by Joint Venture, expecting
that Consultant A and Consulting Company A
would pay bribes to high-level Nigerian government officials to assist Joint Venture, EPC
Contractor A, EPC Contractor A1, and others
in winning the EPC contracts to build the
Bonny Island Project. In 1996, 1999, and 2001,
STANLEY also authorized the hiring of Consulting Company B by Joint Venture, expecting
that Consulting Company B would pay bribes to
lower level Nigerian government officials to

101a
assist Joint Venture, EPC Contractor A, EPC
Contractor A1, and others in winning the EPC
contracts to build the Bonny Island Project.
e. At crucial junctures in the life of the Bonny
Island Project, STANLEY and others met with
three successive holders of a top-level office in
the executive branch of the Government of
Nigeria to ask the office holder to designate a
representative with whom Joint Venture should
negotiate bribes to Nigerian government officials. On or about November 30, 1994, STANLEY
and others met with the first such top-level
executive branch official in Abuja, Nigeria, to
ask the official to nominate a representative
with whom Joint Venture should negotiate the
fees that Joint Venture would pay Consulting
Company A to pass on as bribes to Nigerian
government officials. This top-level executive
branch official designated a high-level official of
the Ministry of Petroleum as his representative.
Thereafter, as EPC Contractor A’s senior representative on Joint Venture’s Steering Committee,
STANLEY authorized Joint Venture to enter
into a consulting agreement with Consulting
Company A providing for Joint Venture to pay
it $60 million if the EPC contract for Trains 1
and 2 was awarded to Joint Venture. STANLEY
intended that the $60 million fee would be used,
in part, to pay bribes to Nigerian government
officials.
f. On or about May 1, 1997, STANLEY and others
again met in Abuja, Nigeria, with the top-level
executive branch official to ask the official to
nominate a representative with whom Joint
Venture should negotiate bribes to Nigerian

102a
government officials in exchange for the award
to Joint Venture of an EPC contract to build
Train 3. At the meeting, the top-level executive
branch official designated a senior executive
branch official as his representative.
g. On or about February 28, 1999, STANLEY and
others met in Abuja, Nigeria, with a second toplevel executive branch official. At the meeting,
STANLEY asked the second top-level executive
branch official to nominate a representative
with whom Joint Venture should negotiate bribes
to Nigerian government officials in exchange for
the award to Joint Venture of an EPC contract
to build Train 3. At the meeting, the second toplevel executive branch official designated one of
his advisers as his representative.
h. On or about March 5, 1999, STANLEY and
other co-conspirators met at a hotel in London,
England, with the adviser designated by the
second top-level executive branch official to
negotiate the amount of bribes to be paid to the
second top-level executive branch official and
other Nigerian government officials in exchange
for the award to Joint Venture of an EPC
contract to build Train 3. The amount negotiated with the representative formed the basis
for the $32.5 million fee that Joint Venture
promised to pay Consulting Company A. As
EPC Contractor A1‘s senior representative on
Joint Venture’s Steering Committee, STANLEY
authorized Joint Venture to enter into the
consulting agreement with Consulting Company
A, intending that the $32.5 million fee would be
used, in part, to pay bribes to Nigerian government officials.

103a
i. On or about November 11, 2001, STANLEY and
other co-conspirators met in Abuja, Nigeria,
with a third top-level executive branch official
to ask the official to nominate a representative
with whom Joint Venture should negotiate
bribes to Nigerian government officials in
exchange for the award to Joint Venture of an
EPC contract to build Trains 4 and 5. At the
meeting, the third top-level executive branch
official designated a top-level official of NNPC
as his representative. As EPC Contractor A1’s
senior representative on Joint Venture’s
Steering Committee, STANLEY authorized
Joint Venture to enter into a consulting agreement with Consulting Company A providing for
Joint Venture to pay it $51 million if the EPC
contract for Trains 4 and 5 was awarded to Joint
Venture. At the time, STANLEY intended that
the $51 million fee would be used, in part, to pay
bribes to Nigerian government officials.
j. In or about June 2002, STANLEY authorized
Joint Venture to enter into a consulting agreement with Consulting Company A providing for
Joint Venture to pay it $23 million if the EPC
contract for Train 6 was awarded to Joint
Venture. At the time, STANLEY intended that
the $23 million fee would be used, in part, to pay
bribes to Nigerian government officials.
The LNG Consultant Kickback Scheme
k. LNG Consultant was a salesperson at EPC
Contractor A until in or about 1988, when he
resigned as an employee and became a consultant to EPC Contractor A. In or about 1991,
STANLEY and LNG Consultant agreed that (I)
STANLEY would arrange for LNG Consultant

104a
to receive lucrative consulting agreements with
EPC Contractor A and, later, EPC Contractor
A1, and (ii) LNG Consultant would “kick back”
to STANLEY a portion of the consulting fees
that LNG Consultant received from EPC Contractor A and EPC Contractor A1. STANLEY
and LNG Consultant concealed the kickback
scheme from EPC Contractor A, EPC Contractor A’s parent company, EPC Contractor A1,
and EPC Contractor A1‘s parent company. At
the time, STANLEY knew that the codes of
conduct of the parent companies of EPC Contractor A and EPC Contractor A1 prohibited
these payments. STANLEY also knew that
other officers and employees of EPC Contractor
A, EPC Contractor A1, and their respective
parent companies would not have approved
consulting contracts with companies related to
LNG Consultant if they had known about the
kickback scheme.
l. During the ensuing years, as described below,
LNG Consultant or companies he designated
and controlled, with the assistance of STANLEY,
obtained a series of lucrative consulting agreements with EPC Contractor A and EPC Contractor A1. These agreements generally provided for the payment of a fixed $10 million
success fee if the LNG plant project covered by
the agreement was awarded to EPC Contractor
A/EPC Contractor A1.
m. In April 1992, STANLEY caused EPC Contractor A to enter into a consulting agreement for
the Malaysia Dua LNG project with a Lebanese
consulting company designated and controlled
by LNG Consultant (“Lebanese Consulting

105a
Company”), Pursuant to the consulting agreement, EPC Contractor A paid the Lebanese
Consulting Company $15 million. LNG Consultant kicked back to STANLEY a total of $4.75
million by directing the Lebanese Consulting
Company to wire transfer payments to a Swiss
bank account controlled by STANLEY after
receiving each installment payment from EPC
Contractor A.
n. In January 1996, STANLEY caused EPC Contractor A to enter into a consulting agreement
for Trains 1 and 2 of the Bonny Island Project
with a second company designated and
controlled by LNG Consultant (“BVI Consulting
Company”). Pursuant to the consulting agreement, EPC Contractor A paid BVI Consulting
Company $10 million. LNG Consultant kicked
back to STANLEY a total of $1.95 million by
wire transferring payments to a Swiss bank
account controlled by STANLEY after receiving
each installment payment from EPC Contractor
A.
o. In or about August 1998, STANLEY caused
EPC Contractor A to enter into a consulting
agreement for the Malaysia Tiga LNG project
with BVI Consulting Company. Pursuant to the
consulting agreement, EPC Contractor A 1 , as
the successor company to EPC Contractor A,
paid BVI Consulting Company $13.3 million.
LNG Consultant kicked back to STANLEY a
total of $4.1 million by causing wire transfers to
the Swiss bank account of Amal Development
Inc., a Panama corporation controlled by
STANLEY.

106a
p. In or about June 2001, STANLEY caused EPC
Contractor A1 to enter into consulting agreements for the Yemen LNG project and the
Egypt LNG project with BVI Consulting Company. In or about April 2003, STANLEY caused
EPC Contractor A1 to enter into a consulting
agreement for the Indonesia LNG project with
BVI Consulting Company. In each of these
agreements, EPC Contractor A1 promised to
pay BVI Consulting Company a success fee of
$10 million. Pursuant to the agreement for the
Egypt LNG project, EPC Contractor A1 paid
BVI Consulting Company a total of $10 million
between February 2002 and July 2003.
q. In or about 2004, STANLEY talked separately
with LNG Consultant and with one of LNG
Consultant’s colleagues about potential cover
stories that could be used to explain STANLEY’s
receipt of payments from the Lebanese consulting company and BVI Consulting Company.
Breach of Plea Agreement
23. If the Defendant should fail in any way to fulfill
completely all of the obligations under this plea
agreement, the United States will be released from its
obligations under the plea agreement, and the
Defendant’s plea and sentence will stand. If at any
time the Defendant retains, conceals or disposes of
assets in violation of this plea agreement, or if the
Defendant knowingly withholds evidence or is otherwise not completely truthful with the United States,
then the United States may move the Court to set
aside the guilty plea and reinstate prosecution. Any
information and documents that have been disclosed
by the Defendant, whether prior or subsequent to this

107a
plea agreement, and all leads derived therefrom, will
be used against the Defendant in any prosecution.
24. Whether the Defendant has breached any
provision of this plea agreement shall be determined
solely by the United States through the Fraud Section
of the Criminal Division of the United States
Department of Justice, whose judgment in that regard
is final.
Complete Agreement
25. This written plea agreement, consisting of 23
pages, including the attached addendum of the
Defendant and his attorney, constitutes the complete
plea agreement between the United States, the
Defendant, and his counsel. No promises or representations have been made by the United States except as
set forth in writing in this plea agreement. The
Defendant acknowledges that no threats have been
made against him and that he is pleading guilty freely
and voluntarily because he is guilty.
26. Any modification of this plea agreement must be
in writing and signed by all parties.
Filed at Houston, Texas, on 9/3, 2008.
/s/ Albert Jackson Stanley
Albert Jackson Stanley
Defendant
Subscribed and sworn to before me on September 3,
2008.
MICHAEL N. MILBY
UNITED STATES DISTRICT CLERK
By: /s/ [Illegible]
Deputy United States District Clerk

108a
APPROVED:
STEVEN A. TYRRELL, CHIEF
FRAUD SECTION
CRIMINAL DIVISION
U.S. DEPARTMENT OF JUSTICE
/s/ William J. Stuckwisch
William J. Stuckwisch
D.C. Bar No. 457278
Patrick F. Stokes
Maryland State Bar
Trial Attorneys
Fraud Section, Criminal Division
U.S. Department of Justice
1400 New York Ave, Rm 3428
Washington, DC 20005
Tel.: (202) 353-2393
Fax.: (202) 514-0152
/s/ Larry Verelka
Larry Verelka
Attorney for Defendant Albert Jackson Stanley

109a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
————
Criminal No. H-08-597
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
ALBERT JACKSON STANLEY,
Defendant.
————
PLEA AGREEMENT – ADDENDUM
I have fully explained to the Defendant his rights
with respect to the Information. I have reviewed the
provisions of the United States Sentencing Guidelines
and I have fully and carefully explained to the Defendant the provisions of those Guidelines which may
apply in this case. I have also explained to the Defendant that the Sentencing Guidelines are only advisory.
Further, I have carefully reviewed every part of this
plea agreement with the Defendant. To my knowledge,
the Defendant's decision to enter into this agreement
is an informed and voluntary one.
/s/ Larry Veselka
Attorney for Defendant

Sept. 3, 2008
Date

110a
I have consulted with my attorney and fully understand all my rights with respect to the Information
against me. My attorney has fully explained and I
understand all my rights with respect to the provisions
of the United States Sentencing Guidelines which may
apply in my case. I have read and carefully reviewed
every part of this plea agreement with my attorney. I
understand this agreement and I voluntarily agree to
its terms.
/s/ Albert Jackson Stanley
Defendant

9/3/08
Date

111a
APPENDIX M
[1] THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
————
Criminal No. 08-597
————
UNITED STATES OF AMERICA
Versus
ALBERT JACKSON STANLEY
————
INITIAL APPEARANCE,
ARRAIGNMENT AND PLEA
————
BEFORE THE HONORABLE KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE
————
Houston, Texas 1:30 p.m.
September 3, 2008
————
Proceedings recorded by computer stenography
Produced by computer-aided transcription
Edward L. Reed
Official Court Reporter
515 Rusk, Suite 8016
Houston, Texas 77002 * 713-250-5594
————

112a
[2] APPEARANCES:
For the United States of America:
MR. WILLIAM J. STUCKWISCH
MR. PATRICK STOKES
UNITED STATES DEPARTMENT OF JUSTICE
Fraud Section - Criminal Division
1400 New York Avenue, Room 3428
Washington, DC 20005
For the Defendant:
MR. LEE L. KAPLAN
MR. LARRY R. VESELKA
SMYSER KAPLAN & VESELKA, LLP
700 Louisiana, Suite 2300
Houston, Texas 77002
MR. GEORGE H. TYSON, JR.
ATTORNEY AT LAW
2120 Welch
Houston, Texas 77019
Court Reporter:
EDWARD L. REED
UNITED STATES DISTRICT COURT
515 Rusk, Suite 8016
Houston, Texas 77002
[3] THE COURT: Good afternoon and welcome. We’ll
turn to the case of United States versus Albert Jackson
Stanley. We’ll take appearances of counsel beginning
with the Government, please.
MR. STUCKWISCH: For the Government, William
Stuckwisch and Patrick Stokes with the Justice
Department, Criminal Division, Fraud Section.
THE COURT: Welcome.

113a
MR. VESELKA: Larry R. Veselka and Lee Kaplan
of Smyser Kaplan & Veselka, LLP, Your Honor. Also,
Mr. George Tyson is assisting us, but he’s out making
a call to bring somebody down.
THE COURT: Welcome to all of you, too.
All right, this matter is before the Court on an information. We need to do an initial appearance and an
arraignment. And I understand we’ll also go over the
terms of the Plea Agreement, which is fine. It’s a little
unorthodox, but we could do that.
Tell me how the Government plans to proceed. Do
you wish me to go through the initial part of the
arraignment, ask him whether he pleads guilty or not
guilty?
MR. STUCKWISCH: I don’t know that that’s necessary, Your Honor. We understand that he plans to
plead guilty. I would suggest going through the waiver
[4] of indictment —
THE COURT: I’ll do that for sure.
MR. STUCKWISCH: — initial appearance and moving on to taking the plea.
THE COURT: All right. Mr. Veselka, Mr. Kaplan, do
you wish me to read the information or are you willing
to waive that?
MR. VESELKA: We waive that, Your Honor, on
behalf of Mr. Stanley.
THE COURT: All right. Mr. Stanley, do you wish to
plead guilty, sir?
DEFENDANT STANLEY: Yes, sir.
THE COURT: And pursuant to the Plea Agreement,
the plea is to what counts?

114a
MR. STUCKWISCH: The plea is to Counts One and
Count Two of the Information. Would you like me to
describe the counts, Your Honor?
THE COURT: Well, I think he’s waived the reading,
so I assume you don’t need a description of the charges,
do you?
MR. VESELKA: No, Your Honor, we’re familiar.
THE COURT: All right. Sir, do you understand —
Mr. Stanley, do you understand that because you’re
proceeding under an information, you have not had
your case submitted to a grand jury and you will not
be [5] the subject of an indictment? Do you understand
that, sir?
DEFENDANT STANLEY: Yes, sir.
THE COURT: Is that satisfactory to you, then?
DEFENDANT STANLEY: Yes.
THE COURT: All right. We have at least the terms
of a bond to discuss, as well as the terms of the Plea
Agreement. What I would like you to do, Mr.
Stuckwisch, if you could summarize the terms of the
Plea Agreement and make sure it’s consistent with
Mr. Stanley’s understanding, as well as the understanding of Mr. Kaplan and Mr. Veselka. Maybe you
can approach the rostrum. I think you could hear you
better, if you did.
MR. STUCKWISCH: The Plea Agreement provides
that Mr. Stanley will waive indictment and plead
guilty to Counts One and Two of the Information, pursuant to Rule 11(c)(1)(C). The parties have agreed that
a term of imprisonment of 84 months is the appropriate disposition of the case, subject only to a potential
departure under Section 5K1.1 of the Sentencing
Guidelines, upon a motion by the Government.

115a
If the Court accepts the Plea Agreement and sentences Mr. Stanley in accordance with the terms of the
agreement, the defendant agrees to waive his right to
[6] appeal and to collaterally attack his conviction and
his sentence.
The parties agree in the Plea Agreement to recommend to the Court that Mr. Stanley pay $10.8 million
in restitution to the victim of Count Two of the Information. And the parties agree in the Plea Agreement
to recommend to the Court — or I should say the Government agrees in the Plea Agreement to recommend
that the Court not impose a fine on Mr. Stanley, to the
extent that it imposes the restitution in the Plea
Agreement.
THE COURT: Mr. Stanley, is that your understanding of the Plea Agreement, sir?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Mr. Veselka?
MR. VESELKA: Yes, Your Honor.
THE COURT: I don’t know all the circumstances or
even very many of them in this case. I understand that
we’re talking about large volumes of money. 84
months would strike me as very high for a first-time
offender.
Can you tell me what pushed the Government to
that length of incarceration, Mr. Stuckwisch, and
whether there are any — under 3553, are there no less
restrictive alternatives?
MR. STUCKWISCH: Just some background.
[7] THE COURT: Yes, sir.
MR. STUCKWISCH: Mr. Stanley is pleading to two
separate conspiracies.

116a
The first conspiracy is to violate the Foreign Corrupt
Practices Act.
THE COURT: Right.
MR. STUCKWISCH: The second is to commit mail
and wire fraud through a kickback scheme.
The Government, in determining what the appropriate sentence was, began, as we often do, with the Sentencing Guidelines, and we ran Guidelines calculations for both of the schemes.
The parties have not agreed on a Guidelines calculation, but the parties have agreed in the Plea Agreement that the Guidelines range exceeds the 84 months
that we’ve agreed upon pursuant to 11(c)(1)(C).
According to the Government’s calculation of the
Guidelines, for, the scheme to bribe the foreign government officials in Count One, the Guidelines range far
exceeds the 84 months. The bottom of the Guidelines
range is upwards of 25 years.
For the second scheme, the kickback scheme, the
bottom of the Guidelines range is six and a half years,
and that goes above the 84 months that we agreed was
an appropriate disposition of this case.
[8] THE COURT: Unless I have forgotten how to do
multiplication, six and a half years would be what, 78
months?
MR. STUCKWISCH: That’s correct, Your Honor.
The Guidelines range calculated by the Government
for Count Two would be 78 to 97 months.
THE COURT: So it is within that Guideline range?
MR. STUCKWISCH: It would be within the Guideline range on Count Two, and then —

117a
THE COURT: I know, Count One would be a lot
higher.
MR. STUCKWISCH: Correct.
THE COURT: And in terms of the purposes of punishment, do you think this is primarily as a matter of
general deterrence? I doubt he’s a continuing risk, is he?
MR. STUCKWISCH: No, Your Honor, we don’t
believe he’s a continuing risk. It’s both — it’s general
deterrence in the area of enforcement of the Foreign
Corrupt Practices Act. A sentence such as this would
send a message to other executives that foreign bribery is taken very seriously and penalties will be paid
for violators of the Act.
In terms of Mr. Stanley himself, I should [9] note
that his conduct here was egregious.
THE COURT: I’m concerned about the conduct. I’m
concerned about it.
MR. STUCKWISCH: Yes, Your Honor.
THE COURT: Is this comparable to other sentences
that have been imposed pursuant to the Foreign
Corrupt Practices Act?
MR. STUCKWISCH: This would be the longest sentence to date in a Foreign Corrupt Practices Act.
THE COURT: That’s what I wondered about. I know
it’s a growth industry, isn’t it, Foreign Corrupt Practices Act? It’s keeping a lot of white collar lawyers
busy; is that fair?
MR. STUCKWISCH: I think that’s fair.
I believe the previous longest sentence of an individual in an FCPA case was I believe 60-odd months here
in Houston.

118a
THE COURT: The distinguishing aspects of this one
are the dollar volume and the far-ranging nature of the
conspiracy?
MR. STUCKWISCH: Those are distinguishing factors, and Mr. Stanley’s position at the company. He
was the CEO and chairman of his company.
THE COURT: Was it a Halliburton subsidiary; is
that right?
[10] MR. STUCKWISCH: We haven’t identified the
company in the public papers, Your Honor, because of
Justice Department Guidelines about identifying
uncharged wrongdoers.
THE COURT: Okay.
MR. STUCKWISCH: But if that’s important to your
consideration —
THE COURT: No, no. I know something about that
corporation. He wasn’t the chairman of the corporation. It’s set forth in the Pretrial Report he was chairman of some subsidiary, I have to believe.
MR. STUCKWISCH: That’s right, Your Honor, he
was the chairman of a major global engineering and
construction services company, business around the
world, constructing, among other things, large liquefied natural gas plants, which were at issue in these
projects.
This case is distinguishable also because of the wide
range and high level of the officials, the foreign government officials whom were to be bribed.
This scheme is distinguish able from previous cases
by the sophistication of the scheme, funneling the
bribes through agents and Swiss bank accounts, other

119a
foreign bank accounts, shell companies, nominee
accounts.
[11] I think it’s fair to say that this is the largest
FCPA prosecution to date.
THE COURT: Well, I’m not trying to play defense
counsel, I’m really not, but I’m concerned about this
proceeding, as I am about all proceedings. But it
appears Mr. Stanley was dealing with a substantial
physical dependency during much of this time. Was
that factored in?
MR. STUCKWISCH: Yes, Your Honor.
THE COURT: I know the Guidelines don’t allow you
to, but —
MR. STUCKWISCH: No, it was factored in, Your
Honor. We considered not only his conduct here, but
his personal circumstances, including his alcoholism
and his current health. We’ve also considered our
ongoing investigations and the needs of our investigation and our desire that Mr. Stanley cooperate —
THE COURT: All right. Do you think a 5K is
realistic?
MR. STUCKWISCH: If Mr. Stanley provides substantial assistance, I think a 5K is realistic, yes, Your
Honor. And we have every expectation that
Mr. Stanley is going to provide substantial assistance, to be perfectly honest. We wouldn’t be doing the
deal unless we believed that.
[12] THE COURT: But he’s going to be sentenced
today, or no?
MR. STUCKWISCH: No, Your Honor. We would
propose —

120a
THE COURT: Okay, just approve the Plea
Agreement?
MR. STUCKWISCH: Approving the Plea Agreement
and —
THE COURT: And postpone sentencing until you
see whether you can file a 5K; is that right?
MR. STUCKWISCH: Yes, sir.
THE COURT: Very well, thank you very much. Mr.
Veselka, do you want to add to any of that?
MR. VESELKA: Yes, Your Honor, briefly. May it
please the Court.
Many of the issues that the Court has raised, obviously, were issues that Mr. Stanley very much thought
of and brought to bear.
THE COURT: I’m sure he did.
MR. VESELKA: But it is an issue with regard to
finality, getting on with his life. He’s been cooperating
for some time. There has been issues. He’s appeared
pursuant to Queen for a Day over a matter of years,
and has made efforts to provide information to the [13]
Government. So he’s very hopeful that his continued
cooperation will lead to a downward departure.
Yes, we would have preferred to try to arrange at a
bargain that would have been at a lesser amount initially, subject to your acceptance. But because of the
belief, the potential of what the downward departure
could do, he was willing to accept this rather than risk
ending up facing Guidelines that could effectively put
him in for the rest of his life.
So, faced with that, he has accepted his condition
and is willing to accept this and asks that the Court

121a
accept the plea and sentencing will be put off until
after —
THE COURT: No, I’m happy to do that.
The restitution amount, is that realistic, given the
asset list?
MR. VESELKA: Let me describe, first, the asset list
described in the Pretrial Services Report, we had mentioned it at the interview, but they did not put in the
list. If the Court reviewed the Plea Agreement, there
are —
THE COURT: I have not seen that, yeah.
MR. VESELKA: The Plea Agreement includes reference to there are funds held by nominee entities in
Swiss accounts, and those funds have been frozen pursuant [14] to request for mutual assistance to the
Swiss authorities for four and a half years, by French
and then by the U.S. authorities.
THE COURT: Okay.
MR. VESELKA: He intends to try to relinquish
those to the Government and allow the Government to
get those funds out and to dispose of other assets over
there to provide that, which is the only way it is in any
way conceivable for him to try to come into the ability
to meet the restitution.
He also has paid some $4.4 million of taxes and
interest and penalty on those funds which have been
frozen, which he as not had access to these four and a
half years, out of assets here.
All of these are things we think at the ‘final point of
sentencing, under the statute with regard to restitution, though the amount of restitution is 10.8 million,
which we both recommend, the Court, in determining

122a
what to order to be paid at one time, would take into
account what all gets moved over, what he has left,
and then can order what kind of payment schedule,
and those are all things that we would take up with
you at that time once we see what all has been recovered.
THE COURT: All right. Well, is the restitution
amount subject to a 5K motion also, or simply the time?
[15] MR. VESELKA: The time is all that I understand is on the 5K downward departure. The amount
of restitution is one number. An order of payment of
what to pay and when is at the discretion of the Court.
THE COURT: I understand that. I understand that.
Are the other individuals who may be named in his
cooperation, generally speaking, U.S. nationals, or not?
MR. VESELKA: As to one of the counts, yes; and as
to one of the counts, no.
MR. STUCKWISCH: Your Honor, if I just may —
THE COURT: Sure.
MR. STUCKWISCH: — add to that. Our ongoing
investigation is broad and there are potential defendants, targets, both here and abroad. I believe the individual to which Mr. Veselka is referring in Count Two
is actually a dual U.S. and foreign national.
MR. VESELKA: That’s right, I had forgotten about
his dual status.
THE COURT: Nobody asked me to seal this. Is this
something that needs to be sealed?
MR. VESELKA: The Information was filed under
seal, and there is —

123a
THE COURT: No, the hearing or the Plea [16]
Agreement or anything?
MR. VESELKA: There is a portion of the Plea Agreement that refers to specific account numbers and to
property that’s part of what’s to be transferred over, if
possible, and the Government and Mr. Stanley would
ask that the Court only use a redacted version of that
and keep under seal the full Plea Agreement that has
the identification of those account numbers and
property.
THE COURT: Okay, I’m happy to do that.
MR. VESELKA: There were one or two things in the
Pretrial Report also, just spellings of names. I assume
we can deal with that.
THE COURT: We can deal with that, not on the
record.
MR. VESELKA: Any other questions?
THE COURT: Are you satisfied we’ve had an adequate initial appearance, then, Mr. Veselka?
MR. VESELKA: Yes, Your Honor.
THE COURT: Are you satisfied?
MR. STUCKWISCH: Yes, Your Honor.
THE COURT: Is there anything further anybody
wishes to say about the Plea Agreement?
Okay. The Court will approve the Plea Agreement
on the terms outlined and will make the redactions
requested.
[17] As to the bond, does Pretrial want to be heard
from on that?
PRETRIAL OFFICER FENDLEY: Yes, Your Honor.

124a
THE COURT: Please identify yourself, if you would.
PRETRIAL OFFICER FENDLEY: Virginia Fendley,
Pretrial Services. Your Honor, just what is prepared
in the Pretrial Services Report.
THE COURT: And that’s been agreed to?
PRETRIAL OFFICER FENDLEY: Your Honor, I
presented it to defense and Government counsel and
they noted no objection to anything.
THE COURT: Well, is it agreed to, then?
MR. VESELKA: The only issues, Your Honor, were
that everybody has agreed that he be allowed to have
travel restricted to the Continental United States. He
has reason to travel between here and North Carolina
and may have to be traveling to Washington, D.C. as
part of his cooperation.
It says with prior approval of our itineraries. We just
wanted him to make that. It wouldn’t need court
approval. We want him to be able to inform Pretrial
Services, but he needs to be able to travel at the
request of the Government and/or the SEC.
Also, they have suggested and the [18] Government
has requested, if the Court so desires, that his bond
have a co-surety by his daughter.
THE COURT: That’s fine.
MR. VESELKA: ‘And we would prefer that you not
have to. But if the Court so wants it, that’s fine. Mr.
Tyson has called to ask that she come down here to do
that, if we need that.
THE COURT: Well, Ms. Fendley, is the travel
restriction okay if we just provide that he notify you
rather than obtain permission from me?

125a
PRETRIAL OFFICER FENDLEY: Yes, Your Honor.
Just asking Pretrial Services’ permission, Your Honor,
that would be sufficient.
THE COURT: I, think what he’s saying is he’s notifying you that he’s going to make the trip. So, kind of
the reverse of presumption. If you have a problem with
it, then you say, “No, he can’t do that.”
PRETRIAL OFFICER FENDLEY: Yes, sir, that
would be sufficient.
THE COURT: I mean, given the assets that this
defendant has and given the heavy incentive to cooperate, it seems to me an unsecured bond might be just
on his own signature, I would think. I mean, I just do
not see him as a flight risk.
PRETRIAL OFFICER FENDLEY: Yes, Your Honor.
[19] THE COURT: Okay.
MR. VESELKA: I guess I don’t need to add anything, but he’s been here for four years.
THE COURT: I know.
MR. VESELKA: We’ve even traveled out of the country to obtain documents to provide to the Government
in return, so I see no serious flight risk, Your Honor.
THE COURT: Okay.
All right, anything else you want to do today other
than execute the Plea Agreement?
[Court conferring with Ms. Vaught]
Okay, I’m reminded by my valued colleague that we
probably do need to go through the usual Rule 11 allocution, which I’m willing to do. Anybody who wants to
excuse themselves can do so.

126a
It’s fairly rote, but if you would make your way up
here, please, sir.
We’ve already ascertained, Mr. Stanley, you wish to
plead guilty to Counts One and Two; is that correct?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Before the Court can decide whether
to accept a guilty plea, sir, it’s necessary to provide you
certain information and obtain certain information
from you. Information obtained from you is obtained
[20] under oath. Taking an oath is a serious matter.
Any information you provide can later be used against
you. Any information you provide that you know to be
false can be the basis for further prosecution or further
penalty.
Do you understand that?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Please raise your right hand.
[Defendant sworn by the case manager]
Okay, my first questions, sir, will deal with your
understanding and your ability to understand what
we’re doing here today.
Let me ask, are you currently taking any prescription drugs?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Okay. Are there any prescription
drugs that interfere with your thinking or
understanding?
DEFENDANT STANLEY: No, Your Honor.

127a
THE COURT: Okay. Other than treatment for
dependency, have you had any — have you ever been
treated for mental disease or mental disorder?
DEFENDANT STANLEY: No, sir.
THE COURT: Have you consumed any alcohol or
illegal drugs in the last 24 hours?
DEFENDANT STANLEY: No, Your Honor.
THE COURT: Has anybody threatened you or [21]
coerced or tried to force you to plead guilty?
DEFENDANT STANLEY: No, sir.
THE COURT: Conversely, other than the Government in plea negotiations, has been anybody offered
you any advantage or any compensation or any bribe
to get you to plead guilty?
DEFENDANT STANLEY: No, Your Honor.
THE COURT: Do you feel like you are entering your
plea knowingly and voluntarily?
DEFENDANT STANLEY: Yes.
THE COURT: You have the right to be represented
at all times by counsel. If you cannot afford counsel,
one will be appointed for you at no expense. Have you
been satisfied with the representation you’ve received?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Mr. Veselka, do you believe your client to be competent?
MR. VESELKA: Yes, Your Honor.
THE COURT: Is the plea in this case a result of
negotiations between you and your client on one hand
and the Government on the other hand?
MR. VESELKA: Yes, Your Honor.

128a
THE COURT: Do you understand, Mr. Stanley, that
you have the absolute right to proceed to a jury trial if
you wish?
[22] DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: But if you continue to maintain your
position that you wish to plead guilty, there is not
going to be a jury trial, there’s not going to be any further hearing on the issue of guilt or lack of guilt.
Do you understand that?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: By giving up your right to a jury trial,
you are giving up other important rights that go with
it. Those include the right to representation by a lawyer, the right to summon witnesses in your own
defense and cross-examine adverse witnesses, the
right against compulsory self-incrimination, the right
to the presumption of innocence, and the right to
require the Government to prove you guilty beyond a
reasonable doubt.
Do you understand you have all those rights and
others, too?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Sentencing in the Federal Criminal
System is normally pursuant to a Sentencing Table
that’s been promulgated by the United States Sentencing Commission. It suggests ranges of different punishments based on a number of factors. The two most
important are the seriousness of your offense and your
criminal history, if any.
[23] Do you generally understand the concept of the
Sentencing Table?
DEFENDANT STANLEY: Yes, Your Honor.

129a
THE COURT: In this case, the parties have proposed that the Court approve a specific sentence as
part of the Plea Agreement. Although that sentence
has been formulated with some reference to the sentencing table, the negotiations themselves produced a
sentence probably at variance to that which would be
calculated under the table.
You understand that, don’t you?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Do you further understand that
because of the way the Plea Agreement is written, you
will have the opportunity to cooperate with the Government and possibly secure a less severe sentence at
the time of the actual sentencing.
Do you understand that, sir?
DEFENDANT STANLEY: Yes.
THE COURT: Any period of incarceration, sir, will
be followed by a period of supervised release. Supervised release will mean there will be certain reporting
requirements to your probation officers, there will be
certain limitations on your conduct. And in the worse
of all circumstances, should you violate the terms [24]
of your supervised release, you can actually be
returned to an additional period in prison without any
credit for time you’ve already served.
Do you understand that?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Mr. Veselka, do you want me to go
over the elements of the offense, or are you willing to
waive that?
MR. VESELKA: No, Your Honor, we’ll waive that.
He’s very familiar.

130a
THE COURT: Okay. Normally, we make a short
proffer as to what the Government would have proved
if the case had gone to trial. Can the Government do
that?
MR. STUCKWISCH: Yes, Your Honor.
THE COURT: Please go slow for the court reporter
and for me.
You may be seated.
MR. STUCKWISCH: The Government is prepared
to prove the facts that are set forth in Paragraph 22 of
the Plea Agreement, among others. I’ll summarize
those here.
With respect to Count One, the Government would
prove that Stanley was an officer and director of a company referred to as EPC Contractor A, and that its successor company EPC Contractor Al, including CEO
and then chairman of EPC Contractor Al. He was a
U.S. [25] citizen and a resident of Houston.
Stanley’s employer was part of a four-company Joint
Venture that pursued and was awarded four contracts
worth over $6 billion to build liquefied natural gas for
LNG facilities on Bonny Island, Nigeria. Stanley was
on the Steering Committee of that Joint Venture,
which made major decisions on behalf of the Joint
Venture.
The Government would prove that beginning in
1994, and continuing into 2004, Stanley agreed with
others, including but not limited to employees of his
company and the other Joint Venture companies, to
pay bribes through two agents to a wide range of
Nigerian Government officials in order obtain the contracts to build the LNG facilities. The Joint Ventures

131a
paid the agents over $180 million for use in bribing
Nigerian Government officials.
Stanley personally met with three successive holders of a top-level office of the executive branch of the
Government of Nigeria to ask that the office holders
designate representatives with whom the Joint
Venture should negotiate the bribes. Stanley knew
that it was unlawful for him to agree to bribing foreign
government officials to obtain business, but willfully
agreed with his co-conspirators to retain the agents to
pay the [26] bribes.
During the conspiracy, Stanley and his coconspirators knowingly committed overt acts in furtherance of the conspiracy, including in Houston,
including having meetings and phone conversations
and sending and receiving and executing documents.
With respect to Count Two, the Government would
prove that beginning in 1991, and continuing into
2004, Stanley and a consultant to Stanley’s employer
agreed to a scheme to defraud Stanley’s employer,
whereby Stanley would help the consultants obtain
lucrative consulting contracts with Stanley’s employer,
and the consultant would secretly pay Stanley a portion of the consulting fees as kickbacks. The consultant paid Stanley $10.8 million in kickbacks. Stanley
and the consultant concealed the kickback scheme
from Stanley’s employer.
The Government would prove that Stanley knew
that it was unlawful for him to agree to defraud his
employer by taking secret kickbacks, but willfully
agreed to do so.
During the conspiracy, Stanley and his coconspirators knowingly committed overt acts in furtherance of this conspiracy, including in Houston,

132a
including having meetings and phone conversations
and [27] sending, receiving and executing documents.
THE COURT: Mr. Stanley, did you understand
what the Government’s lawyer said?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Is that true?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: I think we ought to, just to be sure, go
over the maximum punishment, please. Or I can do it,
if you want me to.
MR. STUCKWISCH: Your Honor —
THE COURT: Go ahead.
MR. STUCKWISCH: — Count One is 18 U.S.C. 371.
The maximum penalty is, five years imprisonment or
a $250,000 fine, plus a special assessment of a hundred dollars. The penalty on Count Two — penalties
on Count Two, maximum penalties are the same. It’s
another Section 371 charge, so it’s five years,
$250,000, and special assessment of a hundred dollars.
THE COURT: You understand that, Mr. Stanley?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Well, are you saying, then, that the
maximum sentence in this case would be 120 months,
then, stacking the Count One and Count Two? Is that
what you’re saying?
MR. STUCKWISCH: Yes. Under this plea [28]
agreement, the maximum sentence would be 120
months.
THE COURT: Okay.

133a
Are you satisfied, Mr. Stuckwisch, we’ve had an
adequate allocution? I’ll ask him finally if he pleads
guilty or not guilty.
MR. STUCKWISCH: Yes, Your Honor. Allocution,
I’m satisfied with. I’m not sure whether Mr. Stanley
has been advised of the authority to order restitution.
THE COURT: Well, why don’t you do that. Why
don’t you do that.
MR. STUCKWISCH: Okay. On Count Two, because
the victim suffered a pecuniary loss, restitution would
be required under the Mandatory Victim Restitution
Act.
And I think — I’m not sure also, but it should be
noted on the record that in the Plea Agreement he is
waiving his right to appeal his conviction.
THE COURT: I, thought we covered that in the Plea
Agreement.
MR. STUCKWISCH: We may well have.
THE COURT: And do you understand that, Mr.
Stanley?
DEFENDANT STANLEY: Yes, Your Honor.
THE COURT: Okay, all right.
Do you understand, sir, that under the protocol that
the Government’s counsel and your counsel [29] are
proceeding, that what is presented to the Court is an
agreed plea, including a proposed sentence, and the
Court can either approve the sentence or reject it, but
does not have the right to modify it? Do you understand that, sir?
DEFENDANT STANLEY: Yes, Your Honor.

134a
THE COURT: Having heard everything you’ve
heard, Mr. Stanley, do you wish to plead guilty or not
guilty to Counts One and Two?
DEFENDANT STANLEY: Guilty, Your Honor.
THE COURT: Okay. Based on the testimony and
based on the proposed Plea Agreement, the Court
finds the defendant is competent, he’s represented by
competent counsel, there is an adequate factual basis
for the plea, and the plea is knowingly and voluntary.
Accordingly, the Court will find the defendant guilty
as charged in Count One and Count Two of the information filed on or about August 29, 2008.
We normally announce a sentencing date, but I suppose we should defer that, or would you like a date
months in the future that we can work with?
MR. STUCKWISCH: We would suggest just deferring, Your Honor.
THE COURT: Okay.
MR. VESELKA: That’s fine, Your Honor.
[30] THE COURT: All right. Is there anything more
we can do today?
MR. VESELKA: Your Honor, just out of precaution,
if we did not make it clear enough, we addressed it
earlier, but we would formally move and ask if the
Government agrees that the Plea Agreement remain
under seal and that only the redacted form of the Plea
Agreement provided be available for public view.
MR. STUCKWISCH: Your Honor, we’ve prepared
two versions of the Plea Agreement. One is redacted
and one is for filing under seal, and we would join Mr.
Veselka’s —

135a
THE COURT: Well, I normally hate keeping anything from the public, but with an ongoing investigation, I do understand the sensitivity, so I will agree to
that.
Do you want to execute the Plea Agreement now,
then?
MR. STUCKWISCH: Your Honor, just if I may?
THE COURT: Yes, sir.
MR. STUCKWISCH: Just to be clear on the record,
the reason the Government is moving for the Plea
Agreement — the unredacted Plea Agreement to be
filed under seal is because of the account numbers and
the property information that Mr. Veselka mentioned.
[31] The other version, the redacted version of the
Plea Agreement would, of course, be public.
THE COURT: I understand that. I understand that.
MR. VESELKA: And the Court addressed earlier
with regard to the bond, but I want to clarify that the
travel will be subject to —
THE COURT: Notify the Pretrial Services. And
unless Pretrial objects, he can make the requested
trip. If Pretrial does object, we’ll take it up then.
MR. VESELKA: And that there is no surety
required — co-surety, excuse me?
THE COURT: No co-surety. Surety will be as
proposed, no co-surety.
MR. VESELKA: Thank you.
THE COURT: Do you want the execute the Plea
Agreement while I’m here, or are you finished with me?
MR. VESELKA: We’re happy to, Your Honor.

136a
THE COURT: Why don’t we go ahead and do the
Plea Agreement. Let’s execute it here.
[Plea agreement executed]
All right, we’ve executed the Plea Agreements now.
I know you know this, but you have good lawyers,
extremely good lawyers representing you and [32]
extremely good lawyers representing the Government.
Please listen to their advice. This Court has consistently been receptive to 5K motions filed on behalf of
defendants who are first time offenders and nonviolent offenders. So I’ve never, ever disagreed with
the Government’s motion under those circumstances.
We’ll be in recess.
REPORTER’S CERTIFICATE
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
cause.
/s/ Ed Reed
Edward L. Reed
Official Court Reporter

9-10-08
Date

137a
APPENDIX N
[SEAL]

U.S. Department of Justice
Criminal Division

Fraud Section

Washington, D.C. 20530
April 12, 2019

By Electronic Mail
Charles S. Leeper, Esq
Drinker Biddle & Reath LLP
1500 K Street, NW
Suite 110
Washington, DC 20005-1209
Re: United States v. Samir Khoury,
No. 4:08-cr-763 (S.D. Tex)
Charlie:
We write in response to the Court’s Order dated
March 13, 2019, directing the Government to provide
Defendant Khoury with five categories of information
related to efforts to locate and apprehend him on the
pending Indictment, and to apprehend defendants in
other cases who are located outside the United States.
See Doc. 36 (“Order”).
The enclosed log of communications sets forth the
information called for by the first three categories of
the Order.
With respect to the fourth category, because the
steps that are most appropriately taken to apprehend
“a person of interest believed to be in a foreign jurisdiction” depend on the facts and circumstances of each
unique case, there is not a standardized “policy of the

138a
Department of Justice as to efforts that should be
undertaken to apprehend a person of interest believed
to be in a foreign jurisdiction.” Order at 2. However,
Chapter 9-15.000 of the Justice Manual, which is
publicly available, sets forth general principles and
procedures related to apprehending fugitives from
abroad. Additionally, we have located an internal
Department of Justice document that addresses
certain issues and areas of caution that should be
discussed with case agents and prosecutors concerning
U.S. fugitives located in Lebanon, including potential
consequences associated with certain steps to apprehend fugitives in Lebanon. We are not producing that
document because it contains privileged information
and because it does not set forth a Department of
Justice policy on “efforts that should be undertaken to
apprehend” fugitives believed to be located in Lebanon.
With respect to the fifth category, we have reviewed
efforts to apprehend defendants located abroad that
were undertaken in other prosecutions brought by our
Office, i.e., the Fraud Section’s FCPA Unit. The decision on which steps to take to apprehend such individuals is case specific and based on several factors,
including circumstances particular to the prosecution,
to the defendant, and to the country where he or she
may be located. As a general matter, the Department
of Justice frequently issues INTERPOL notices
and communications seeking the assistance of other
INTERPOL member countries in locating and apprehending a defendant who is located abroad; such communications may be issued to law enforcement officials in all 194 INTERPOL member countries (Red
Notice) or to a selected group of countries (Wanted
Person Diffusion). In similar cases, the government
has issued a Diffusion Notice when the case remains
under seal and a defendant is believed to be located in

139a
a country that will not extradite the defendant (for
example, because the defendant is a citizen of that
country), and a Red Notice when the defendant is in a
country more likely to extradite him or her and/or
when the case has been charged publicly. In some
cases, the Department may hold off on immediately
issuing an INTERPOL notice after indictment while
other avenues for securing the defendant’s presence
are pursued (for example, where the government has
issued a travel alert and is notified that the defendant
has a planned trip to or through the United States). In
addition, the Department considers whether to request
extradition from the country where the defendant is
located based, in part, on the relationship between the
United States and that country, whether an extradition treaty exists between the United States and that
country, and the country’s policies on extradition (if
any) that are applicable to the offenses and circumstances of the case and to the defendant in question.
Please let us know if you have any questions.
Sincerely,
/s/ John-Alex Romano
John-Alex Romano
Nikhila Raj
Trial Attorneys
cc: David Gerger (by email)
Enclosure (by email)

140a
Date of
Communication

7-May-09

7-May-09

Title of
Communication

Description of
Communication

Wanted
Person
Diffusion

Wanted person diffusion
notice for Samir Rafic
Khoury sent from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury

Wanted
Person
Diffusion

Wanted person diffusion
notice for Samir Rafic
Khoury sent from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury

Response
from Foreign
10-May-09
Interpol
Counterpart

Message from Foreign
Interpol Counterpart
regarding records about
Samir Rafic Khoury in
response to requests by
U.S. authorities to
apprehend Khoury

Response
from Foreign
20-May-09
Interpol
Counterpart

Message from Foreign
Interpol Counterpart
regarding records about
Samir Rafic Khoury in
response to requests by
U.S. authorities to
apprehend Khoury

141a

10-Mar-15

10-Mar-15

10-Mar-15

Wanted
Person
Diffusion

Wanted person diffusion
notice for Samir Rafic
Khoury sent from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury

Wanted
Person
Diffusion

Wanted person diffusion
notice for Samir Rafic
Khoury from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury

Wanted
Person
Diffusion

Wanted person diffusion
notice for Samir Rafic
Khoury from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury
Image of Samir Rafic
Khoury circulated with
Interpol notices

Wanted
Person
Diffusion
10-Mar-15
uploaded to
INTERPOL
systems

Wanted person diffusion
notice for Samir Rafic
Khoury sent from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury

142a

10-Mar-15

Wanted
Person
Diffusion

Wanted person diffusion
notice for Samir Rafic
Khoury sent from Interpol
Washington to 12 Foreign
Interpol Counterparts in
connection with attempts
to apprehend Khoury

Message from Foreign
Interpol Counterpart
Response
requesting information
from Foreign about Samir Rafic Khoury
17-Mar-15
Interpol
in response to requests
Counterpart
by U.S. authorities to
apprehend Khoury

11-Jan-19

Wanted
Person
Diffusion

Wanted
Person
12-Jan-19
Diffusion
Cancellation

Message from Interpol
Washington to 12 Foreign
Interpol Counterparts in
response to requests by
U.S. authorities to
apprehend Khoury
Message from Interpol
Washington to 12 Foreign
Interpol Counterparts
regarding prior notice
by U.S. authorities to
apprehend Khoury

Notice for Samir Rafic
Khoury requested by United
States in connection with
14-Jan-19 Red Notice
attempts to apprehend
Khoury
14-Jan-19 Red Notice

Notice for Samir Rafic
Khoury requested by United

143a
States in connection with
attempts to apprehend
Khoury
Image of Samir Rafic
Khoury circulated with
Interpol notices
Message from Foreign
Interpol Counterpart to
Response
Interpol Washington
from Foreign
requesting
information
17-Jan-19
Interpol
in response to requests by
Counterpart
U.S. authorities to
apprehend Khoury
Message from Foreign
Interpol Counterpart to
Response
Interpol Washington
from Foreign
requesting information
7-Mar-19
Interpol
in response to requests by
Counterpart
U.S. authorities to
apprehend Khoury
Message from Interpol
Washington to Foreign
Response to
Interpol Counterpart
Foreign
15-Mar-19
Interpol regarding case in connection
Counterpart with attempts to apprehend
Khoury
Message from Foreign
Interpol
Counterpart to
Response
Interpol Washington
from Foreign
3-Apr-19
Interpol regarding case in connection
Counterpart with attempts to apprehend
Khoury

144a
APPENDIX O
Charles S. Leeper
DrinkerBiddle&Reath LLP
1500 K Street, N.W.
Washington, DC 20005-1209
202-842-8800 phone
202-842-8877 direct
202-842-8465 fax
charlesleeper@dbr.com
www.drinkerbiddle.com
October 22, 2014
BY ELECTRONIC MAIL
Patrick F. Stokes
Deputy Chief, Fraud Section
Criminal Division
U.S. Department of Justice
1400 New York Avenue, N.W.
Washington, D.C. 20005
Re: Samir Khoury
Dear Mr. Stokes:
Thank you for meeting today with my colleague Lee
Roach and me in regard to our client, Samir Khoury.
We discussed a variety of matters pertaining to Mr.
Khoury, both during today’s meeting and when I called
you on October 6, but I will refer to only two of those
matters in this letter.
First, I asked you to confirm that the Department of
Justice (“DOJ”) investigation which led to criminal
charges being filed in U.S. District Court for the
Southern District of Texas against Jack Stanley, Jeffrey
Tesler, Wojciech Chodan, Kellogg Brown & Root LLC,
and certain other companies, had been closed in regard

145a
to Mr. Khoury. You advised us that you are unable to
provide an affirmative response to this request.
Second, in view of your response to my first inquiry,
I asked you whether: (1) the DOJ had obtained an
indictment against Mr. Khoury, or otherwise charged
him with criminal offenses; (2) there is a U.S. warrant
outstanding for Mr. Khoury’s arrest; (3) any notices
had been issued by Interpol in respect to Mr. Khoury;
and (4) the DOJ had made any requests of the authorities in Lebanon regarding Mr. Khoury since my last
contact with the DOJ on his behalf in November 2008.
You advised us that you are unable to respond to any
of these enumerated inquiries.
We appreciate your consideration in permitting us
to confirm these matters by way of this letter.
Very truly yours,
/s/ Charles Leeper
Charles S. Leeper
CSL
cc: Samir Khoury

146a
APPENDIX P
FILED UNDER SEAL
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed January 12, 2015]
————
Case No: 14-mc-2884
————
UNITED STATES OF AMERICA
vs.
SAMIR KHOURY
————
GOVERNMENT’S RESPONSE TO MOTION
BY SAMIR KHOURY TO DISMISS INDICTMENT
The United States of America, by and through undersigned counsel, respectfully submits this response to
the motion by Samir Khoury to dismiss any indictment
as time-barred or, alternatively, for a violation of his
right to a speedy trial (hereinafter, “MTD”). Mr. Khoury,
a citizen and resident of Lebanon, surmises an indictment has been returned against him under seal, has
not been arrested, and has not submitted to the jurisdiction of this Court. Yet he seeks to invoke this
Court’s jurisdiction to determine whether such an indictment exists and, if so, to have it dismissed. In support
thereof, Mr. Khoury files through counsel his lengthy
MTD that fails to cite a single case to support his
request for this extraordinary exercise of the Court’s
jurisdiction. The government respectfully submits

147a
that Mr. Khoury’s MTD should be denied because he
is not properly before the Court.
I. Background
As Mr. Khoury acknowledges in his MTD, he was
born and grew up in Lebanon, became a naturalized
U.S. citizen while in graduate school in Ohio, raised a
family in Ohio for approximately 13 years during
which time Mr. Khoury frequently traveled overseas
for his employment, and has been a resident of Lebanon
since 2004. MTD at 5-6. Mr. Khoury, who was a former
employee of The M.W. Kellogg Company (“Kellogg”)
based in Houston, admits he was the subject of a criminal investigation by the U.S. Department of Justice
into, among other things, a kickback scheme with
Albert Jackson Stanley, a former high-level executive
officer of Kellogg and its successor company, Kellogg,
Brown & Root, Inc. (“KBR”). Id. After Mr. Khoury left
his position at Kellogg in 1988, he set up a consulting
company and obtained lucrative consulting contracts
with Kellogg and KBR through the assistance of Mr.
Stanley. Mr. Khoury received payments under these
consulting contracts of more than $48 million, and in
return he caused payments to be made to Mr. Stanley
of more than $10 million. As Mr. Khoury states in his
MTD, Mr. Stanley pleaded guilty to charges related to
foreign bribery and the kickback scheme that, he
believes, relates to his dealings with Mr. Stanley. Id.
at 5. Mr. Khoury also acknowledges that he engaged
in disposition discussions with the government in or
about 2007. Id. at 6. No plea agreement was reached.
Mr. Khoury also acknowledges that he returned to
Lebanon after meeting with U.S. prosecutors in 2006,
and he has not returned to the United States since
then. Id. at 6-7. Despite knowing of the plea agreement
with Mr. Stanley since 2009, Mr. Khoury through

148a
counsel next reached out to the government to discuss
his criminal status in October 2014 because of
“obstacles . . . in the conduct of his financial affairs in
Lebanon” that he believes stemmed from contacts by
the U.S. authorities with the Lebanese government in
2006. Id. at 7 n.5. Presumably, the “obstacles” relate
at least in part to the suspect consulting funds he
received from Kellogg and KBR.
Lebanon does not have an extradition treaty with
the United States.
II. Argument
Mr. Khoury “suspect[s]” an indictment has been
returned against him under seal. While beyond the
reach of this Court in Lebanon, he has filed through
counsel his MTD, in part, to ascertain whether a
suspected indictment in fact exists and if so, to have it
dismissed. While fashioned as a motion to dismiss “the
indictment” as time-barred or as a violation of his
speedy trial rights, he fails to address the threshold
obstacles he must surmount: without legal authority
or support, he seeks to have the Court exercise its
jurisdiction to disclose or have the government disclose the existence or non-existence of an under seal
indictment, and if one exists, to have it dismissed
without himself having to appear before the Court or
submit to its authority. The government respectfully
requests that the Court deny Mr. Khoury’s extraordinary motion for lack of standing.1
1

The United States does not acknowledge the existence or
non-existence of a sealed indictment charging Mr. Khoury with
any crimes. It takes this position because an individual lacks
legal authority to require the government to confirm the existence or non-existence of under seal charges against him. While
the government disagrees with Mr. Khoury’s analysis of the

149a
Pursuant to Rule 6(e)(4) of the Federal Rules of
Criminal Procedure, a court has discretionary authority to order that an indictment be kept under seal
“until the defendant is in custody or has been released
pending trial.” The rule continues that “no person may
disclose the indictment’s existence except as necessary
to issue or execute a warrant or summons.”2 Despite
this rule that Mr. Khoury seemingly ignores, he points
to no other rule or case to support the proposition that
a court or the government must confirm the existence
or non-existence of an under seal indictment. The
government is not aware of any such authority.
Requiring the government to disclose the existence or
non-existence of an under seal indictment against an
individual would undermine the legitimate authority
of courts to place indictments under seal and would
imperil the legitimate law enforcement purposes of
seeking a sealing order in certain circumstances.
Even assuming arguendo the existence of an under
seal indictment, Mr. Khoury again fails to point to
legal authority supporting his motion to dismiss such
indictment without his having appeared before the
Court or submitted to its authority. Mr. Khoury does
not address whether or how the principles underlying
the “fugitive disentitlement doctrine” and its exceptions, see, e.g., Bagwell v. Dretke, 376 F.3d 408 (5th
substantive legal issues in his MTD, and in some instances the
interpretation or applicability of cases he cites, the government
does not address herein those substantive legal points because
the issues are not properly before the Court.
2

A court may limit the period of time for sealing an indictment, see, e.g., United States v. Upton, 339 F.Supp.2d (D.Mass.
2004), and a court maintains supervisory authority over an order
to seal an indictment and may periodically review the need to
maintain an indictment under seal

150a
Cir. 2004), might apply to his particular circumstances, and for good reason. The doctrine applies to
“fugitives” where charges are known or publicly filed.
The doctrine does not supply a basis for discovery of
whether charges exist.
Here, Mr. Khoury skips these threshold jurisdictional issues and instead jumps straight to substantive issues that are generally, if at all, addressed after
a defendant has appeared before a court on public
charges. Mr. Khoury cites numerous cases that establish that a court may dismiss an under seal indictment
as time-barred or for violating a defendant’s right to a
speedy trial under certain circumstances. See, generally, MTD at 7-29. The cases he relies upon involved
instances where an indictment had been unsealed and
defendants had appeared before a U.S. district court.3
None of the cases cited by Mr. Khoury addresses, let
alone supports, his request that the Court exercise
jurisdiction over his MTD so that he can discover
whether an under seal indictment exists and, while
located in Lebanon beyond the Court’s reach, seek to
have any such indictment dismissed.
Mr. Khoury has failed to identify any basis for
invoking the exercise of this Court’s jurisdiction at this
time. Should an indictment exist and should it be
unsealed, Mr. Khoury may seek to test his jurisdictional and substantive legal theories at that time.
3

In one case cited by Mr. Khoury, United States v. Sherwood,
38 F.R.D. 14, 16 (D.Conn. 1964), it appears that two of four
defendants had been living overseas at the time the indictment
was unsealed, and the opinion does not address whether they
subsequently appeared before the court in order to move to
dismiss the indictment. Because the court does not address jurisdiction, the government assumes the two overseas defendants
made an appearance before the district court.

151a
Therefore, the United States respectfully requests
that the Court deny Mr. Khoury’s MTD.
Respectfully submitted,
WILLIAM J. STELLMACH
Acting Chief, Fraud Section
Criminal Division
United States Department of Justice
BY: /s/ Patrick Stokes
PATRICK F. STOKES
Deputy Chief
Criminal Division, Fraud Section
United States Department of Justice
1400 New York Avenue, N.W.
Washington, D.C. 20005
Tel: (202) 305-4232
Fax: (202) 514-7021
Email: Patrick.Stokes2@usdoj.gov
————
CERTIFICATE OF SERVICE
This is to certify that a copy of United States’
Response to Motion by Samir Khoury to Dismiss
Indictment has been furnished to counsel of record by
first-class and electronic mail.
By: /s/ Patrick F. Stokes
Patrick F. Stokes Deputy Chief

152a
APPENDIX Q
[1] UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
————
14-MC-2884
————
UNITED STATES OF AMERICA
vs.
SAMIR KHOURY
————
Houston, Texas
February 4, 2015
10:28 a.m.
————
MISCELLANEOUS CONFERENCE HEARING
————
BEFORE THE HONORABLE KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE
————
APPEARANCES:
FOR THE GOVERNMENT:
PATRICK STOKES
U.S. DEPARTMENT OF JUSTICE
1400 New York Avenue NW
Bond Bldg., Room 3428
Washington, D.C. 20005
202.305.4232

153a
FOR THE DEFENDANT:
CHARLES S. LEEPER
DRINKER, BIDDLE & REATH, LLP
1500 K. Street, NW, Suite 1100
Washington, D.C. 20005-1209
202.842.8800
SAMY KHALIL AND DAVID GERGER
QUINN, EMANUEL, URQUHART & SULLIVAN
1001 Fannin, Suite 1950
Houston, Texas 77002
713.224.4400
[2] Court Reporter:
Johnny C. Sanchez, RPR, RMR, CRR
515 Rusk, #8004
Houston, Texas 77002
713.250.5581
Proceedings recorded by mechanical stenography.
Transcript produced by computer-assisted transcription.
[3] THE COURT: Good morning and welcome. We
are — I know time is of concern. We’ll try to be efficient. I know you’ve been through it with Mr. Sanchez,
but let’s do it again. Appearances of counsel, beginning
with the government, please.
MR. STOKES: Good morning, Your Honor. Patrick
Stokes on behalf of the United States.
THE COURT: Thank you.
MR. STOKES: Nice to see you.
MR. LEEPER: Good morning. Charles Leeper on
behalf of Samir Khoury.
THE COURT: Okay. On the first issue, I think with
all respect due him, I do think I need to vacate Judge

154a
Hughes’ order. Does anybody want to speak in
opposition to that? Please, go ahead.
MR. STOKES: Judge, for clarification, Judge Hughes’
order to unseal or to provide — I’m sorry — to provide
defense counsel a copy of the indictment.
THE COURT: Yes. I’m willing to entertain argument on that.
MR. STOKES: And, Your Honor, it may make some
sense, there are some cases, I think, that are directly
on point in this issue that were not flushed out in the
briefing. I’m happy to go either before Mr. Leeper or
after, but I think there is strong support that was not
[4] brought to the Court’s attention for the nature of
the type of hearing today.
THE COURT: Well, it’s your motion. So you should
go first. And if you’re in doubt — I’m sorry, Mr. Leeper.
MR. LEEPER: That’s okay.
MR. STOKES: I thought it might be helpful to lay a
little bit more context, as the Court is already aware
of this. But certainly as we laid out, we don’t believe
that the defense motion has addressed threshold
issues in particular whether or not the defense should
be made aware of whether or not there’s an indictment
in the matter in this filed matter, and whether or not
if so it should be shared with him.
And we do believe that, to the extent there are going
to be discussions about that issue, that this is an
ex parte matter, whether or not an indictment exists,
and whether or not it should be unsealed is an ex parte
matter for the Court, certainly, to inquire the government at whatever appropriate point the Court would
like?

155a
There’s a line of cases that the defense cited at U.S.
v. Sharpe, a Fifth Circuit case 1993, that didn’t raise
this proposition in the case.
THE COURT: Spell the case names for the [5]
reporter.
MR. STOKES: Absolutely. It’s Sharpe with an “E” at
the end, S-H-A-R-P-E. And that is 995 F2d 49. And the
case, I’ll just cut to the quick on it, points out that in
addressing issues related to the sealing of an indictment, the timing of the unsealing statute of limitations issue, the Court points out that the government
only needs to address these issues at a hearing after
the indictment is unsealed.
There’s a whole line of cases to that effect. And that,
certainly, I believe strongly supports the point that the
government raised in its motion for reconsideration, as
well as in its response of sorts to the defense motion,
recognizing that we did not engage on the substantive
issues they raised. That we found ourselves in the
position where the defense has skipped threshold
issues. There is case law —
THE COURT: What is the best support, in your
view, for the order that Judge Hughes entered requiring the government to provide a copy of the sealed
indictment to somebody who may be innocent?
MR. STOKES: Your Honor, we don’t think there is
any support for it.
THE COURT: I didn’t think so either.
MR. STOKES: And, in fact, I think the case [6] that
I just cited, there’s other cases I can mention that are
not from the Fifth Circuit, but Srulowitz from the
Second Circuit. I’ll spell that. S-R-U-L-O-W-I-T-Z, 819
F2d 37. Shell from the Ninth Circuit. S-H-E-L-L, 961

156a
F2d 138. There are a number of cases that make the
similar point that issues about sealing in an indictment are addressed after an indictment is unsealed.
There’s — they don’t directly deal with the issue that
I laid before the Court in my motion, which is that
there’s no — we don’t believe there’s any support for
the defense to file a motion without knowledge of
whether or not there’s an indictment to force the
government to disclose whether or not there’s an
indictment. And this is an important point of principle
for us.
So I do want to address just one point the defense
raised, which is this is not a cat and mouse game for
the government.
THE COURT: Isn’t this covered by Rule 6(e)(4)?
MR. STOKES: Yes, we believe it is.
THE COURT: Do we need to get past that?
MR. STOKES: I don’t believe we do, Your Honor.
THE COURT: Go ahead to your other point.
MR. STOKES: I’m sorry, Your Honor?
THE COURT: You said you had another point you
wanted to make?
[7] MR. STOKES: Just on, I just wanted to give that
context. I thought it would be helpful in addressing
Judge Hughes’ order, to the extent the Court wishes to
hear about other aspects of the defense motion.
THE COURT: Let’s hear from Mr. Leeper, and then
if there’s need to hear from you further, we’ll give you
enough time.
MR. STOKES: Thank you, Your Honor.
THE COURT: Thank you, everybody, for being here.

157a
MR. LEEPER: Your Honor, thank you very much for
permitting me to appear pro hac vice. It’s a privilege,
and I appreciate it. Which would you like me to
address first, Your Honor? I actually think that the
issues are intertwined.
THE COURT: I think they are. Let’s talk about
Judge Hughes’ order first.
MR. LEEPER: Okay. Our position that the indictment must be dismissed in this case is grounded in
three basic premises, all which have we believe have
been validated by the record before the Court. And the
first of those premises is that an indictment tolls the
running of the statute of limitations only when one of
the grounds recognized by courts construing Rule
6(e)(4), existed at [8] the time of the indictment and
continued for the duration of the sealing.
And a corollary to that premise is that it’s the government’s burden to prove that the sealing was and
remained necessary. The Sharpe case, which we cited,
the government did not, provided, “The government
must explain and support the legitimacy of its reasons
for sealing.” The Court then added, “The ability to toll
the statute of limitations by sealing an indictment is
not unlimited.” That’s at 95 F2d, at Pages 52 and 51,
Note 5.
Here, we have a situation where the government
refuses to explain its reasons for the sealing and
claims that the indictment may nevertheless remain
sealed for an unlimited period of time. That position is
flatly contrary to Sharpe, the language I just quoted
from Sharpe, as well as the nine cases that we cited at
table — at the table at Page 10 of our motion.
Our motion to dismiss showed that none of the
traditional grounds recognized under 6(e)(4) for seal-

158a
ing existed in this case at the time of sealing, much
less for the ensuing six years. That’s the state of the
record. For example, there was no need to seal this
indictment in 2009 because of a need to protect the
identity of an informant. There was no need to seal the
indictment because of a need to keep the investigation
[9] secret. As Your Honor well knows, it was a very
highly publicized investigation. There was no need to
seal the indictment to locate the defendant. The
government knew exactly where the defendant was.
They knew I represented him, they knew how to reach
him. And it certainly didn’t need to be sealed to prevent the defendant fleeing from the United States.
The government knew that Mr. Khoury had been
living in the Middle East since 2003, that he’s been
living in Beirut since 2004, was in Beirut in 2009, and
that he had not traveled to the United States. So the
Department of Justice had no reason to believe in 2009
that Mr. Khoury might be caught unawares at the
border.
But then going on, Your Honor, after the initial
sealing in 2009, as time passed, and Mr. Khoury did
not travel, the government it was on notice that Mr.
Khoury would not be available outside of Lebanon to
be arrested. A mere hope that Mr. Khoury might travel
to the United States is clearly insufficient to justify
sealing as you approach the one-year anniversary of
the sealing because that’s when the prejudice in this
case, as the law stands in this Circuit, becomes presumptively prejudicial.
Stated another way, when whatever explanation the
government may have given to the Magistrate Judge
in 2009 about the need for sealing, the passage of [10]
time with no indication of travel by Mr. Khoury proved

159a
that whatever validity that reason may have had in
2009 was no longer present, no longer existed.
Table 10 — table — the table we have at Page 10 of
our brief lists nine cases where sealing periods ranging
from two months to 21 months were found to be
unreasonably long, ineffective to toll the statute of
limitations, and the indictments were dismissed in
those cases.
THE COURT: This is after it was sealed — after it
was unsealed; right?
MR. LEEPER: Well, that’s true, Your Honor, but I
don’t mean to be or sound trite, and this may be
unavoidable if I call it a chicken and an egg situation.
THE COURT: It is. I see the circularity of it, yes.
MR. LEEPER: But the government’s position, this
much we know, the government’s position that it can
keep this indictment sealed for an unlimited time is
flatly inconsistent with the Sharpe decision by the
Fifth Circuit.
The cases we’ve cited at the table at Page 10 support
our position, that where the government fails to prove
the legitimacy of the seal at the time they’re challenged — and we’re challenging them now — and
where they know where the defendant is and how to
contact [11] him, their decision to keep that indictment
under seal has consequences.
THE COURT: Okay.
MR. LEEPER: Could I be heard on the speedy trial
point, quickly, Your Honor?
THE COURT: Yes, certainly.
MR. LEEPER: The second basic premise we’ve
proven is that sealing does not suspend the running of

160a
the limitations clock, which of course starts when the
indictment is returned, whether or not sealing was
proper. We don’t need to get into a discussion on the
speedy trial issue about whether the sealing was
proper or remained proper, because the speedy trial
clock continued to tick for all six years that we believe
this indictment has been under seal. That is the
holding in both Bergfeld, B-E-R-G-F-E-L-D, a decision
of the Fifth Circuit, and Heshelman, H-E-S-H-E-L-MA-N, a decision of the Sixth Circuit.
It follows, then, that where the government has the
ability to notify the defendant and chooses not to do so,
dismissal of the indictment is required as the delay
becomes presumptively prejudicial.
Heshelman and Mendoza, a Ninth Circuit case that
we cited on Page 24 of our motion, are very much on
point. Both cases involve defendants who were indicted
[12] while residing overseas, and the government
knew how to reach those defendants but chose not to
do so. Instead of notifying those defendants, they
decided to do what the government did here, which is
to play wait and see.
And in both of those cases, the government — excuse
me — the Court dismissed the indictment on speedy
trial grounds. And the Mendoza language is particularly informative. The Mendoza court said, “The government was required to make some effort to notify
Mendoza of the indictment, or otherwise continue to
actively attempt to bring him to trial, or else risk that
Mendoza would remain abroad while the constitutional
speedy trial clock ticked.” The very same reason —
THE COURT: You make some very good arguments,
Mr. Leeper. You really do. What’s the best authority
for what Judge Hughes did? What’s the best authority

161a
for requiring the government to unseal the indictment,
if there is one?
MR. LEEPER: Sure. Rule 6(e) and all the cases that
construe it. For example, one of the decisions that we
cited in our opening brief, the Sherwood decision, said
that 6(e)(4), “Is obviously intended to be exercised only
for a reasonable and limited period during which
prompt government action can accomplish its clearly
stated purpose.” That language apples at 38 FRD,
Page 18. [13] If 6(e)(4), Your Honor, were construed as
the government would have you construe it, to permit
unlimited sealing of the indictment, it would render
the statute of limitations meaningless. It would conflict with the law in this Circuit that the speedy trial
clock continues to tick.
THE COURT: I just want to make sure I understand
your argument before agreeing or disagreeing. Your
argument is that Rule 6(e)(4) has a reasonableness
component that’s read into it?
MR. LEEPER: Yes, Your Honor. And we’ve cited all
those cases at the table on Page 10 that so find, and
the government, the government has not cited a single
case that says an indictment can be — can remain
sealed indefinitely.
Your Honor, I look at that motion to reconsider
Judge Hughes’ order that the government filed in
December, and they didn’t provide any grounds for
maintaining the seal. Instead, they said, as Mr. Stokes
said today, it’s important as a matter of principle for
the government to be permitted to play hide the ball,
in so many words, to hide from defendants who inquire
whether or not they’ve been charged. And neither in
the motion for reconsideration, nor in his merits brief,
did he explain why that’s a legitimate principle.

162a
[14] THE COURT: Why — did Judge Hughes — was
Judge Hughes de facto deciding the indictment should
be dismissed?
MR. LEEPER: No. I don’t think Judge Hughes
reached the merits. I think Judge Hughes was simply
deciding that, given the unusual circumstance of this
case, as both laid out in our motion, and as was apparent from the record, which of course Judge Hughes has
access to, you have access to —
THE COURT: Yes.
MR. LEEPER: — Mr. Stokes has access to, but we
don’t, Judge Hughes put that together and said, You
know, after six years in these circumstances where the
government knew in 2009 and continuing throughout
the ensuing six years where Mr. Khoury was, there
couldn’t possibly be any reason existing under 6(e)(4)
to keep the indictment sealed.
THE COURT: But then what if there is an ongoing
investigation and other people might be named —
MR. LEEPER: Yes.
THE COURT: — and unsealing the indictment
might jeopardize their apprehension?
MR. LEEPER: No question about it, Your Honor.
And if in 2009 that were the case, I would have expected
the government to say so. But as Your Honor may
recall, in [15] November — excuse me — September of
2008, Jack Stanley comes in here and stands right
here and pleads guilty. In I think February of 2009,
the government filed an information and KBR came in
here and pled guilty.
THE COURT: I remember all that.

163a
MR. LEEPER: And then, of course, you had fellows
who were indicted under seal, Showdan (phonetic),
and the other fellow whose name escapes me for the
moment. And within months, the government unsealed
those indictments.
So there was no circumstance that existed then, or
that the government has pointed to in its pleadings,
that it was necessary to keep Mr. Khoury’s indictment,
and Mr. Khoury’s indictment alone, under seal, either
to protect the informant or to protect the secrecy of the
investigation, and so on.
I’m not here to quarrel with the ability of the government to ask the Court to seal indictments in appropriate cases. That’s why I think that this “the sky is
falling argument” that the government made in its
pleading, that if Your Honor were to unseal this
indictment, it would impair the ability of the government to obtain seals in other cases, that’s just not so.
Because in other cases, if they can make an appropriate showing that there is an informant who needs to
be [16] protected, or an investigation that needs to be
kept secret, there is plenty of authority that support
the request and the Judge’s action on that request to
seal the indictment.
THE COURT: Okay. Thank you very much. Mr.
Stokes, anything further you want to say?
MR. STOKES: Your Honor, just very briefly. And it’s
to touch on a point I had made, just to make clear. And
I do feel like defense counsel and my arguments are
like ships passing in the night.
THE COURT: I’m afraid that’s right. I’m afraid they
are.

164a
MR. STOKES: But, Your Honor, to go back to the,
what we believe is the threshold issue, I think the
Sharpe case, again, the defense has cited it as a case
directly on point. I think the piece of the quote, that is,
that defense counsel hasn’t been relying on that I
think is certainly directly on point, is that the Court
says, quote, in the context of discussing if there’s an
indictment and the government has to address the
unsealing of that, the Court’s quotes — or states, “The
government only does so, however, at a hearing after
the indictment is unsealed.”
THE COURT: That’s the point that I’m tripping on.
Mr. Leeper makes good sense as a policy matter. I do
[17] think it’s troubling that if there is an indictment,
the defendant — the government has kept it hidden
all these years, I think that’s very troubling. But I
don’t know what my authority is to unseal it. All of his
arguments would apply very fourthly if an indictment
does turn up in this case and I have to rule on it. But
I don’t know how I order — I’ll come back to you. I’ll
come back to you.
MR. STOKES: And, Your Honor, so recognizing
that — that our argument, the government’s argument
is in part a sequencing argument and there’s a threshold issue —
THE COURT: Can you give me an end date?
MR. STOKES: And so, Judge, I think the point that
I made at the outset is to the extent that the Court in
any case has questions about whether an indictment
exists and whether sealing is still appropriate, we
believe those are issues for an ex parte hearing.
Mr. Leeper has stood here and channeled the
government, channeled Judge Hughes. He doesn’t
actually — he’s speaking in terms as if he has concrete

165a
facts. He does not. And so — but the point we are
making is that in this proceeding, in this courtroom,
at this time, on his motion, we don’t think there’s a
basis to go forward.
THE COURT: Now the next move is an ex parte
conversation with you?
[18] MR. STOKES: We believe that’s correct. And
that’s something then that, to the extent the Court
wants and needs information, the government understands that in order for it to rule on what we believe is
just a threshold issue, then we are certainly available
to discuss it with the Court.
THE COURT: I hate ex parte anything, even wiretaps where it’s clearly necessary because the wiretap
would be useless without notice to the other side. I’m
just really uncomfortable. I wouldn’t know enough
about this case to know whether the government’s reasons are persuasive or not, unless I hear from
somebody on the other side. Not that I have any doubt
about your bona fides, but how am I going to know
whether the reasons proffered ex parte are sufficient?
MR. STOKES: Sure. Again, Your Honor, I think
there is sort of — there’s just the preliminary question
as to whether or not the government needs to disclose
anything, and I think the Court having more information would certainly benefit the Court in making
that determination. It may be the Court feels it needs
additional information depending in the case —
THE COURT: Can you tell me anything about what
category of reasons I would hear if we had ex parte
communication? Would it be there are other potential
[19] defendants who haven’t been brought to book, or
we’re about on the lip of dropping the entire investigation, or it would jeopardize being able to apprehend

166a
Mr. Khoury himself? Can you tell me what category of
explanation I would hear?
MR. STOKES: Your Honor, again, we are struggling
at just a basic level whether or not in an open courtroom with defense counsel here, we have to disclose
whether there’s an indictment —
THE COURT: Okay.
MR. STOKES: — and what the reasons are. And,
again, the case law is very clear that the government
does not. And so, we’re not — certainly am not trying
to thwart the Court’s efforts.
THE COURT: No, I understand that. It’s not
personal. I know that. Okay. Thank you very much.
MR. STOKES: Thank you, Your Honor.
THE COURT: Mr. Leeper?
MR. LEEPER: Your Honor, it’s certainly not clear at
all that the government can keep an indictment sealed
indefinitely. Mr. Stokes may say it, but he hasn’t given
you one case that says that.
Sharpe was a case where, it is true, the indictment
had been unsealed, and these arguments about whether
or not sealing was justified were made after the [20]
fact. But the reason that Sharpe doesn’t help Mr. Stokes
at all is that the sealing period in Sharpe was six days.
THE COURT: I understand all that. I do.
MR. LEEPER: And as far as your authority, Your
Honor, you are sort of figuratively scratching your
head saying you weren’t quite sure what your authority was.
THE COURT: I’m not.

167a
MR. LEEPER: The government concedes in their
opposition papers that, pursuant to 6(e)(4) of the
Federal Rules of Criminal Procedure, a Court has
discretionary authority to order that an indictment be
kept under seal. But then in the footnote, they concede
that the government maintain supervisory authority
over an order to seal an indictment, and may
periodically review the need to maintain —
THE COURT: Slowly. And may periodically. . .
MR. LEEPER: Review the need to maintain an indictment under seal. So you have the authority to require
Mr. Stokes to provide a justification.
THE COURT: He’s offering to do that. He’s offering
to do that.
MR. LEEPER: And I, too, am troubled by the ex
parte nature of it, Your Honor, because — and, again,
not with any disrespect to Mr. Stokes.
THE COURT: I know.
[21] MR. LEEPER: And, indeed, I think Mr. Stokes
inherited this situation. So, believe me, I’m not
criticizing Mr. Stokes. But we have knowledge of other
facts that even Mr. Stokes doesn’t. For example, we’re
going to be able to show actual prejudice here, Your
Honor.
You know in the Fifth Circuit, as I said earlier,
there’s no requirement that we show actual prejudice
when all the Barker factors weigh in favor of the
defendant, or the delay exceeds five years. But let me
make this representation to the Court. If Mr. Khoury
stands charged with a Jack Stanley Count 2-like
indictment charging a wire or a mail fraud against
Kellogg KBR, I represent to you that we’re going to be
able to show that no fewer than a dozen KBR execu-

168a
tives and consultants and agents and other people
knowledgeable of these projects, who would have been
available had this case gone to trial in 2009 to testify
and provide exculpatory testimony for Mr. Khoury,
have died in the six-year period that this indictment
has been under seal.
THE COURT: Natural death, I trust?
MR. LEEPER: Yes. Yes. We’re not blaming the
governments for that. No. Natural death. But we can
provide names, we can provide positions. And so, we’re
dealing here with a situation of actual prejudice, even
though prejudice is presumed.
[22] THE COURT: And you don’t doubt that when
the government unseals the indictment, if there is one,
you’ll be able to make all those arguments?
MR. LEEPER: That’s right.
THE COURT: Okay. So the question is unsealing.
Okay. Let me give this further thought. You both made
very good points and I appreciate having such able
counsel before me. You came all the way from New
York?
MR. LEEPER: Washington.
THE COURT: Washington.
MR. LEEPER: Please don’t hold that against me.
THE COURT: You came from?
MR. STOKES: I came from Washington and I do
hold that against him.
THE COURT: All right. I spent very happy part of
my life in D.C.
(Recessed at 10:52 a.m.)

169a
THE COURT: Let’s go back on the record in the last
case. This will confirm the parties’ understandings
that both the government and the defendant will have
access to the transcript of this hearing.
MR. GERGER: Thank you, Your Honor. That’s what
we were going to ask you.
MR. STOKES: Thank you.
[23] THE COURT: Safe travels.
(Recessed at 10:58 a.m.)
————
COURT REPORTER’S CERTIFICATE
I, Johnny C. Sanchez, certify that the foregoing is a
correct transcript from the record of proceedings in the
above-entitled matter.
/s/
Johnny C. Sanchez, CRR, RMR

170a
APPENDIX R
[1] UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
————
4:17-MC-02553
————
UNITED STATES OF AMERICA,
Plaintiff,
vs.
SAMIR KHOURY,
Defendant.
————
Houston, Texas
March 22, 2018
2:06 p.m.
————
TRANSCRIPT OF MOTION HEARING
BEFORE THE HONORABLE KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE
————
APPEARANCES
FOR THE PLAINTIFF:
JOHN-ALEX ROMANO
UNITED STATES DEPARTMENT OF JUSTICE
Trial Attorney, Fraud Section
1400 New York Avenue Northwest
Bond Building
Washington, DC 20530

171a
JOHN P. PEARSON
ASSISTANT UNITED STATES ATTORNEY
1000 Louisiana
Suite 2300
Houston, Texas 77002
[2] FOR THE DEFENDANT:
CHARLES S. LEEPER
DRINKER BIDDLE & REATH
LLP 1500 K Street Northwest
Washington, DC 20005-1209
DAVID GERGER
ASHLEE MCFARLANE
GERGER KHALIL & HENNESSY LLP
First City Tower
1001 Fannin Street
Suite 2450
Houston, Texas 77002
OFFICIAL COURT REPORTER:
Mayra Malone, CSR, RMR, CRR
U.S. Courthouse
515 Rusk Room 8004
Houston, Texas 77002
713-250-5787
Proceedings recorded by mechanical stenography.
Transcript produced by computer-aided transcription.
[3] PROCEEDINGS
THE COURT: Good afternoon and welcome. I know
you have just been through it with Ms. Malone, but for
my benefit, let’s start with appearances of counsel,
beginning with the government.
MR. ROMANO: Good afternoon, Your Honor. JohnAlex Romano from the Criminal Division of the

172a
Department of Justice and at counsel table with me is
Mr. John Pearson.
THE COURT: Welcome. Welcome.
MR. LEEPER: Good afternoon, Your Honor. Charles
Leeper on behalf of Samir Khoury.
MR. GERGER: Good afternoon, Your Honor. David
Gerger with Gerger and Khalil and Ashlee McFarlane
who has just joined our firm.
THE COURT: You made a professional change then.
MR. GERGER: I did.
THE COURT: Welcome to all of you.
Okay. We received a good bit of material from Mr.
Khoury, for which I thank you. We have heard much
less from the government, but it is Mr. Khoury’s
motion, so we will begin with him.
Is there anything you would like to add to what is in
the papers? I am familiar with the papers. You need
not repeat what is in there.
MR. LEEPER: I appreciate that, Your Honor. By the
[4] way, thank you for once again approving my
application to appear before the Court pro hac. I
appreciate the opportunity to appear here again.
THE COURT: Glad to have you.
MR. LEEPER: Your Honor, I believe the logic ladder
that governs the disposition to our motion is pretty
straightforward, and the first step in that logic ladder
is the ascertainment of a critical fact, critical in the
sense that it is determinative of the unsealing prong
of our motion. If it exists, then I respectfully submit
that the Court must grant our motion to unseal, and
that fact is readily available to this Court; the fact is

173a
the date of any sealed indictment that may pending
against Mr. Khoury. The Court should take judicial
notice of facts that in the language of Federal Rule of
Evidence 201 can be, quote, accurately and readily
determined from sources whose accuracy cannot reasonably be questioned. And I certainly believe that the
date stamp on an indictment filed in this Court’s
records readily satisfies that reliability requirement.
For that reason, it is no surprise that the Fifth Circuit
has held in the MacMillan case that a court may take
judicial notice of related proceedings and records in
cases before the same court.
In its opposition papers, the government did not
dispute the impropriety of this Court taking judicial
notice of any sealed indictment. They noted —
[5] THE COURT: Let’s assume that I’m willing to
take notice of that.
MR. LEEPER: Okay. Then the second step in the
ladder is that if the Court ascertains that the
indictment has been pending for longer than one year,
then the Barker inquiry is mandatory, and the Court
must unseal the indictment to conduct that inquiry.
As Your Honor said in the McCoy case — and I’m
now quoting: Once a defendant has made a showing
that the delay experienced has reached the appropriate threshold, which is one year in this circuit, a court
is required to examine the other factors in the test.
In addition to McCoy, we have cited other cases
holding that the Barker analysis is mandatory, including Bergfeld, which is I believe the case Your Honor
relied on in McCoy to reach that conclusion.

174a
THE COURT: You are not persuaded that a challenge of the sealing of indictment is not cognizable
until after the indictment has been unsealed?
MR. LEEPER: Not at all, Your Honor. The sole
authority cited for that proposition is Sharpe. Sharpe
was a case that involved an indictment that was sealed
a mere six days.
THE COURT: Sharpe, for the court reporter, is S-HA-R-P-E.
[6] Yes, sir.
MR. LEEPER: In addition to the fact that the
Barker analysis is mandatory, there are at least three
other compelling reasons why Mr. Khoury is entitled
to unsealing relief now and that the Court should not
defer —
THE COURT: Before we leave Sharpe, it may be just
one authority, but it is Fifth Circuit and it’s on point
and it’s not ancient. How do I get around that?
MR. LEEPER: It’s not on point, Your Honor. The
reason it is not on point is because Sharpe did not
involve our facts. Sharpe involved a case where an
indictment was sealed for six days. When it was
unsealed and the defendants were arrested, the
defendants moved to dismiss on statute of limitations
grounds because the timing was quite important. The
indictment in that case was returned the day before
the statute ran. And the defendant’s argument was
that the sealing was ineffective for the six days,
actually five, because the government had not made a
showing at the time they sought the sealing of why the
sealing was necessary. The government did not make
a record at the time they made application to the magistrate judge for the sealing of their reasons. And so

175a
the Fifth Circuit was holding only that the government does not have to make a record of the reasons for
the sealing at the time they make the application.
That speaks not at all to whether there is an absolute
right on the part of the [7] government to seal an
indictment of an individual whose whereabouts are
exactly known. The identity of his counsel has long
been known to the government indefinitely. In fact,
Sharpe said just the opposite.
THE COURT: The reasoning of Sharpe that first we
unseal, then we challenge the legitimacy of the sealing
has been embraced by at least two other circuits, the
Eighth and the Second.
MR. LEEPER: Neither of those cases, neither
Sharpe or any of the other cases, consider the offsetting impact of the affirmative constitutional obligation
that this Court has. It’s not just held by the government. But as Your Honor said in McCoy, both the government and the Court have an affirmative constitutional obligation to give the defendant an opportunity
to contest the charges in a timely manner.
THE COURT: Mr. Leeper, I’m extremely troubled by
what the government has done. I’m just looking for
some precedent that supports my instinct here. That’s
where I am. And you think it is Barker?
MR. LEEPER: Well, I will give you this. In addition
to the fact that the Barker analysis is mandatory, after
an indictment becomes presumptively stale, presumptively prejudicial, which is at the conclusion of one
year, you have got the affirmative constitutional obligation that Your Honor has to give my client a timely
trial. You have got the fact [8] that the weight of that
obligation increases with the duration of the delay.

176a
And as the delay increases, the degree of prejudice
intensifies.
Take, for example, what Judge Scheindlin said in
the Leaver case, L-E-A-V-E-R, which we cited in page
12 of our reply brief: Given the fact that five years had
already elapsed before the indictment was returned,
the government, therefore, faced a heightened burden
of urgency.
What we have here is such a contrast to that, Your
Honor, because the facts by which this indictment is
likely based, the same facts that underlie the Count
Two of the criminal information to which Jack Stanley
pled guilty occurred as long ago as 1989. So you have
20 years of pre-indictment delay and what may well
be —
THE COURT: 1989?
MR. LEEPER: Yes, sir.
THE COURT: Closer to 30 years.
MR. LEEPER: You add the 10 years of postindictment delay, which I believe Your Honor would
find if you took judicial notice of the records, and you
have got a total of 30 years.
Another reason that the Court has to act now is the
decision last year by the Fifth Circuit in the United
States against Sealed Search Warrants. In that case,
the Fifth Circuit held that it is the duty of district
courts to exercise [9] their discretion to seal court documents charily and when it does so, to make particularized findings of need as to why the sealed judicial
record needs to remain sealed.
Furthermore, it is an abuse of discretion for district
court judges to rely on general assurances or representations from the government that somehow their

177a
investigation is going to be impaired by continued
sealing of the document.
In that case, search warrant affidavits were at issue,
but there is no difference. They are both judicial records. And in both instances, the government comes in
here and tells you and magistrate judges, We need to
keep these things sealed because our investigation is
going to be impaired if we unseal them — or if you
unseal them. That can’t possibly be the case after 30
years.
If they had to make a showing, they couldn’t. And,
of course, as I mentioned earlier, you have the admonition in Sharpe itself that indictments may not be sealed
indefinitely. Ten years is pretty close to indefinitely.
THE COURT: Does any part of your argument
depend on showing that there has been cognizable
prejudice to your client, or is prejudice irrelevant and
we are just looking at time?
MR. LEEPER: It is relevant. Actual prejudice is
relevant to the second basis for our motion to dismiss;
the [10] first basis we have been discussing. It is the
Speedy Trial prong. As Your Honor knows, when the
indictment is older than five years, then prejudice is
presumed. No need for the defendant to show prejudice and the burden shifts to the government to show
that the defendant has not been prejudiced, a mere
insurmountable burden as the Fifth Circuit recognized
just last October in the Whitlock case.
If all the factors, the other Barker factors weigh in
favor of Mr. Khoury, as I believe that they would, that
too requires that prejudice be presumed. For purposes
of my Speedy Trial argument, I’m going to put prejudice aside, but actual prejudice is very relevant to our
statute of limitations argument.

178a
If I may, Your Honor, display a document, a copy of
which I have given government’s counsel prior to this
hearing.
THE COURT: Can you make that any bigger, Art?
MR. LEEPER: Your Honor, would you like a hard
copy? Would that be easier to review?
THE COURT: Do you have one for my law clerk?
MR. LEEPER: I do.
THE COURT: Give it to Mr. Rivera, if you would.
MR. LEEPER: This is an example of the great prejudice that my client has experienced in the time that
this indictment, we believe, has been sealed.
[11] After my inquiry in late 2014 to the prosecutors,
an inquiry that was rebuffed when I contacted them
and asked, What is the status of the investigation,
what is my client’s status, are there any arrest warrants outstanding for my client? None of which the
government counsel would answer.
We began an investigation without subpoena power,
without discovery as best we could. We went out and
interviewed witnesses. We did other investigations
work. In the course of doing that, Your Honor, we
learned that no fewer than a dozen witnesses have
died since early 2009, witnesses who would be able to
speak directly to —
THE COURT: — the facts at issue?
MR. LEEPER: Those being the allegation that Mr.
Khoury was steered, was given consulting contracts by
Jack Stanley, and that Mr. Khoury, along with Jack
Stanley, conspired to deprive KBR of its money and
property by Mr. Khoury being paid lucrative consulting fees to which he otherwise would not be entitled.

179a
As Judge Steinlin said in the Leaver case, Witnesses
are no less likely to die nor their memories to dim
because an indictment has been sealed. And I respectfully submit to Your Honor that this data validates
that.
THE COURT: I will take that point.
MR. LEEPER: So we have here ten former colleagues of Mr. Khoury’s at KBR, or Kellogg, and two
individuals who [12] operate companies that ventured
with KBR in the pursuit of these LNG projects, including projects that were the subject of the Stanley
charge. They all worked closely with Mr. Khoury. They
knew the quality of his work. They knew the process
by which consulting fees — at least KBR/Kellogg folks
knew the process by which the consulting contracts
were awarded and knew that Mr. Khoury was performing his services at a rate that was far below the
market rate.
I would like to mention just a few of these individuals particularly, and I can elaborate if Your Honor
would like me to cover them all. But let’s just look at
the first gentleman here. His name is Robert Taylor.
He was a lawyer in the general counsel’s office working
both in Houston and the United Kingdom. He was
involved in the preparation of the Kellogg proposals
for these LNG contracts, including projects on which
Mr. Khoury rendered his consulting services. He knew
the contractual conditions that were included in those
contracts and he will testify that the conditions on contracts that Mr. Khoury procured for KBR were uniformly more favorable than when other consultants
were representing the company. He assisted the general counsel in the review of the applications for
approval of agents and so was familiar with the multilayer requirement and signoff process and he knew the

180a
customary rates for agents servicing the company on
LNG projects and that Mr. Khoury’s were well below
the market.
[13] Mr. Page, who is the third gentleman listed
here, Former Chief Executive Officer of Kellogg. He
was formerly the Assistant Secretary of the Army and
the Chair of the Panama Canal Commission. He would
have been a character witness for Mr. Khoury in addition to testifying to facts similar to those to which Mr.
Taylor would testify to: the quality of Mr. Khoury’s
work; the process by which consultants were selected,
not one man’s say-so but a committee who all weighed
in; and lastly, the value, the relative value of Mr.
Khoury’s services given, that his fees were below
market.
Mr. Cafiero, C-A-F-I-E-R-O, was a direct supervisor
of Mr. Khoury’s in the 1980s. He too would have been
a character witness for Mr. Khoury, testifying to these
same matters that Mr. Page and Mr. Taylor testified
to.
THE COURT: One indicia of prejudice is unavailability of witnesses who would have been pertinent. I
will take that point.
MR. LEEPER: And as recognized in the Sharpe
case, which we have been discussing — and I quote: A
sealed indictment will not relate back to the time of its
filing for limitation purposes if the defendant can
demonstrate that substantial actual prejudice occurred
between the sealing and the unsealing.
We have cited no fewer than nine cases in our
motion, Your Honor, at page 33 of our motion where
indictments [14] were dismissed on the ground that
the sealing was either unsupported when made or
inappropriately long. And the sealing periods in those

181a
cases ranged from two months to 21 months, compared
to what I expect Your Honor will find when he goes
into the court files and looks at the indictment here, a
seal that has lasted almost a decade.
Two of those cases, Heckler and Rogers — Heckler
is from the Southern District of New York; Rogers is
from the Southern District of Mississippi, I believe —
held that a sealing that lasts more than one year
beyond the expiration of the statute of limitations is
presumptively unreasonable. Applying that rule of law
to this matter, the last overt act alleged in the conspiracy charged in Count Two of the criminal information
to which Mr. Stanley pled guilty occurred in January
of 2004. Absent tolling, that conspiracy, or the statute
of limitations applicable to that conspiracy, would
have expired in January of 2009.
THE COURT: Are you speaking primarily to the
issue of unsealing or primarily to the issue of dismissal
of the indictment?
MR. LEEPER: Well, initially unsealing. The issues
are inextricably intertwined, Your Honor. For example, because the Barker inquiry is mandatory and
because it is necessarily adversarial, it needs to be
unsealed in order for Your Honor to take up those matters. So I’m addressing both of them.
[15] THE COURT: Okay.
MR. LEEPER: I will take any other questions Your
Honor may have about any of the other defenses that
the government has raised, but just to sum up, it’s
undisputed that Your Honor can ascertain facts
through judicial notice, and one way of doing that in
this case is looking at the indictment. If the indictment
has been pending for more than one year, the Barker
analysis is mandatory. That too is undisputed. The

182a
government didn’t challenge that authority. It is textbook law in this circuit. And if the length of the delay
exceeds more than five years, then prejudice —
THE COURT: The delay has unquestionably been a
heartache for your client. I don’t doubt that. The delay
has also meant the unavailability of witnesses and
perhaps the failed memories of other witnesses.
Are there other externalities we need to talk about?
Has it caused reputational damages? Has it been an
obstacle to his free use of his finances? Has it caused
any collateral damage to family?
MR. LEEPER: The reason we made the inquiry of
the prosecutors in 2014 is because he discovered that
he could no longer open a bank account in Lebanon,
that the Lebanese authorities would not permit him to
open up a bank account as a result of inquiries that
had been made of the Lebanese authorities by the U.S.
authorities. His expertise, as we have [16] explained,
is in the liquid natural gas industry.
THE COURT: Has it restricted his ability to travel?
R. LEEPER: He hasn’t had a need to travel because
he can’t get employed.
THE COURT: He can’t?
MR. LEEPER: Cannot get employed. Because, as we
have demonstrated in our pleadings, when the government seared him in September of 2008 when they took
the Stanley plea by identifying him publicly as an
unindicted coconspirator, the entire LNG industry
knew who the government was talking about because
there is only one human being on the face of this
earth —
THE COURT: — who fit all the metrics.

183a
MR. LEEPER: I want to mention two things, Your
Honor, that have happened since the last time we were
in here. One is that last year the Fifth Circuit, in the
Doe case — of course, Doe is Mr. Khoury.
THE COURT: Doe is D-O-E.
MR. LEEPER: In that case, the Fifth Circuit found
that the prosecutors in the Stanley proceeding had
improperly identified Mr. Khoury as an unindicted
coconspirator without affording him immediately an
opportunity to test those charges. The government has
called that finding dicta. I leave it to you whether the
following sounds like dicta, and I will use Mr. Khoury’s
name in lieu of the name Doe.
[17] In accusing Khoury of a crime without providing a public forum in which Khoury could seek to vindicate his rights, whether with a hearing, a trial, a
criminal proceeding in which Khoury could defend the
serious charges against him, the government failed to
act and failed to provide relief or remedy to Doe — to
Khoury. It accused Khoury of a crime without indicting him, without introducing evidence to prove the
allegations and without allowing Khoury to challenge
that evidence and present evidence of his own.
And so by doing what it did in 2008, Your Honor, our
view is that the government forfeited any right it may
ever have had to indict Mr. Khoury under seal.
Because the moment that they identified him publicly
as an unindicted coconspirator, as the Fifth Circuit
recognized in Doe, an obligation arose immediately for
the government to afford Mr. Khoury an opportunity
to contest those charges. To then turn around and
three or six months later and indict him under seal is
entirely inconsistent with the satisfaction of that
obligation.

184a
THE COURT: Okay. Thank you very much.
MR. LEEPER: Thank you.
THE COURT: Has the weather gotten better in DC?
MR. ROMANO: I think it is better today, Your
Honor. It wasn’t so good yesterday.
Likewise, I would like to thank the Court for [18]
giving me an opportunity to appear before you today.
THE COURT: Pleased to have you with us.
MR. ROMANO: Your Honor, Mr. Khoury seeks the
same relief that he sought three years ago, that is, to
unseal and dismiss an indictment, an alleged indictment that he does not know to exist. But nothing has
changed since this Court denied the motion.
THE COURT: Is there no time limit? I mean, if he is
back here in 10 years making the same arguments, are
your arguments going to be the same?
MR. ROMANO: Your Honor, they would be largely
the same, and that is that the first threshold inquiry
is that under Rule 64, that precludes a defendant and
his counsel from learning about the existence of any
under-seal indictment. To the extent any indictment
may exist against Mr. Khoury, the appropriate time
for him to challenge the sealing of that indictment is
after the indictment is unsealed. That’s clear from the
Sharpe decision as well the decision that Sharpe cites
in footnote 10, the decisions from other circuits,
including the Lakin decision.
THE COURT: Are we to give no weight at all to the
personal trauma that Mr. Khoury has suffered and
continues to suffer? Is that for naught under the Sixth
Amendment?

185a
MR. ROMANO: Your Honor, I think the Sixth
Amendment inquiry, like the sealing inquiry, comes
into play after any [19] indictment is unsealed because
there would be a —
THE COURT: The Speedy Trial right, among its justifications, was precisely those that have been argued
by Mr. Leeper: that evidence is attenuated over time,
witnesses disappear, it is harder to put on the case you
would have put on with a prompt process. I don’t really
see a difference between the considerations as to prejudice under a post-unsealing indictment — postunsealing scenario versus a pre-unsealing scenario.
We still have dead witnesses. We still have witnesses
that are no longer employed by the same company. We
still have probably disappearance of records.
MR. ROMANO: A couple responses, if I may, Your
Honor. First, of course, the government would be entitled to challenge the representations of Mr. Khoury
and his counsel about whether or not he has been prejudiced by — including by what those witnesses —
THE COURT: We can do that here.
MR. ROMANO: Understood. But there is also a
wrinkle on the facts of this case that I think Mr.
Leeper respectfully glossed over, which is that Mr.
Khoury is not in the United States. Let’s assume for
the sake of argument that there exists an indictment
against Mr. Khoury. Let’s assume for the sake of argument that that indictment were to get unsealed. Then
there is a question of whether or not Mr. Khoury is
going to come to the United States and subject himself
to the [20] jurisdiction of this Court and litigate his
Speedy Trial claim. Because if he doesn’t, if he remains
outside the jurisdiction of the United States, then he
is a fugitive, and certainly the government would ask

186a
the Court as a threshold matter to consider the Speedy
Trial Act issue — I’m sorry — the Speedy Trial issue.
The government would ask the Court to invoke the
fugitive disentitlement doctrine.
I say this not because the Court needs to resolve the
fugitive disentitlement doctrine, but just as an example of why the argument Mr. Leeper is making, the
Speedy Trial arguments are premature.
THE COURT: But he did not leave the footprints of
a fugitive. He is desperate for his day in court. He
wants to remove this cloud on his good name. He
wants again to be employable and again to be able to
open bank accounts.
MR. ROMANO: Your Honor, it is not clear. Those
are representations that counsel has made, that the
fact that he is not employed can be tied to these
statements that the government made in 2008. I
would note —
THE COURT: I’m not going to roll over just because
a lawyer has made that representation, but we can
have an evidentiary hearing and consider those
matters.
MR. ROMANO: Understood, Your Honor. And we
would say that one issue to be considered if the Court
were to go down that road, assuming an indictment
exists and we are conducting [21] this hearing on that
assumption, that it is under seal, one issue the Court
would — the government would ask the Court to consider would be if Mr. Khoury stays outside the United
States would be the fugitive disentitlement doctrine.
I will say this: The government is willing to answer
any questions the Court has about the existence of any

187a
indictment, about the reasons for continued sealing of
an indictment ex parte. I know the Court does not —
THE COURT: Let’s talk about the reasons. By any
normal measurement this is a very long time to keep
an indictment under seal. Is fact gathering still going
on?
MR. ROMANO: Your Honor, I want to be helpful to
the Court. The nature of the Court’s questioning in
this area when we are talking about whether or not an
indictment exists, whether or not any sealed indictment should continue to remain sealed, those are
questions and inquiries that, by definition, are done ex
parte.
THE COURT: You said you were willing to talk
about them. You mean you are willing to talk about
them ex parte?
MR. ROMANO: Exactly, Your Honor.
THE COURT: I do not like ex parte hearings.
Can you give me an estimate of when this indictment, whether it names Mr. Khoury or not, when this
indictment will be unsealed?
MR. ROMANO: Your Honor, in this forum, I cannot.
And [22] I do apologize. The government does want to
be helpful to the Court.
THE COURT: I know you are operating under a
rubric that has not been created by you. I know that.
MR. ROMANO: If I may just address the Doe decision by the Fifth Circuit that Mr. Leeper raised.
THE COURT: Yes, sir.
MR. ROMANO: Two things on that. First, even if
you agree with Mr. Khoury’s reading of the Doe deci-

188a
sion, which is that the Fifth Circuit found improper
conduct by the government by inappropriately referencing Mr. Khoury and all but named him during the
Jack Stanley proceedings, that doesn’t change the
rules in a criminal case governing when the sealing of
an indictment can be challenged.
Also, I would disagree with their reading of Doe. If
you look at what the Fifth Circuit was deciding in that
case, the two parts of the Fifth Circuit’s decision, one
addressed whether or not the civil suit filed by Mr.
Khoury was barred by the doctrine of sovereign
immunity. The other was whether or not the civil suit
was timely. Those are two sort of threshold procedural
questions that deal with issues before the Fifth Circuit. And the Fifth Circuit assumed for the purposes of
its analysis the truth of the allegations in the civil
complaint. I think that is clear from looking at the particular language in the Doe decision. For example, if
the [23] Court were to look at page 798, this is 853 F.
3d 798, before it conducts the inquiry into sovereign
immunity, which says, Because the government has
been sued, subject matter jurisdiction is at issue and
we must resolve that issue —
THE COURT: You are going too fast. Subject matter
is at issue?
MR. ROMANO: — must resolve that issue prior to
addressing the merits of any claims. So it wasn’t getting into the merits. Likewise, on page 800, before it
addresses whether the suit was time barred, the Court
reviews the standard that is applicable to the motion
to dismiss. And it says, To survive a motion to dismiss
a complaint must contain sufficient factual matter
accepted as true to state a claim for relief that is plausible on its face. Again, if the Court turns to page 802,
the Fifth Circuit is again referring to the question of

189a
whether the suit is time barred. Doe’s claim that the
Fifth Amendment was violated when government
charges were made with no opportunity to defend
accrued when the government purportedly accused
him of criminal activity.
THE COURT: Read the quote again. You were going
too fast.
MR. ROMANO: This is on page 802. Doe’s claim that
the Fifth Amendment was violated when government
charges were made with no opportunity to defend
accrued when the government purportedly accused
him of criminal activity without indicting [24] him. All
of this is just to say, Your Honor, that the Fifth
Circuit’s analysis is conducted on the assumption that
the allegations in the complaint were true. The Fifth
Circuit did not have to reach the merits question of
whether the government had improperly named Mr.
Khoury. So we think that Mr. Khoury’s reliance on the
Doe decision is misplaced. It does not support the
weight that he places on it.
He likewise cited another intervening decision of the
Fifth Circuit, United States versus Sealed Search
Warrants. But the circumstances of that case were
completely different from the case before Your Honor.
That case involved whether or not probable cause affidavits which were sealed — whether those should
remain sealed, and those affidavits supported search
warrants that had already been executed. That case
did not involve the sealing of an alleged indictment. So
Rule 64 did not come into play. The rules governing
when a defendant may challenge the sealing of an
indictment was not an issue. Sealed Search Warrants
does not help Mr. Khoury nor does — I’m sorry. Do you
have a question?

190a
THE COURT: I know you are not ready to concede
that the indictment does unmistakably identify Mr.
Khoury, but let’s assume a set of facts where the
identity were clear. Would that change the case?
MR. ROMANO: I don’t think so. And, again, on the
assumption that his identity were clear doesn’t go to
whether [25] or not an indictment exists, which is a
separate question.
THE COURT: Is this entirely a Sixth Amendment
question, you think, or is there a due produces right
implicated? Somebody who is kept under — who
endures this long-running stain on his reputation
without any forum to litigate about it, surely that is
not consistent with the Fourteenth Amendment, is it?
MR. ROMANO: Your Honor, Mr. Khoury hasn’t
invoked due process. There may be at the margins
some due process concerns. I just don’t know. But
nothing that — Mr. Leeper said that his client had no
need to travel, so nothing precludes, for example, as
far as I understand the case to be, Mr. Khoury from
traveling. So these are representations that opposing
counsel has made about the effect, the alleged effects
on Mr. Khoury’s representation, but they are just that.
They are just arguments that are being made.
THE COURT: Well, I understand that these are
arguments being made, but the issue is not whether I
accept those without more. The issue is whether we
convene an evidentiary hearing where we can resolve
that issue in typical adversarial fashion.
Mr. Khoury doesn’t look just to Rule 6 of the Federal
Rules of Criminal Procedure. Mr. Khoury says — not
just to the Sixth Amendment. Rule 6 he says — he
quotes: The Court may authorize disclosure at a time
and in a manner and [26] subject to any other

191a
conditions that it directs of a grand jury matter
preliminarily to or in connection with a judicial
proceeding.
Does that provide me the necessary authority to
unseal the indictment?
MR. ROMANO: I’m sorry. Your Honor was reading
Rule 6?
THE COURT: Part of Rule 6.
MR. ROMANO: Your Honor, I don’t think the
government has disputed that ultimately a court may
review —
THE COURT: Is this ex parte too? Or could I do it
publicly, authorize disclosure of a grand jury matter
preliminarily to or in connection with a judicial
proceeding?
MR. ROMANO: Certainly the government would
ask the Court, if the Court were to entertain the
unsealing of any alleged indictment that may exist —
the government would ask the Court for the opportunity to make a proffer as part of why the continued
sealing that an indictment may exist is warranted.
THE COURT: In other cases where the government
— excuse me — the Court seems to take in something
of a proprietary interest in a sealed record or a sealed
indictment is United States versus Lalibrte. That’s LA-L-I-B-R-T-E. The district court refused to seal an
indictment without a detailed factual basis and
requested prosecutors file an affidavit. [27 In United
States versus Gigante, G-I-G-A-N-T-E, the government sought the sealing of indictment to toll the
statute of limitation period rather than because the
defendant was a flight risk. The Court found there was
no basis for sealing the indictment.

192a
In United States versus Shelton, the government —
the Court held the government should closely monitor
the case and make determinations on a continuing
basis of whether sealing the indictment and accompanying documents is helping or hindering the arrest of
the defendant.
Then we have this Ohio case, United States versus
Deisernia, D-E-I-S-E-R-N-I-A. The defendant brought
up a motion to unseal indictment after learning that
an investigation that he was the subject of was underway. The judge reasoned that because of the, quote,
rare circumstances, unquote, where the defendant,
quote, has knowledge of the indictment in some capacity, there is no continuing purpose for the indictment
to remain sealed and a seal does not prevent him from
avoiding arrest.
That is our case, isn’t it?
MR. ROMANO: I don’t think so, Your Honor.
Certainly in the Deisernia case — I may be mispronouncing it — the case out of the Northern District of
Ohio proves our point. Because in that case, Your
Honor read a portion of the order where the district
court emphasized in unsealing the indictment the rare
[28] and unique circumstances of that case. And those
rare and unique circumstances was that the defendant
had learned about the existence of the indictment from
an extradition filing that the government had made in
another case. And the defendant somehow even knew
the case number for the sealed indictment in that case.
So there was no reason to continue the sealing of the
indictment in Deisernia. That’s not what you have
here. The government has never confirmed or denied
the existence of any indictment against Mr. Khoury.

193a
I think the Gigante case is likewise distinguishable.
I have it in my notes here. In that case, the district
court concluded that there was no need to maintain
secrecy because the defendant was aware of the investigation and that one of the reasons why the government had wanted sealing in that case was they needed
time to bring additional charges, and the Court said
that’s not a legitimate reason for sealing. And, again,
that’s not the case here where the government has neither confirmed or denied the existence of any
indictment.
So I think the facts of those cases are distinguishable and I would indulge the Court to take that into
account.
THE COURT: Okay. Anything further?
MR. ROMANO: Nothing further, Your Honor.
Thank you. MR. PEARSON: Your Honor, may I have
a moment to [29] confer?
THE COURT: Yes. And I will give you another chance,
Mr. Leeper, and then we will take a break.
(Pause)
MR. PEARSON: Judge, I’m not counsel of record in
this case. I’m here on behalf of the United States. And
with the Court’s permission, I would just add one point
from the U.S. Attorney’s Office’s perspective on these
issues.
THE COURT: Yes, sir.
MR. PEARSON: And that is without confirming or
denying the existence of the indictment, I wanted to
remind the Court of what I think the Court already
knows, which is, if this Court were to unseal any
indictment, and certainly to dismiss any indictment,
that — I don’t know what the opposite of deterrence is

194a
— the incentivization for defendants with means to go
to jurisdictions from which the government cannot
extradite them — I don’t know if Mr. Leeper has said
it or not, but the understanding that I think we have
is that he is in Lebanon.
THE COURT: I think that’s conceded. Yeah.
MR. PEARSON: I don’t know if that is argued or not,
but that is my understanding.
THE COURT: How does that bear on this argument?
MR. PEARSON: Well, just in that the reason behind
this — I’m a big why person and I want the Court to
understand [30] not just that the government is standing on its position based on: This is what the rule says
and you have to follow the rules. And the Court is asking good questions about where are we going to be if
this happens in the future.
THE COURT: Where does the fact that he has a
Lebanese residence fit into this?
MR. PEARSON: It is my understanding that
Lebanon will not extradite its citizens back to the
United States. And so if this Court were to grant all of
the relief that I understand the defendant is seeking,
it would create an incentive and it would be a precedent for other defendants with means. And as this
Court is aware from its time here and down on the
southern border, those precedents get around. And I
am concerned about the deterrent effect of that if this
Court were to set that kind of precedent.
THE COURT: Mr. Khoury came to United States
voluntarily to meet with prosecutors in 2006.
MR. PEARSON: That’s correct, Your Honor. That
was in 2006.

195a
THE COURT: Okay. Thank you very much.
Anything more before we take a break, Mr. Leeper?
MR. LEEPER: Yes, Your Honor, very briefly. The
government’s counsel says what I’m trying to do is
learn about the existence of an indictment and that
somehow the Deisernia case is distinguishable
because the defendant in that case [31] somehow had
gotten a case number that he thought was a sealed
indictment. We are not here to learn about the existence of the indictment. We don’t want anything from
the government. We are asking the Court to simply
exercise the exclusive control that it has over its records and to unseal those records, unseal that indictment. First, take judicial notice, which the government counsel doesn’t contest and then unseal them for
the reasons that we articulated. We are not here
conducting some lateral skirmish to find out whether
or not an indictment exists. We want our day in court.
Secondly, on the Doe case —
THE COURT: On which case?
MR. LEEPER: Doe. The government’s counsel says
the Fifth Circuit just assumed the accuracy of the facts
alleged. Just what is government counsel representing
to this Court? Is the government representing that in
the Stanley criminal information, the LNG consultant
referred to there was someone other than Samir
Khoury?
THE COURT: I think they are not going to say one
way or the other.
MR. LEEPER: I can’t imagine he would make that
argument inasmuch as from the government’s filings
in connection with the sentencing of Jack Stanley, in

196a
its in-camera allocution memo, I expect Your Honor
knows that the LNG consultant is Samir Khoury.
[32] THE COURT: Okay. I understand your point.
MR. LEEPER: On the idea that somehow Mr.
Khoury is a fugitive because he is in Lebanon, he
didn’t go to Lebanon because there is no extradition
treaty there. He was born in Lebanon. And as Chief
Judge Rosenthal has said recently, in this circuit, the
fugitive disentitlement doctrine is discretionary, sparingly invoked and rarely applied. That’s what he said
in the O’Donnell case that he decided last year.
And lastly, Your Honor, Mr. Pearson in what I will
call his floodgates arguments, there will be a floodgate
of motions like this one. Like all floodgate arguments,
it’s inherently speculative, and the government has
provided this Court with no information that would
allow the Court to conclude that it’s a realistic threat
here. But let me just say — let’s analyze the government’s logic. How many individuals out there, U.S.
citizens living overseas have been indicted under seal?
How many of those indictments charge offenses based
on decades-old allegations? How many of those indictments of individuals whose whereabouts and the identity of U.S. counsel are clearly known to the prosecutors? How many of those indictments did the government publicly accuse the defendant of being a criminal
before the indictment was returned and unsealed? I
would respectfully suggest none.
THE COURT: Okay. I understand your point. We
will have a break. It will be at least 15 minutes.
[33] (Court recessed at 2:52 p.m.)
(Court resumed at 3:10 p.m.)

197a
THE COURT: I want to make sure I have understood all sides’ arguments. You began, Mr. Leeper, by
saying two things have changed since the last time we
were here. I’m not sure I got both things. Can you help
me? Remind me.
MR. LEEPER: Actually three things.
THE COURT: Three things.
MR. LEEPER: The two that I had in mind were the
Doe decision where the Fifth Circuit made its finding
that we have been talking about. The second thing is
three more years have passed. And you might recall,
Your Honor, in the hearing in February of 2015, you
asked Mr. Stokes, What’s the end date? And it’s been
three years and we still have no end date.
And then the third thing that’s changed, Your
Honor, is that unlike our motion in 2015 where in a
sealed proceeding we asked Your Honor to unseal the
indictment and make it available to the defendant, we
are in an open proceeding now. We are seeking different relief. We are asking that the indictment be
unsealed for all purposes. So those are the three
differences.
THE COURT: I’m going to take this under advisement. I suspect I will write on it. Does anybody wish
to say anything before we adjourn?
MR. LEEPER: One last thing, Your Honor. You
asked [34] government counsel if 10 years from now
Mr. Khoury comes back here, will we be making the
same arguments relying on Sharpe and saying that
the government doesn’t have to disclose the indictment? Ten years from now, one year from now, Mr.
Khoury may be dead.

198a
THE COURT: I may be too. I know that. We are all
mortal. I know that.
MR. LEEPER: Just like these witnesses.
Thank you, Your Honor.
MR. ROMANO: Very briefly, Your Honor. Nothing
else on the sealing point.
I would just reiterate one point that we made, which
is that the sealing and the dismissal issues are not
inexplicably intertwined and that we do believe there
is a threshold question before the Court should undertake any Speedy Trial analysis.
THE COURT: Okay. Thank you very much.
MR. ROMANO: Thank you.
(Court adjourned at 3:12 p.m.)
[35] * * * * *
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
cause.
Date: March 23, 2018
/s/ Mayra Malone
Mayra Malone, CSR, RMR, CRR
Official Court Reporter

199a
APPENDIX S
UNDER SEAL
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed July 2, 2018]
————
Case No. 4:17-mc-02553
[Related to Case No. 4:08-cr-763]
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAMIR KHOURY,
Defendant.
————
EX PARTE NOTICE OF GOVERNMENT’S
WITHDRAWL OF OPPOSITION TO
UNSEALING THE INDICTMENT
The United States of America, by and through
undersigned counsel, hereby notifies the Court that it
is withdrawing its previous opposition to the unsealing of the indictment and arrest warrant in United
States v. Samir Khoury, No. 4:08-cr-763.1 In support of
this Notice, counsel state the following:
1. Before the Court are the Motion of Samir Khoury
to Unseal and Dismiss the Indictment for Violation of
His Right to a Speedy Trial or as Time-Barred, Doc.
1

Because the indictment and arrest warrant remain sealed at
this time, the Government is filing this Notice ex parte.

200a
No. 4-2; the Government’s response thereto, Doc. No.
13; and Khoury’s reply, Doc. No. 14.
2. On June 11, 2018, the Court issued a Memorandum and Order on Khoury’s motion, addressing several of the Government’s arguments in opposition to
unsealing the indictment and providing the Government with the opportunity to submit for in camera
review “any evidence that [it] wishes to adduce in
opposition to [the] Motion to Unseal.” Doc. No. 22 at 59.
3. The Government appreciates the Court’s invitation to supplement the record with any additional
evidence. Nevertheless, mindful of the issues raised by
the Court in its Memorandum and Order, the Government withdraws its previous opposition to unsealing
the indictment and arrest warrant in United States v.
Samir Khoury, No. 4:08-cr-763.
4. Assuming the Court decides to unseal the
indictment and arrest warrant, Khoury now will have
appropriate “instruction[s] on how he [can] submit to
custody.” Doc. No. 22 at 6. Should the Court believe
there are any remaining issues to litigate before
Khoury appears in Court, the Government respectfully requests the opportunity to brief them.2

2

As the Court noted in its Memorandum and Order, the Government’s original response to Khoury’s motion addressed only
the potential unsealing of the indictment, not his Sixth Amendment and statute of limitations challenges. Doc. No. 22 at 8.
Assuming the Court decides to unseal the indictment and arrest
warrant—thereby providing Khoury with instructions on how to
submit to custody—the Government submits that these challenges are premature until Khoury appears in Court to face
charges. The Government respectfully requests the opportunity
to brief that threshold issue if necessary.

201a
Respectfully submitted,
SANDRA L. MOSER
ACTING CHIEF
/s/
JOHN-ALEX ROMANO
TRIAL ATTORNEY

RYAN K. PATRICK
UNITED STATES
ATTORNEY
/s/
JOHN P. PEARSON
ASSISTANT
U.S. ATTORNEY

Fraud Section,
Criminal Division
U.S. Department of Justice U.S. Attorney’s Office for the
Southern District of Texas
1400 New York Avenue,
NW Washington, DC 20005 1000 Louisiana Street,
Suite 2300
(202) 353-0249
Houston, Texas 77002
(713) 567-9000

June 29, 2018

202a
APPENDIX T
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed August 6, 2018]
————
Case No. 4:08-cr-763
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAMIR KHOURY,
Defendant.
————
GOVERNMENT’S REQUEST TO DENY
DEFENDANT’S MOTION TO DISMISS THE
INDICTMENT
The United States of America, by and through
undersigned counsel, respectfully requests that the
Court deny defendant Samir Khoury’s (“Defendant”)
motion to dismiss the indictment unless and until he
submits fully to this Court’s jurisdiction. The motion
not only raises meritless speedy trial and statute of
limitations challenges, but also represents another
attempt to circumvent the U.S. judicial system by a
fugitive who “is willing to enjoy the benefits of a legal
victory, but is not at all prepared to accept the consequences of an adverse holding.” United States v.
Stanzione, 391 F. Supp. 1201, 1202 (S.D.N.Y. 1975).
Consequently, the fugitive disentitlement doctrine
should be applied in this context to bar consideration
of Defendant’s motion until he appears before this
Court.

203a
BACKGROUND
On November 24, 2008, a grand jury in the Southern
District of Texas returned an indictment charging
Defendant with conspiring to commit mail and wire
fraud, in violation of 18 U.S.C. § 1349; seven counts of
wire fraud, in violation of 18 U.S.C. §§ 1343 and 1346;
and three counts of mail fraud, in violation of 18
U.S.C. §§ 1341 and 1346. Indictment ¶¶ 2-3, 5-7, ECF
No. 1. The indictment alleges that Defendant paid
approximately $11 million in kickbacks to Albert
Jackson Stanley (“Stanley”), the former Chairman and
Chief Executive Officer of the M.W. Kellogg Company
(“Kellogg”) and its successor, Kellogg Brown & Root
(“KBR”), in exchange for providing exorbitant fees to
Defendant’s consulting company on contracts won by
Kellogg or KBR in various countries. Id. The indictment was placed under seal when it was returned.
Defendant is a dual citizen of the United States and
Lebanon who resided in Cleveland, Ohio, with his family from in or about 1988 to February 2004; his
daughters still live in the United States. Indictment ¶
1; Mot. to Unseal and Dismiss the Indictment 2, ECF
No. 11 (“Mot.”)1; Decl. of Christina Smothers in Support
of Gov’t Request (“Decl.”) ¶ 3. Defendant was employed
by Kellogg until 1988 and subsequently became a
consultant to Kellogg, KBR, and other U.S. and international companies. Indictment ¶ 1; Mot. 5. He traveled frequently to and from the United States, but
discontinued all travel to the United States as of
February 2004.2 Decl. ¶ 4. He has since returned only
1

Khoury originally filed his motion in Misc. Action No. 4:17mc-2553 and refiled the motion in this criminal case after the
Court unsealed the indictment.
2

Notably, on March 8, 2004, KBR’s parent company, Halliburton
Company, reported that it and its subsidiaries were being

204a
once to the United States in August 2006 to proffer
information in connection with the Government’s
investigation into Stanley, Kellogg, and KBR. Mot. 6.
Setting aside the content of Defendant’s proffer,
Defendant admits that he was aware as early as
September 2008 that he was implicated as a coconspirator in the case against Stanley. See Mot. 6-8;
Reply to Gov’t Resp. in Opp’n to Mot. to Unseal and
Dismiss Indictment, ECF No. 12 (“Reply”); Mot. to
Unseal and Dismiss the Indictment 6-8, United States
v. [Sealed Case], Misc. No. 4:14-mc-2884 (S.D. Tex.
2014) (“2014 Mot.”); Compl. ¶¶ 13-14, Doe v. United
States, No. 4:15-cv02414 (S.D. Tex.) (“Doe Compl.”). He
further acknowledges that he has closely followed the
Government’s investigation and related prosecutions,
including Stanley’s sentencing in February 2012. Mot.
6-8.
In December 2014, Defendant moved to unseal and
dismiss the indictment he presumed was pending
against him. See 2014 Mot. This Court denied that
motion, ruling that the government was not required
to provide any sealed indictment to Defendant’s counsel. Order, United States v. [Sealed Case], Misc. No.
4:14-mc-2884 (S.D. Tex. Feb. 19, 2015). The Fifth
Circuit dismissed Defendant’s appeal of that ruling on
the Government’s motion.
In December 2015, Defendant filed a civil complaint
against the United States seeking, inter alia, expungeinvestigated by the Department of Justice and the Securities and
Exchange Commission for violations of the Foreign Corrupt
Practices Act, and by the French authorities for improper payments. See Compl. ¶ 10, Doe v. United States, No. 4:15-cv-02414
(S.D. Tex.); Halliburton Form 10-K (March 8, 2004), available at
https://www.sec.gov/Archives/edgar/data/45012/00000450120400
0086/ed10k2003.txt (last viewed Aug. 3, 2018).

205a
ment from court records of certain allegations made in
Stanley’s criminal case, which, Defendant alleged,
pertained to him and identified him in all but name.3
Doe Compl. ¶ 13. The district court dismissed the complaint as time-barred, and the Fifth Circuit affirmed.
Doe v. United States, 853 F.3d 792, 800-801, 804 (5th
Cir. 2017).
On September 29, 2017, Defendant filed a second
motion to unseal and dismiss the indictment he presumed was pending against him. See Mot. As grounds
for dismissal, Defendant argued that his Sixth
Amendment right to a speedy trial had been violated,
and that the statute of limitations was no longer tolled
and had expired, as a result of the length of time the
presumed indictment has been pending. Mot. 18-38.
The government opposed Defendant’s motion on the
ground that a challenge to the sealing of any indictment is not cognizable until after the indictment is
unsealed. See Gov’t Resp. in Opp’n to Mot. to Unseal
and Dismiss Indictment, United States v. Samir Khoury,
Misc. Action No. 4:17-mc-2553 (S.D. Tex. Nov. 27,
2017).
On June 11, 2018, after a hearing on Defendant’s
motion, the Court issued a Memorandum and Order
addressing several of the Government’s arguments in
opposition to unsealing the indictment. Memorandum
& Order, United States v. [Sealed Case], Misc. Action
3

In September 2008, Stanley pleaded guilty to conspiring to
violate the Foreign Corrupt Practices Act, 15 U.S.C. §§ 78dd-1, et
seq., and to mail and wire fraud conspiracy. United States v. Albert
J. Stanley, Crim. No. 4:08-cr-597 (S.D. Tex. Sept. 3, 2008). In
February 2012, this Court sentenced Stanley to 30 months of
imprisonment, to be followed by three years of supervised release,
and ordered that he pay $10.8 million in restitution. Id. (Feb. 23,
2012).

206a
No. 4:17-mc-2553 (S.D. Tex. June 11, 2018) (“Order”).
Among other things, the Court observed established
case law in the Fifth Circuit that “[t]he fugitive disentitlement doctrine limits a criminal defendant’s access
to the judicial system whose authority he evades.” Id.
at 5 (citing Bagwell v. Dretke, 376 F.3d 408, 410 (5th
Cir. 2004)). The Court declined to extend the fugitive
disentitlement doctrine to circumstances where an
indictment remains under seal, noting that Defendant
“ha[d] not absconded from custody, and without a
public indictment, there is no instruction on how he
could submit to custody.”4 Id. at 6.
The Government notified the Court in an ex parte
submission that it was withdrawing its opposition to
unsealing the indictment in light of the issues
addressed by the Court in its Order. Ex Parte Notice of
Gov’t Withdrawal of Opp’n to Unsealing Indictment,
United States v. Samir Khoury, Misc. Action No. 4:17mc-2553 (S.D. Tex. July 2, 2018) (“Gov’t Withdrawal”).
On July 9, 2018, the Court unsealed the arrest warrant and indictment against Defendant. Order, United
States v. Samir Khoury, Misc. Action No. 4:17-MC2553 (S.D. Tex. July 9, 2018).
Since the indictment was unsealed, Defendant has
not come to the United States or represented that he
would appear before this Court. On July 13, 2018,
Defendant filed a motion to set a briefing schedule on
his speedy trial and statute of limitations challenges
to the indictment, which the government opposed as
4

In the Court’s subsequent Order dated July 9, 2018, the
Court noted that its previous Memorandum and Order “addressed
arguments regarding the unsealing of the indictment, but not
arguments regarding the dismissal of the indictment.” Order,
United States v. [Sealed Case], Misc. Action No. 4:17-mc-2553
(S.D. Tex. July 9, 2018).

207a
premature. Mot. to Set Briefing Schedule (S.D. Tex.
July 2, 2018); see Gov’t Withdrawal 2, n.2 (noting the
Government’s position that the challenges “are premature until Defendant appears in Court to face
charges”). On July 18, 2018, the Court ordered briefing
solely on the Government’s request that the Court
invoke the fugitive disentitlement doctrine to deny
Defendant’s attacks on the indictment until he
submits to the Court’s jurisdiction.
ARGUMENT
I. The Fugitive Disentitlement Doctrine Applies
to Defendant’s Motion to Dismiss.
The fugitive disentitlement doctrine arises from a
court’s inherent power to protect its proceedings by
preventing criminal defendants “from obtaining a
favorable ruling while escaping unfavorable results or
impending proceedings.” O’Donnell v. Harris Cty, 227
F. Supp. 3d 706, 727 (S.D. Tex. 2016); see also Bagwell,
376 F.3d at 410-411. Consequently, the Fifth Circuit
has repeatedly found that the fugitive disentitlement
doctrine bars defendants and other litigants from
seeking one-sided relief. See, e.g., Giri v. Keisler, 507
F.3d 833, 836 (5th Cir. 2007) (“Someone who cannot be
bound by a loss has warped the outcome in a way
prejudicial to the other side; the best solution is to
dismiss the proceeding.” (internal quotations and citation omitted)); United States v. All Funds on Deposit
at Sun Secured Advantage, 864 F.3d 374, 378-81 (5th
Cir. 2017); United States v. 2005 Pilatus Aircraft, 838
F.3d 662, 663-65 (5th Cir. 2016), cert. denied, 137 S.
Ct. 2128 (2017); Bright v. Holder, 649 F.3d 397, 399400 (5th Cir. 2011); United States v. Ibanex-Martinez,
288 Fed. Appx. 213, 214 (5th Cir. 2008); AlMomani v.
Mukasey, 257 Fed. Appx. 746, 747 (5th Cir. 2007); see
also United States v. Oliveri, 190 F. Supp. 2d 933 (S.D.

208a
Tex. 2001); United States v. All Monies, No. 4:93-cv336, 1996 U.S. Dist. LEXIS 20639 (E.D. Tex. Jan. 25,
1996); United States v. All Funds on Deposit at Old
Mut. Of Berm., No. 2:13-cv-294, 2014 U.S. Dist. LEXIS
115208 (S.D. Tex. June 5, 2014); O’Donnell, 227 F.
Supp. 3d at 727; Bell v. United States, No. 4:16- CV1056-O, 2017 U.S. Dist. LEXIS 147861 (N.D. Tex.
Sept. 12, 2017).
While the doctrine is often applied to immigration,
appellate, and civil forfeiture proceedings, it has also
been applied in the criminal pretrial context, including
to deny fugitives’ motions to dismiss indictments. See
Oliveri, 190 F. Supp. 2d at 936 (recognizing that doctrine “also applies to pretrial motions made by fugitives in district court”); Stanzione, 391 F. Supp. at
1202 (denying the defendant’s motion to dismiss
indictment based on fugitive disentitlement); United
States v. Kashamu, 656 F. Supp. 2d 863, 867 (N.D. Ill.
2009) (holding “that fugitive disentitlement doctrine
can apply to pretrial motions in criminal cases, subject
to the discretion of the Court”); United States v. Bakri,
No. 3:00-CR-76-TAV-CCA-2, 2014 U.S. Dist. LEXIS
59708, at *5-6 (E.D. Tenn. Apr. 30, 2014) (utilizing
fugitive disentitlement to deny motion to dismiss
indictment); United States v. Bokhari, 993 F. Supp. 2d
936, 938 (E.D. Wis. 2014) (“Courts have applied the
doctrine, as here, to pretrial motions in criminal
cases.”); United States v. Chung Cheng Yeh, No. CR10-00231-WHA, 2013 U.S. Dist. LEXIS 69284, at *2, 8
(N.D. Cal. May 15, 2013) (denying the defendant’s
motion to dismiss based on fugitive disentitlement,
and finding that “[i]t would be a waste of resources to
adjudicate advisory opinions at [the defendant’s]
behest”). Accordingly, the Court should invoke the doc-

209a
trine here and decline to consider Defendant’s motion
to dismiss.5
Defendant satisfies the fugitive disentitlement
doctrine’s two-part inquiry. The doctrine first requires
a showing that the defendant is a fugitive. Defendant
falls squarely within the definition of an individual
attempting to evade this Court’s authority:
Courts define the term “fugitive” as someone
who seeks to evade prosecution by either
actively avoiding the authorities, or remaining in a geographic location that is out of the
authorities’ reach. The intent to flee from
prosecution or arrest may be inferred from a
person’s failure to surrender to authorities
once he learns that charges against him are
pending. This is true whether the defendant
leaves the jurisdiction intending to avoid prosecution, or, having learned of the charges while
legally outside the jurisdiction, “constructively
flees” by deciding not to return.
Kashamu, 656 F. Supp. 2d at 867 (internal quotation
marks and citation omitted). The fact that a defendant
is outside the United States when indicted does not
preclude finding that he is a fugitive. Bokhari, 993 F.
5

To the extent Khoury argues that this Court has already
decided not to apply the fugitive disentitlement doctrine (see
Order 5-6), the Court’s analysis of the doctrine was limited to the
context of a sealed indictment. Circumstances have changed–the
indictment is now unsealed and, knowing to whom and how he
should submit, Khoury still has not come to the United States.
Additionally, the Court previously lacked information regarding
Khoury’s knowledge of the potential charges and his preindictment actions, both of which confirm that Khoury was and
remains a fugitive and should be disentitled from employing the
Court’s resources to his advantage.

210a
Supp. 2d at 938. “Fleeing from justice is not always a
physical act; it may be a state of mind.” Id. (quoting
United States v. Eng, 951 F.2d 461, 464-465 (2d Cir.
1991)). Therefore, courts consider the circumstances
surrounding a defendant’s knowledge of the charges
and his subsequent actions in designating him a
fugitive. See id.; Bakri, 2014 U.S. Dist. LEXIS 59708,
at *7-8; United States v. Garza, No. 1:02-CR-584-CAPAJB, 2014 U.S. Dist. LEXIS 197521, at *39-40 (N.D.
Ga. Dec. 22, 2014) (finding that defendant had constructive knowledge of the charges in a sealed
indictment and deliberately evaded capture based on
inquiry into defendant’s actions).
The Bakri and Bokhari cases are especially instructive because those defendants and Defendant have
similar backgrounds. In Bakri, the defendant fled the
United States to Jordan after a search warrant was
executed at his business and never returned. Bakri,
2014 U.S. Dist. LEXIS 59708, at *1-2. He was indicted
while abroad and hired local counsel to represent him
in the matter, waiting eleven years to file a motion to
dismiss the indictment on speedy trial grounds. Id. at
*2. In denying that motion on fugitive disentitlement
grounds, the court found the defendant was a fugitive
because he left the United States after becoming
aware of the investigation and potential charges
against him, remained in Jordan after learning about
the indictment, retained local counsel from the time of
indictment, and was unwilling to submit to the court’s
jurisdiction. Id. at *7-8.
The court in Bokhari reached the same result, focusing on, inter alia, the defendant’s “substantial connections to the United States . . . most significant of which
is the fact that he is a United States citizen,” his
commission of the alleged fraud in the United States,

211a
his marriage to and divorce from a United States
citizen, and his failure to surrender when indicted. 993
F. Supp. 2d at 939. The court also emphasized that,
setting aside the fact that Bokhari was
already in Pakistan when he was indicted, it
takes little imagination to deduce that
Bokhari went to Pakistan in an effort to
insulate himself from the possibility of a
criminal prosecution. Bokhari should not be
allowed to set a criminal plan in motion, leave
the country, then attempt to gain a favorable
ruling from the security of a foreign country
once the U.S. government discovers the fraud.
Id.
With these examples, there is no question that
Defendant is a fugitive. Although he has repeatedly
touted his desire for “access to the court as a forum of
vindication” and “the opportunity to confront the
charges against him” (see Mot. 2, 13-14, 20, and 23;
Reply 2), he avoided the question of whether he would
submit to U.S. authorities if the indictment was
unsealed—his continued absence, however, provides a
clear answer.
Most significantly, his prior knowledge and actions
establish that he was a fugitive before the indictment
was unsealed. As in Bakri and Bokhari, Defendant is
a U.S. citizen who resided in Ohio for decades and had
significant familial and business connections here.
Indictment ¶ 1; Mot. 2, 5; Decl. ¶¶ 3-4. He also knew
that the investigation into KBR and Stanley involved
him before he was indicted and left the country just as
the Government’s investigation was made public.
Indictment ¶ 2; Mot. 4-6; Doe Compl. ¶ 10. In fact,
Defendant hired counsel to represent his interests

212a
from 2006 onwards, including at his proffer with the
Government in August 2006. Mot. 6. By his own
admission, Defendant further understood he was
implicated in Stanley’s wire fraud conspiracy as early
as September 2008 when Stanley pleaded guilty
(again, before Defendant was indicted). Mot. 6-8.
Taken together, Defendant appears to have intentionally left, and stayed away from, the United States to
avoid prosecution.
Once the defendant’s fugitive status is established,
the doctrine then requires that courts look to any
special circumstances or policy concerns that would
preclude the fugitive disentitlement doctrine’s application. Despite Defendant’s opinion that he is uniquely
situated when compared to other fugitives (see, e.g.,
Reply 12, 14), nothing about his situation warrants an
exception to disentitlement. See, e.g., United States v.
Noriega, 683 F. Supp. 1373, 1374-1375 (S.D. Fla. 1988)
(defense counsel allowed to appear for defendant
because he was de facto head of a foreign government
and case involved delicate issues of first impression).
Even the amount of time that has passed since
indictment does not make Defendant’s situation
unique. See Bakri, 2014 U.S. Dist. LEXIS 59708, at *1
(approximately 14 years from indictment to denial of
motion to dismiss based on fugitive disentitlement);
Bokhari, 993 F. Supp. 2d at 937 (approximately 10
years with same result and reasoning); Kashamu, 656
F. Supp. 2d at 864, 868 (approximately 11 years with
same result and reasoning).
Because Defendant has been and remains a fugitive,
and because the indictment is now unsealed, the Court
should use its discretion to apply the fugitive
disentitlement doctrine to his motion to dismiss unless
and until he submits to this Court’s jurisdiction.

213a
II. The Principles Underlying the Fugitive Disentitlement Doctrine Weigh Heavily Against
Considering Defendant’s Motion to Dismiss.
“[T]he fugitive disentitlement doctrine has come to
signify the unwillingness of courts to waste time and
resources exercising jurisdiction over litigants who
will only comply with favorable rulings of the court.”
Oliveri, 190 F. Supp. 2d at 935. The considerations
underlying whether to limit a fugitive’s access to the
judicial system include: (1) being unable to enforce the
court’s judgment or ruling; (2) the risk of delay or
frustration in determining the merits of the claim; (3)
affording relief to a defendant who has abandoned or
waived his right to that relief; (4) deterring other
defendants from fleeing; and (5) the impact on the
process and efficiency of the courts. Bagwell, 376 F.3d
at 411; see also Degen v. United States, 517 U.S. 820,
825-828 (1996). In reviewing these considerations in
Oliveri, the court held that ruling on the defendant’s
motion to dismiss the indictment would be ineffectual
because he could remain outside the jurisdiction, but
“if the court were to dismiss the indictment against
Oliveri, he would obtain a significant benefit from this
court at no risk to him.” Oliveri, 190 F. Supp. 2d at
936; see also Stanzione, 391 F. Supp. at 1202 (using
the same reasons as Oliveri to deny the fugitive
defendant’s motion to dismiss).
Similar considerations apply here. Defendant lived
for decades in the United States and then, at the time
the Government’s investigation was made public, fled
to Lebanon. Mot. 5-6; Doe Compl. ¶ 10. He then
stopped traveling to the United States despite having
children and strong business ties here. Decl. ¶¶ 3-4.
Because Defendant remains outside the United States
and is not extraditable from Lebanon, the Court will

214a
not be able to enforce its ruling if it denies his motion
to dismiss. That will also result in judicial inefficiencies, as the Court will have spent valuable resources
in hearing and ruling upon the motion of a defendant
unwilling to submit to its jurisdiction. Moreover, the
Government will be placed at a disadvantage by being
forced to litigate a motion with no upside if it prevails.
Defendant, on the other hand, could obtain a potential
victory despite his deliberate evasion of the court’s
jurisdiction, a result that will embolden future
defendants to employ similar tactics when they are
facing prosecution.6
The inequity in considering Defendant’s motion to
dismiss is underscored by the fact that Defendant is
responsible for the lengthy delay in this matter
whereas the Government has, among other things,
acted diligently in seeking his apprehension.7 See
Barker v. Wingo, 407 U.S. 514, 530 (1972) (factors
relevant to speedy trial analysis include “length of
delay, the reason for the delay, the defendant’s assertion of his right, and prejudice to the defendant”);
compare United States v. Hijazi, 589 F. 3d 401 (7th
Cir. 2009) (granting writ of mandamus and ordering
district court to rule on motion to dismiss because,
inter alia, Hijazi was not considered a fugitive as he
had surrendered to Kuwaiti authorities, Kuwait
refused to produce him and objected to U.S. jurisdiction, and the motion raised threshold legal arguments
6

The impact of such a ruling would be acutely felt in prosecutions involving foreign nationals, including money laundering,
narcotics, terrorism, and espionage cases.
7

The Government reserves the right to request permission to
make an in camera submission regarding its diligence in prosecuting and apprehending Khoury to the extent that evidence of
its efforts might assist Khoury in continuing to evade custody.

215a
regarding extraterritorial application of statutes at
issue); see also United States v. Hijazi, 845 F. Supp. 2d
874, 879-880 (C.D. Ill. 2011) (ultimately denying the
defendant’s motion to dismiss the indictment on jurisdictional and speedy trial grounds, and noting that if
the defendant “truly wants a speedy trial, and desires
his right thereto, he cannot at the same time refuse to
show up for it”).8
Consequently, to preserve fairness and promote
efficiency, the Court should decline to consider the
substance of Defendant’s motion to dismiss unless and
until he fully submits to the Court’s jurisdiction.
CONCLUSION
Based on the foregoing reasons, Defendant’s motion
to dismiss should be denied.
Respectfully submitted,
SANDRA L. MOSER
ACTING CHIEF
/s/
JOHN-ALEX ROMANO
NIKHILA RAJ
TRIAL ATTORNEYS

8

RYAN K. PATRICK
UNITED STATES
ATTORNEY
/s/
JOHN P. PEARSON
ASSISTANT U.S.
ATTORNEY

Khoury posits that the Government has not been diligent in its
efforts to prosecute him, but cites cases that are factually dissimilar. See United States v. Judge, 425 F. Supp. 499 (D. Mass. 1976)
(indictment was not sealed so defendant could have been notified
in some way); United States v. Leaver, 358 F. Supp. 2d 255
(S.D.N.Y. 2004) (defendant was in an extraditable country and
lived openly, and government abandoned attempts to find him);
United States v. Mendoza, 530 F. 3d 758 (9th Cir. 2007) (indictment not sealed and government had contact with defendant’s
family).

216a
Fraud Section,
Criminal Division
U.S. Department of Justice
1400 New York Avenue, NW
Washington, DC 20005
(202) 353-0249

U.S. Attorney’s Office for the
Southern District of Texas
1000 Louisiana Street,
Suite 2300
Houston, Texas 77002
(713) 567-9000

August 6, 2018
————
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
Government’s Request to Deny Defendant’s Motion to
Dismiss the Indictment, and attached Declaration,
was filed and served electronically using the Court’s
CM/ECF system on this 6th day of August, 2018.
/s/ John-Alex Romano
John-Alex Romano

217a
APPENDIX U
U.S. DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
(HOUSTON)
————
Criminal Docket for Case #: 4:08-cr-00763-1
————
USA
v.
Khoury
————
DOCKET ENTRIES
Date Filed
11/24/2008

#

Docket Text
Judge Nancy F Atlas added.
(mmapps, 4)
(Entered: 07/09/2018)

11/24/2008 1 (p.10) INDICTMENT (The original
indictment with the signature
of the grand jury foreperson is
on file under seal with the
clerk) as to Samir Rafic Khoury
(1) count(s) 1, 2-8, 9-11, filed.
(mmapps, 4) (Entered:
07/09/2018)
11/24/2008 2 (p.34) US Attys Criminal Docket
Sheet as to Samir Rafic
Khoury, filed.(mmapps, 4)
(Entered: 07/09/2018)

218a
Date Filed

#

Docket Text

11/24/2008

3
ORDER for Issuance of Arrest
(p.35) Warrant as to Samir Rafic
Khoury ( Signed by Magistrate
Mary Milloy) Parties notified.
(mmapps, 4) (Entered:
07/09/2018)

11/24/2008

4
MOTION to Seal by USA as to
(p.36) Samir Rafic Khoury, filed.
(mmapps, 4) (Entered:
07/09/2018)

11/24/2008

5
ORDER granting 4 (p.36)
(p.38) Motion to Seal as to Samir
Rafic Khoury (1).(Signed by
Magistrate Mary Milloy.)
Parties notified.(mmapps, 4)
(Entered: 07/09/2018)

11/24/2008

6
Notice of Related Case(s):
(p.39) 4:08cr597 and Motion to
Transfer, filed. (mmapps, 4)
(Entered: 07/09/2018)

12/30/2008

7
MOTION to Modify Sealing
(p.41) Order 4 (p.36) MOTION to
Seal filed by USA by USA
as to Samir Rafic Khoury,
filed. (mmapps, 4)
(Entered: 07/09/2018)

01/13/2009

8
ORDER transferring case to
(p.43) Judge Keith Ellison as to Samir
Rafic Khoury ( Signed by

219a
Date Filed

#

Docket Text
Judge Nancy F Atlas) Parties
notified. (mmapps, 4)
(Entered: 07/09/2018)

01/14/2009

9
ORDER granting 7 (p.41)
(p.44) Motion to Modify as to Samir
Rafic Khoury (1).(Signed
by Judge Keith P Ellison.)
Parties notified.(mmapps, 4)
(Entered: 07/09/2018)

07/13/2018

10
MOTION to Set Briefing
(p.45) Schedule by Samir Rafic
Khoury, filed. (Attachments: # 1
(p.10) Proposed Order, # 2
(p.34) Proposed Order)(Leeper,
Charles) (Entered: 07/13/2018)

07/13/2018

11
MOTION to Dismiss Case
(p.52) by Samir Rafic Khoury,
filed. (Leeper, Charles)
(Entered: 07/13/2018)

07/13/2018

12
REPLY TO RESPONSE to
(p.100) Motion by Samir Rafic Khoury
re 11 (p.52) MOTION to
Dismiss Case , filed.(Leeper,
Charles) (Entered: 07/13/2018)

07/16/2018

13
NOTICE OF SETTING as to
(p.124) Samir Rafic Khoury - regarding
10 (p.45) MOTION to Set
Briefing Schedule . Motion
Hearing set for 7/18/2018 at
11:00 AM in Courtroom 3A

220a
Date Filed

#

Docket Text
Houston before Judge Keith P
Ellison, filed. Parties may
appear by phone. (arrivera, 4)
(Entered: 07/16/2018)

07/18/2018

Minute Entry for proceedings
held before Judge Keith P
Ellison: MOTION HEARING as
to Samir Rafic Khoury on
7/18/2018 on Motion to Set
Briefing Schedule (Doc. No 10).
Defendant not present for
hearing. Briefing schedule set
on fugitive disentitlement
arguments. Government must
file on or before 8/1/2018;
Defendant will have ten days
to reply. Appearances: John P.
Pearson, John Alexander
Romano, Charles S. Leeper,
David Gerger.(Court Reporter:
J. Sanchez)(Law Clerk: M.
Rock), filed.(arrivera, 4)
(Entered: 07/18/2018)

07/25/2018

By agreement between the
parties the Court grants the
Government’s request for
extension of time to respond as
to Samir Rafic Khoury:
Deadline for Governments
Submission due by 8/6/2018.
Deadline for Mr. Khourys
Response due by

221a
Date Filed

#

Docket Text
8/21/2018 (arrivera, 4)
(Entered: 07/25/2018)

07/27/2018

14
MOTION for Nikhila Raj to
(p.125) Appear Pro Hac Vice by USA
as to Samir Rafic Khoury,
filed. (amartinez, 2)
(Entered: 07/27/2018)

07/30/2018

15
ORDER granting 14 (p.125)
(p.128) Motion for Nikhila Raj to
Appear Pro Hac Vice as to
Samir Rafic Khoury (1).(Signed
by Judge Keith P Ellison.)
Parties notified.(gkelner, 4)
(Entered: 07/30/2018)

08/06/2018

16
Response to 11 (p.52) MOTION
(p.129) to Dismiss Case by USA as to
Samir Rafic Khoury, filed.
(Attachments: # 1 (p.10)
Affidavit Declaration of
Christina Smothers in Support
of Government’s
Request)(Romano, John)
Modified on 8/6/2018 (arrivera,
4). (Entered: 08/06/2018)

08/06/2018

(Court only) ***Response filed
as a Motion as to Samir Rafic
Khoury re: 16 (p.129) MOTION
Deny motion to dismiss re 11
(p.52) MOTION to Dismiss

222a
Date Filed

#

Docket Text
Case filed by USA. (arrivera, 4)
(Entered: 08/06/2018)

08/20/2018

17
REPLY TO RESPONSE to
(p.147) Motion by Samir Rafic Khoury
re 16 (p.129) MOTION Deny
motion to dismiss re 11 (p.52)
MOTION to Dismiss Case ,
filed. (Attachments: # 1 (p.10)
Exhibit)(Leeper, Charles)
(Entered: 08/20/2018)

10/22/2018

18
NOTICE OF SETTING as to
(p.200) Samir Rafic Khoury. Miscellaneous Hearing set for
11/6/2018 at 02:30 PM at
Courtroom 3A Houston before
Judge Keith P Ellison, filed.
The Court will discuss whether
the fugitive disentitlement
doctrine should be applied, as
suggested by the Government
in their Response (Doc. No. 16
(p.129) ) to Khoury’s Motion to
Dismiss (Doc. No. 11 (p.52) ).
(arrivera, 4) (Entered:
10/22/2018)

10/24/2018

19
NOTICE OF RESETTING as to
(p.201) Samir Rafic Khoury - regarding
18 (p.200) Notice of Setting,.
Miscellaneous Hearing reset for
11/29/2018 at 02:30 PM at
Courtroom 3A Houston before

223a
Date Filed

#

Docket Text
Judge Keith P Ellison,
filed. (arrivera, 4)
(Entered: 10/24/2018)

11/29/2018

Minute Entry for proceedings
held before Judge Keith P
Ellison: MOTION HEARING as
to Samir Rafic Khoury held on
11/29/2018. Argument heard on
the fugitive disentitlement
doctrine. The Court declines to
apply the fugitive disentitlement
doctrine. Defendant not present
for hearing. Defendant has until
12/30/2018 to file a renewed
Motion to Dismiss. Briefing on
the renewed motion will follow
the Court’s typical schedule.
Appearances: John P. Pearson,
David Gerger.(Court Reporter: F.
Warner)(Law Clerk: L. Scaduto),
filed.(arrivera, 4) (Entered:
11/29/2018)

11/29/2018

**Misc hearing held as to Samir
Rafic Khoury. (arrivera, 4)
(Entered: 11/29/2018)

12/10/2018

20
20 MOTION to Unseal
(p.202) Document by Samir Rafic
Khoury, filed. (Attachments: # 1
(p.10) Exhibit, # 2 (p.34)
Proposed Order)(Leeper,
Charles) (Entered: 12/10/2018)

224a
Date Filed
12/11/2018

12/17/2018

#

Docket Text

ORDER granting 20
(p.210) (p.202) Motion to Unseal
Docket entries 4-9 as to Samir
Rafic Khoury (1).(Signed by
Judge Keith P Ellison.)
Parties notified.(arrivera, 4)
(Entered: 12/11/2018)
21

Document unsealed as to
Samir Rafic Khoury. 9 (p.44)
Order on Motion to Modify, 8
(p.43) Order, 4 (p.36) MOTION
to Seal, 5 (p.38) Order on
Motion to Seal, 7 (p.41)
MOTION to Modify 4 (p.36)
MOTION to Seal filed by USA,
6 (p.39) Notice of Related
Criminal Case (arrivera, 4)
(Entered: 12/17/2018)

12/20/2018

22
MOTION to Compel by Samir
(p.211) Rafic Khoury, filed.
(Attachments: # 1 (p.10)
Exhibit, # 2 (p.34) Proposed
Order)(Leeper, Charles)
(Entered: 12/20/2018)

12/20/2018

24
ORDER FOR EXPEDITED
(p.249) BRIEFING as to Samir Rafic
Khoury ; Motion-related
deadline set re: 23 (p.230)
MOTION to Compel Production
of Information Necessary,
22 (p.211) MOTION to Compel

225a
Date Filed

#

Docket Text
Motion Hearing set for
12/28/2018 at 02:30 PM in
Courtroom 3A Houston before
Judge Keith P Ellison.
Responses due by 12/27/2018.
(Signed by Judge
Keith P Ellison) Parties
notified. (arrivera, 4)
(Entered: 12/21/2018)

12/21/2018

23
MOTION to Compel Production
(p.230) of Information Necessary by
Samir Rafic Khoury, filed.
(Attachments: # 1 (p.10) Exhibit
A, # 2 (p.34) Exhibit B, # 3
(p.35) Exhibit C, #4 (p.36)
Exhibit D, # 5 (p.38) Proposed
Order)(Leeper, Charles)
(Entered: 12/21/2018)

12/21/2018

25
NOTICE OF RESETTING as
(p.250) to Samir Rafic Khoury regarding 22 (p.211) MOTION
to Compel , 24 (p.249) Order,
23 (p.230) MOTION to Compel
Production of Information
Necessary. Motion Hearing
reset for 1/10/2019 at 11:00 AM
in Courtroom 3A Houston
before Judge Keith P Ellison,
filed. Response due by 1/7/2019.
(arrivera, 4)
(Entered: 12/21/2018)

226a
Date Filed
12/21/2018

#

Docket Text
Reset Deadlines re Motion or
Report and Recommendation in
case as to Samir Rafic Khoury
23 (p.230) MOTION to Compel
Production of Information
Necessary, 22 (p.211) MOTION
to Compel . Responses due by
1/7/2019. (arrivera, 4) (Entered:
12/21/2018)

12/26/2018

26
NOTICE OF RESETTING as to
(p.251) Samir Rafic Khoury - regarding
22 (p.211)
MOTION to Compel , 23 (p.230)
MOTION to Compel Production
of Information Necessary.
Motion Hearing reset for
1/8/2019 at 03:30 PM in
Courtroom 3A Houston before
Judge Keith P Ellison, filed.
(arrivera, 4) (Entered:
12/26/2018)

01/03/2019

27
Sealed Event, filed.
(p826) (With attachments)
(Entered: 01/03/2019)

01/07/2019

28
RESPONSE to Motion by USA
(p.252) as to Samir Rafic Khoury re 23
(p.230) MOTION to Compel
Production of Information
Necessary , filed. (Attachments:
# 1 (p.10) Exhibit 1, # 2 (p.34)

227a
Date Filed

#

Docket Text
Exhibit 2, # 3 (p.35) Exhibit 3, #
4 (p.36) Exhibit 4)(Romano,
John) (Entered: 01/07/2019)

01/08/2019

29
Sealed Order, filed.
(p.838) (Entered: 01/10/2019)

01/08/2019

Minute Entry for proceedings
held before Judge Keith P
Ellison: MOTION HEARING
as to Samir Rafic Khoury held
on 1/8/2019. Argument heard
on Defendant’s motion to
compel. 23 (p.230) The Court
ORDERS the Government
to submit responsive
documents to the Court ex
parte. Appearances: John
Alexander Romano, Charles S.
Leeper, David Gerger.(Court
Reporter: N. Forrest)(Law
Clerk: L. Scaduto),
filed.(arrivera, 4) (Entered:
01/10/2019)

01/10/2019

(Court only) Document(s) Sent
by regular mail to John
Romano, US Dept of Justice re:
29 (p.838) Sealed Order, filed.
(olindor, 4) (Entered:
01/10/2019)

228a
Date Filed

#

Docket Text

01/15/2019

30
Sealed Event, filed. (With
(p.840) attachments) (Entered:
01/15/2019)

01/16/2019

31
Sealed Order, filed. (Entered:
(p.846) 01/16/2019)

02/06/2019

32
AO 435 TRANSCRIPT ORDER
(p.271) FORM by David Gerger as to
Samir Rafic Khoury for
Transcript of Motion hearing
before Judge Ellison on
January 8, 2019. Daily (24
hours) turnaround requested.
Court Reporter/Transcriber:
Nichole Forrest, filed. (Gerger,
David) (Entered: 02/06/2019)

02/25/2019

34
STATUS REPORT by Samir
(p.277) Rafic Khoury, filed.(Leeper,
Charles) (Entered: 02/25/2019)

02/26/2019

35
STATUS REPORT (Response to
(p.282) Defendant) by USA as to Samir
Rafic Khoury, filed.(Romano,
John) (Entered: 02/26/2019)

03/01/2019

36
MEMORANDUM AND ORDER
(p.287) as to Samir Rafic Khoury (
Signed by Judge Keith P
Ellison) Parties notified.
(arrivera, 4) (Entered:
03/14/2019)

229a
Date Filed

#

Docket Text

04/19/2019

37
Renewed MOTION to Dismiss
(p.289) by Samir Rafic Khoury, filed.
(Attachments: # 1 (p.10) Exhibit
A, # 2 (p.34) Exhibit B, # 3
(p.35) Exhibit C, # 4 (p.36)
Exhibit D, # 5 (p.38) Exhibit
E)(Leeper, Charles) (Entered:
04/19/2019)

05/24/2019

38
RESPONSE in Opposition by
(p.439) USA as to Samir Rafic Khoury
re 37 (p.289) Renewed
MOTION to Dismiss
Indictment, filed. (Attachments:
# 1 (p.10) Exhibit 1, # 2 (p.34)
Exhibit 2)(Romano, John)
(Entered: 05/24/2019)

06/24/2019

39
REPLY TO RESPONSE to
(p.491) Motion by Samir Rafic Khoury
re 37 (p.289) Renewed
MOTION to Dismiss , filed.
(Attachments: # 1 (p.10) Exhibit
Exhibit A)(Leeper, Charles)
(Entered: 06/24/2019)

08/07/2019

40
NOTICE OF SETTING as to
(p.537) Samir Rafic Khoury - regarding
37 (p.289) Renewed MOTION
to Dismiss . Motion Hearing set
for 8/15/2019 at 03:00 PM in
Courtroom 3A Houston before
Judge Keith P Ellison, filed.

230a
Date Filed

#

Docket Text
(arrivera, 4)
(Entered: 08/07/2019)

08/08/2019

08/16/2019

41
NOTICE OF RESETTING as
(p.538) to Samir Rafic Khoury regarding 37 (p.289) Renewed
MOTION to Dismiss . Motion
Hearing reset for 8/16/2019 at
02:30 PM in Courtroom 3A
Houston before Judge Keith P
Ellison, filed. (arrivera, 4)
(Entered: 08/08/2019)
Minute Entry for proceedings
held before Judge Keith P
Ellison: MOTION HEARING as
to Samir Rafic Khoury held on
8/16/2019. Argument heard on
the Defendant’s Renewed
Motion to Dismiss the
Indictment. (Doc. No. 37
(p.289).) The Court ORDERS
the Government to submit
within thirty days the evidence
discussed regarding the
availability of extradition.
Appearances: John Alexander
Romano, Charles S.
Leeper.(Court Reporter: N.
Forrest) (Law Clerk: L.
Scaduto), filed.(arrivera, 4)
(Entered: 08/16/2019)

231a
Date Filed
08/26/2019

08/27/2019

#

Docket Text

42
TRANSCRIPT as to Samir
(p.770) Rafic Khoury re: Motion
Hearing held on 8/16/19 before
Judge Keith P Ellison. Court
Reporter/ Transcriber Nichole
Forrest, CRR, RDR, CRC.
Release of Transcript
Restriction set for 11/25/2019.,
filed. (Nichole Forrest, )
(Entered: 08/26/2019)
43

Notice of Filing of Official
Transcript as to 42 (p.770)
Transcript. Party notified,
filed.(jdav, 4) (Entered:
08/27/2019)

09/16/2019

44
NOTICE of Filing Declaration
(p.539) in Support of Government’s
Opposition to Defendant
Khoury’s Renewed Motion to
Dismiss by USA as to Samir
Rafic Khoury re 38 (p.439)
Response in Opposition, filed.
(Attachments: # 1 (p.10)
Declaration)(Raj, Nikhila)
(Entered: 09/16/2019)

10/14/2019

45
RESPONSE by Samir Rafic
(p.545) Khoury re 44 (p.539) Notice
(Other), , filed. (Attachments: #
1 (p.10) Exhibit A, # 2 (p.34)
Exhibit B, # 3 (p.35) Exhibit C,

232a
Date Filed

#

Docket Text
# 4 (p.36) Exhibit D)(Leeper,
Charles) (Entered: 10/14/2019)

11/05/2019

46
REPLY TO RESPONSE to
(p.649) Motion by USA as to Samir
Rafic Khoury re 37 (p.289)
Renewed MOTION to Dismiss
Reply to Response to Notice 45
(p.545) , filed. (Attachments: # 1
(p.10) Exhibit A, # 2 (p.34)
Exhibit B, # 3 (p.35) Exhibit
C)(Romano, John) (Entered:
11/05/2019)

12/06/2019

47
MEMORANDUM AND ORDER
(p.704) as to Samir Rafic Khoury
denying 37 (p.289) Renewed
MOTION to Dismiss ( Signed
by Judge Keith P Ellison)
Parties notified. (arrivera, 4)
(Entered: 12/06/2019)

12/23/2019

48
MOTION for Additional
(p.717) Separate Challenges Motion for
Rulings on Unaddressed
Constitutional Issues by Samir
Rafic Khoury, filed. (Leeper,
Charles) (Entered: 12/23/2019)

01/16/2020

49
RESPONSE in Opposition by
(p.729) USA as to Samir Rafic Khoury
re 48 (p.717) MOTION for
Additional Separate Challenges
Motion for Rulings on

233a
Date Filed

#

Docket Text
Unaddressed Constitutional
Issues , filed.(Raj, Nikhila)
(Entered: 01/16/2020)

01/23/2020

50
REPLY TO RESPONSE to
(p.739) Motion by Samir Rafic Khoury
re 48 (p.717) MOTION for
Additional Separate Challenges
Motion for Rulings on
Unaddressed Constitutional
Issues , filed.(Leeper, Charles)
(Entered: 01/23/2020)

02/24/2020

51
MEMORANDUM AND ORDER
(p.749) as to Samir Rafic Khoury
denying 48 (p.717) MOTION
for Additional Separate
Challenges Motion for Rulings
on Unaddressed Constitutional
Issues ( Signed by Judge Keith
P Ellison) Parties notified.
(arrivera, 4)
(Entered: 02/24/2020)

02/27/2020

52
Unopposed MOTION for Leave
(p.752) to File Records in Related
Cases by Samir Rafic Khoury,
filed. (Attachments: # 1 (p.10)
Proposed Order)(Leeper,
Charles) (Entered: 02/27/2020)

02/27/2020

53
ORDER Granting 52 (p.752)
(p.760) Unopposed MOTION for Leave
to File Records in Related

234a
Date Filed

#

Docket Text
Cases. Docket 4 Filed in Case
No. 4-17-mc-2553 is Unsealed. (
Signed by Judge Keith P
Ellison) Parties notified.
(jguajardo, 4)
(Entered: 02/28/2020)

03/02/2020

Cases 4:17mc2553 and
4:14mc2884 related to this case
per court order as to Samir
Rafic Khoury:, filed. (dhansen,
4) (Entered: 03/02/2020)

03/03/2020

54
Records to be Incorporated by
(p.825) Reference, per Order 53 (p.760)
as to Samir Rafic Khoury, filed.
(USB flash drive placed in
vault)(MarcelleLaBee, 4)
(Entered: 03/04/2020)

03/09/2020

55
NOTICE OF APPEAL to US
(p.763) Court of Appeals for the Fifth
Circuit by Samir Rafic Khoury
as to Samir Rafic Khoury
(Filing fee $ 505, receipt
number 0541-24359866.),
filed.(Leeper, Charles)
(Entered: 03/09/2020)

03/10/2020

56
Clerks Notice of Filing of an
(p.766) Appeal as to Samir Rafic
Khoury. The following Notice of
Appeal and related motions are
pending in the District Court:

235a
Date Filed

#

Docket Text
55 (p.763) Notice of Appeal Judgment and Sentence. Fee
status: Paid. Reporter(s): J.
Sanchez; F. Warner & N.
Forrest, filed. (dnoriega, 1)
(Entered: 03/10/2020)

03/10/2020

Appeal Review Notes as to
Samir Rafic Khoury re: 55
(p.763) Notice of Appeal ¬
Judgment and Sentence. Fee
status: Paid. The appeal filing
fee has been paid or an ifp
motion has been granted.
Hearings were held in the case.
DKT13 transcript order form(s)
due within 14 days of the filing
of the notice of appeal.
Hearings were held in the case transcripts were produced.
Number of
DKT-13 Forms expected:
3,filed.(dnoriega, 1)
(Entered: 03/10/2020)

03/12/2020

Notice of Assignment of USCA
No. 20-20126 as to Samir Rafic
Khoury re: 55 (p.763) Notice of
Appeal - Judgment and
Sentence,filed.(dnoriega, 1)
(Entered: 03/12/2020)

03/12/2020

(Court only) ***Set/Clear Flags
as to Samir Rafic Khoury.

236a
Date Filed

#

Docket Text
Appeal_Nat flag cleared.
(dnoriega, 1)
(Entered: 03/12/2020)

03/12/2020

(Court only) ***ROA requested
from the Fifth Circuit. Due
3/27/2020.***(PRIVATE
ENTRY), filed. (dnoriega, 1)
(Entered: 03/12/2020)

03/12/2020

57
DKT13 TRANSCRIPT ORDER
(p.767) REQUEST by David Gerger
as to Samir Rafic Khoury.
Transcript is already on
file in Clerks office regarding
Motion Hearing before
Judge Ellison on 11/29/18.
(No transcript is needed). Court
Reporter/Transcriber: Fred
Warner. This order form
relates to the following: Motion
Hearing,,, filed. (Gerger, David)
(Entered: 03/12/2020)

03/12/2020

58
DKT13 TRANSCRIPT ORDER
(p.768) REQUEST by David Gerger as
to Samir Rafic Khoury.
Transcript is unnecessary for
appeal purposes This order
form relates to the following:
55 (p.763) Notice of Appeal Judgment and Sentence,
filed. (Gerger, David)
(Entered: 03/12/2020)

237a
Date Filed
03/12/2020

#

Docket Text

59
DKT13 TRANSCRIPT ORDER
(p.769) REQUEST by David Gerger
as to Samir Rafic Khoury.
Transcript is already on file
in Clerks office regarding
Motion Hearings before Judge
Ellison on 1/8/19 and 8/16/19.
(No transcript is needed).
Court Reporter/Transcriber:
Nichole Forrest. This order
form relates to the following:
Motion Hearing, 55 (p.763)
Notice of Appeal - Judgment
and Sentence, Motion Hearing,,
filed. (Gerger, David)
(Entered: 03/12/2020)

238a
APPENDIX V
[1] UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
————
No. 08 cr 763
————
UNITED STATES OF AMERICA,
vs.

Plaintiff,

SAMIR KHOURY,
Defendant.
————
MOTION HEARING
August 16, 2019
HONORABLE KEITH P. ELLISON,
JUDGE PRESIDING
————
APPEARANCES:
For the Plaintiff:

John Alex Romano, Esq.

For the Defendant: Charles S. Leeper, Esq.
Reported by:

Nichole Forrest, RDR, CRR, CRC
Official Court Reporter
United States District Court
Southern District of Texas
nichole_forrest@txs.uscourts.gov

Proceedings recorded by mechanical stenography.
Transcript produced by Reporter on computer.

239a
[2] PROCEEDINGS
(The following proceedings held in open court.)
————
THE COURT: Good afternoon. Welcome back, everybody. Okay. We know this case well. United States
versus Khoury.
We’ll take appearances, counsel.
MR. ROMANO: John Alex Romano on behalf of the
United States.
THE COURT: Thank you.
MR. LEEPER: Charles Leeper for Mr. Khoury.
THE COURT: Have we discussed how you wish to
proceed today?
MR. LEEPER: We haven’t discussed it, Your Honor,
but it’s my motion.
THE COURT: It’s your motion, for sure. Yeah.
MR. LEEPER: I was going to touch on some highlights in our briefs. But before I do, let me ask: Is there
any particular issue or topic you would like me to
begin with?
THE COURT: I think I would rather focus on the
Speedy Trial Act, rather than the statute of [3]
limitations.
MR. LEEPER: Very well, Your Honor. I’ll begin with
the law. The parties have not found a single case that
held that the government satisfied its Sixth Amendment diligence obligation by filing an Indictment
under seal, waiting for years for the possibility of making a surprise arrest where the defendant’s location
was known.

240a
In fact, to the contrary, Mr. Khoury has cited numerous cases in the Fifth Circuit and five other circuits
that have held that waiting is not diligence. And that
the government has an obligation to attempt to notify
a defendant or his lawyer when the defendant’s location or the identity of his lawyer is known, once the
delay becomes prejudicial.
I mentioned a few cases here and elsewhere in my
argument, Your Honor. I’ll give spellings to Ms.
Forrest at the conclusion of the hearing.
THE COURT: Yeah, okay.
MR. LEEPER: Here, in the Fifth Circuit, Bergfeld.
Velazquez in the Third Circuit. Heshelman and Brown
in the Sixth Circuit. Mendoza [4] in the Ninth Circuit.
And Handa and Shelton, two District Court cases out
of the First Circuit and Seventh Circuit, respectively.
They all held that waiting is not diligence, and the government has to make an attempt to notify the
defendant.
The government, here, is asking Your Honor to
make a new law, and make it on bad facts, very bad
facts. Among the many bad facts in this case are that
the government publically smeared Mr. Khoury,
accused him of a crime before indicting him under seal;
immediately triggering a right, a due process right, to
a forum for vindication. That right was immediate.
The prosecutors knew all along where Mr. Khoury
was, who his lawyer was. The prosecutors waited a
decade for the theoretical and increasingly improbable
opportunity to make a surprise arrest. In the last four
years of this delay, the prosecutors affirmatively
blocked Mr. Khoury’s efforts to learn whether or not
he’s been charged. This is the very antithesis of the

241a
serious effort required by the Supreme Court in
Doggett.
The government showing of supposed diligence in
this case is almost exclusively [5] argument, not evidence. In the Fifth Circuit, government arguments in
their brief about such things as what the prosecutors
considered, decided, intended, their beliefs and reasoning, their justifications for sealing Indictments.
Those arguments are not evidence. And they are insufficient, as a matter of law, to satisfy the government’s
diligence obligation.
In the Cardona case, in reversing Judge Quinn’s
denial of the defendant’s motion to dismiss, the Fifth
Circuit said something so apt, appropriate for this
case, that I want to read it. Fifth Circuit said, and I
quote: The government argued in its opposition that it
was diligent.
THE COURT: They what? I’m sorry. The government argued. . .
MR. LEEPER: Diligent.
Offering reasons for its delay and explaining efforts
to track Cardona down. But did not support its memorandum with a single shred of evidence then or at
another hearing. The record provides no evidence of
the government’s diligence in attempting to locate
Cardona, as it contains no evidence whatsoever of the
government’s intentions and efforts. The government’s
argument and brief [6] are not evidence.
We’ll be talking about this case. Aside from the
Diffusion Notices, there is nothing in the record. No
testimony. No declaration from the responsible prosecutors or agents regarding the most fundamental
questions.

242a
THE COURT: Let me see if I got the timeline right.
Mr. Khoury was indicted November 24, 2008. The government issued a diffusion to 12 countries in May of
2009.
Did the government do anything else before 2019?
MR. LEEPER: They did one other thing in 2015,
Your Honor. They —
THE COURT: Reissued the diffusion.
MR. LEEPER: They hit the Diffusion Notice resend
button. That is one of the many open questions, as to
which Your Honor is entitled to have evidence as to
what was going on in that time period. Beginning with:
Why was the Indictment sealed when Mr. Khoury had
already been accused of a crime publicly? Did the prosecutors consider that at the time the Indictment was
returned in November of 2008, the evidence was
already 20 years stale? Why did the Indictment
remain sealed after those [7] Diffusion Notices that
were issued in May of 2009, confirmed that Mr.
Khoury was not traveling outside of Lebanon? Why
was there no activity or further inquiry for six more
years? When did the prosecutors come to believe that
Mr. Khoury, in effect, knew of the charges as the government now argues in its brief? And if, indeed, they
believe that, why did the Indictment need to continue
to be sealed? And why didn’t the prosecutors engage
with the Lebanese authorities?
The Diffusion Notices, which are the only evidence,
actual evidence of what little the government did in
this case, are actually evidence of neglect. Not diligence. As Your Honor noted, they issued those in May
of 2009. They confirmed that Mr. Khoury was not traveling. They didn’t do a single other thing over the next

243a
nine years that the Indictment was sealed, except hit
the resend button in 2015.
The government’s showing on extradition is especially weak. The fact that there is no extradition treaty
between United States and Lebanon is beside the
point, because the Justice Department has extradited
defendants successfully from Lebanon. There is no
evidence in this record [8] of the responsible prosecutors even considering extradition; much less contacting someone at the Department of Justice, Office of
International Affairs, or the State Department to
inquire about what might be available and permissible
under Lebanese law.
And the former prosecutors who handled this matter, and any office of International Affairs lawyer or
State Department lawyer who would know whether
extradition was considered, who would be in a position
to explain whether or not it was available, those witnesses are exclusively within the control of the United
States. And their absence in this matter, Your Honor,
is conspicuous.
There is also no evidence in this record that Lebanon
would not extradite a dual U.S./Lebanese citizen, like
Mr. Khoury. The law that Mr. Khoury cited in his brief
in his opening — excuse me, in his reply brief at Note
4, the Lebanese law on its face indicates that extradition is available.
In the Seventh Circuit, in the Hijazi case, observed
that Lebanon very well may extradite its own nationals. And in all the cases cited in the government opposition about the [9] futility of extradition, in every
single one of those cases, the government introduced
evidence. The testimony of a lawyer who handled the
investigation or a lawyer from the Office of Interna-

244a
tional Affairs, contemporaneous diplomatic cables and
other evidence to prove what was available and what
was not available.
Of course, Your Honor, the discussion in the government’s brief about extradition and its futility — supposed futility, it’s just a diversion. Because, after all,
extradition is necessary only where the government
has given the accused notice of the charges and an
opportunity to appear voluntarily, and the accused has
chosen not to appear. Here, the government usurped
that choice. They determined by fiat that there would
be no speedy trial for Mr. Khoury.
So being unable to make a proper showing of diligent, the government falls back on the argument that
Mr. Khoury, in effect, knew of the charges. That claim
is directly at odds with the position that the government took earlier in this case.
On March 22, 2018, Mr. Romano stood at this
podium and said the following: Mr. Khoury [10] seeks
the same relief that he sought three years ago. That is,
to unseal and dismiss an Indictment, an alleged
Indictment that he does not know to exist.
He was saying that Mr. Khoury didn’t know about it
in 2014. He didn’t know about it, still, in 2018. And
this, in effect, new argument is also inconsistent with
the position that the government is taking in its opposition brief that it was necessary to continue to keep
the Indictment sealed and that the prosecutors could
not notify the Lebanese authorities, because to do so
might alert Mr. Khoury to the charges.
So the government is being more than a little schizophrenic about this. Mr. Khoury knew the charges,
but, then again, he did not. Of course, on top of all this

245a
inconsistency and illogic, it’s the law of the case that
Mr. Khoury did not know of the charges prior.
THE COURT: I agree. I agree.
MR. LEEPER: Just when — Your Honor, under the
government’s theory, just when was Mr. Khoury supposed to come to the United States and stand by to be
indicted? Was it in March of 2004 when KBR
announced that the company was under [11] investigation for foreign corporate practice violations? Should
he have come then and sit by for five years? Was it in
August of 2006 when he voluntarily came to be interviewed by the prosecutors? Should he have stood by for
several more years waiting to be indicted? Of course
not.
He had every right to continue to live in the country
of his birth where he had been residing for several
years. And that is because he had every right to
believe that the prosecutors, who smeared him publicly in the Stanley case, would charge him publicly or
not charge him at all.
Your Honor, I want to spend just a few minutes on
prejudice. We demonstrated, in our brief, that Mr.
Khoury is entitled to the presumption of prejudice
under the Barker analysis. We gave examples of recent
Fifth Circuit cases like Whitlock that showed how this
presumption is nearly impossible to overcome. Whitlock
involved recorded drug buys, actually had recordings.
And the presumption of prejudice was not overcome in
that case.
But I want to spend just a few minutes to refer to
our overwhelming evidence of actual prejudice. In
Exhibit E to our Memorandum, [12] we provided Your
Honor a list of 12 witnesses who died while —

246a
THE COURT: I think that is hard to controvert.
MR. LEEPER: We had another one die. As we
explained in our reply brief, Number 13, Guy Gerro,
who gave testimony in the Doe proceeding, which I’ll
refer to in just a minute, he died earlier this year.
These 13 witnesses, including Mr. Gerro, would
have testified about the importance of consultants in
the LNG industry; about Mr. Khoury’s particular
value to KBR on specific projects identified in the
Indictment and his work on those projects at undermarket rates, lower-than-market rates; about the multiple approvals required by the KBR process for consulting contracts.
And they would testify that Mr. Khoury had already
performed the services that enabled KBR to obtain
those projects before he was ever awarded consulting
contracts. On top of that, several of them would have
given favorable character testimony on his behalf.
And, of course, the decade of delay [13] would affect
the memories of whatever few witnesses are still
around and their ability to recall events, some of which
occurred as far back as the late 1980s. Should Mr.
Khoury choose to testify in his defense, the jury well
could be skeptical about his ability to recall details of
events that occurred 30 years ago.
So, Your Honor, because of this significant actual
prejudice, we have a gross violation of Mr. Khoury’s
speedy trial rights. And actual prejudice makes the
tolling effect of a sealed Indictment disappear under
the Sharpe case.
THE COURT: Okay. Thank you very much. Mr.
Romano?
MR. ROMANO: Good afternoon, Your Honor.

247a
Your Honor, in addressing the speedy trial, I would
like to focus on what the government thinks are the
main points, rather than going through all the arguments set forth in our motion to respond. Certainly,
the Court has already received a lot of briefing on the
motions.
THE COURT: You can assume I’ve read all that, too.
MR. ROMANO: Exactly. Exactly.
I would like to just begin and [14] really focus most
of my points on the second Barker factor. That is a
requirement the government exercise reasonable diligence in trying to apprehend the defendant. And the
reason I start there is because, as the Court knows, if
the government did exercise reasonable diligence,
well, there is no presumption of prejudice and the burden is on the defendant to show specific and actual
prejudice from the passage of time in the case.
And the law, here, in terms of what the government
must do is that the government need not make heroic
or extraordinary efforts.
THE COURT: I agree with you on that. But I’m not
sure — I’m not sure the government did even the bare
minimum here. That is the part that concerns me.
MR. ROMANO: If I may start, perhaps, just laying
the landscape of what the government was facing. And
let me start by responding to Mr. Leeper’s arguments
about how we haven’t established that extradition
would be futile.
THE COURT: Okay.
MR. ROMANO: We think we have. There is no
extradition treaty between Lebanon and the United
States.

248a
[15] THE COURT: Is this a legal question or question of fact?
MR. ROMANO: I think it can be either one. Here, it
is a legal question. I think it’s quite clear. Not only is
it that the absence of an extradition treaty, but
Lebanese law does not allow for the extradition of a
Lebanese national.
I’ll start, first, by saying to this Court’s prior order
from last year, June 11th, this Court observed — and
I think it’s one of the last orders before the Indictment
was unsealed. The Court observed that Mr. Khoury is
in a country from which he cannot be extradited. The
Court was absolutely correct there.
If the Court looks at two provisions of Lebanon’s
Penal Code, Articles 32 and 20. Article 32 states that
with respect to offenses over which Lebanon will exercise personal jurisdiction, that type of offense won’t
give rise to extradition. And Article 32 crossreferences, among other things, Article 20. And Article
20 defines one form of personal jurisdiction as offenses
that were committed — or conduct committed by a
Lebanese national abroad that would qualify as an
offense under Lebanese law.
[16] Article 20 states: Lebanese law is applicable to
any —
THE COURT: Slowly now. Slowly.
MR. ROMANO: Lebanese law is applicable to any
Lebanese defendant who is acting outside Lebanese
territory as a perpetrator, instigator, or accomplice,
commits a felony or misdemeanor that is punishable
under Lebanese law.
So you have Article 32 that says no extradition, if
it’s an offense over which Lebanon will extradite —

249a
exercise personal jurisdiction. And you have Article 20
that says Lebanon exercises personal jurisdiction over
conduct committed abroad by Lebanese nationals.
That would be a crime under Lebanese law.
And, of course, if it’s not a crime under Lebanese
law, then you don’t have dual criminality, and then
Article 33 would prohibit extradition.
So we think it’s quite clear, from Lebanon’s Penal
Code, as a matter of law, that Lebanon will not extradite one of its own nationals.
THE COURT: The fact that he has dual citizenship
doesn’t change things?
MR. ROMANO: I don’t think Article 32 [17] gets
overridden by Article 31, which is a provision that Mr.
Leeper is relying upon, just because Mr. Khoury also
had U.S. citizenship.
And, of course, the law is — and these are cases we
cite on page 14 of our brief. The law is clear that it
would be futile for the government to make an extradition request. And then that’s not required under the
second Barker factors.
And Mr. Leeper referred to evidence put on in those
cases that we cite, the Blanco, the Bagga case, CoronaVerbera, with respect to the extradition practices.
Well, each of those three cases, I believe, there was an
extradition treaty between the country and the United
States. Here, you don’t even have a bilateral extradition treaty. We think the provisions of Lebanese law
are quite clear and preclude extradition.
THE COURT: What were you hoping? What was the
best-case scenario when you sent out the diffusion?
MR. ROMANO: The best-case scenario was that Mr.
Khoury travel to a third country. It was certainly rea-

250a
sonable for the government to believe he might. He
had family in the United States. So it was a possibility
he might then go to a third [18] country to visit his
daughter.
I would like to take a moment and just walk
through, quickly, the steps the government did take.
Because I think the defense is glossing over certain
things and minimizing its significance. So I would like
to cover that very briefly.
First, within two months of the Indictment being
returned, the government had the sealed arrest warrant entered into the NCIC database. This is an
exhibit we submitted with our motion in response. So
it gets — the warrant gets entered into that database.
By doing that, that would alert border officials here
in the United States if Mr. Khoury were ever, by
chance, to attempt to reenter the United States. The
defense might minimize that. But, certainly, the cases
point out where the government had not done that.
That is done within two months. Within six months,
you have the issuance of the wanted person diffusion
or the Diffusion Notice by Interpol U.S.
And contrary to the defense’s arguments, that was a
significant step. As part of that process — well, first,
as the Court knows, the notice requests the assistance
of 12 countries in [19] securing the apprehension of
Mr. Khoury. These are 12 countries the government
believed he was most likely to travel to.
And as part of that process, the government had to
commit, had to undertake to formally request that Mr.
Khoury’s provisional arrest and his extradition, if one
of those 12 countries located and detained Mr. Khoury.

251a
And contrary to the defense, this was not just a onetime request that gets renewed or where the government presses resend in 2015. The Diffusion Notice
stays in the Interpol system. And the 12 countries who
received it originally have access to it. To be sure, the
government did need to reissue that. That was done in
2015. But the information is still in the database.
THE COURT: So is there a procedure, if you reup
every five years, every six years?
MR. ROMANO: Correct. My understanding is that
was five years. And around the five-year mark was
when the proceedings on the first motion to unseal and
dismiss the Indictment, the first miscellaneous action
occurs. That gets litigated out. I can’t recall —
THE COURT: I want to understand the [20] government’s position on this. Are you saying the government did everything it possibly could have done?
MR. ROMANO: I am, Your Honor.
THE COURT: It may be. It may be that’s all you can
do. But it seems like, over the course of — the denial
was issued in 2008. Over the course of ten years, it
seems like a very modest effort.
Now, if that’s the most you could do, that is to be
acknowledged. But that — I would have thought that
by now, where the focus has been on the Middle East,
there would have been something more the government could have done.
MR. ROMANO: For purposes of the second Barker
factor, again, the government doesn’t have to do everything. It doesn’t have to take extraordinary efforts
or things that it believes would be futile. I will admit,
it turned to whether or not the government should
have unsealed.

252a
But in terms of what the government practically
could have done, this case is very similar to the
Tchibassa case. This is a case out of the DC Circuit,
where there was an 11-month — excuse me, 11-year
period between the return of the [21] Indictment and
the arrest of the defendant. And the DC Circuit
rejected a speedy trial challenge to the Indictment. It
found that it was the defendant who was responsible
for most of that 11-year delay, because he was living,
by choice, in a country from which he could not be
extradited. He was — it was in then-Zaire, and there
was no extradition treaty.
In fact, in Tchibassa, even worse for the government, I think, than they are here. In Tchibassa, the
government waited, I think it was two years before it
issued the Interpol notice. It was a red notice in
Tchibassa. In Tchibassa, the defendant actually goes
to the U.S. Embassy a couple of times in Zaire.
Here, there’s no evidence that Mr. Khoury, in effect,
stepped on the equivalent of U.S. soil by going to the
U.S. Embassy or U.S. Consulate in Lebanon.
So I think what Tchibassa recognizes is that when
you have a defendant who, for whatever reason — I’m
not asking the Court to get in the mind of Mr. Khoury.
Whatever his mindset was, he chose to move to
Lebanon before the Indictment and remained there.
That is undisputed, I think.
[22] For whatever reason, he did. But when that
happens and the government has no practical ability
to get him extradited, there is little that can be done.
And for purposes of the second Barker factor, it’s now
counted against the government.
I would like to, Your Honor, turn to the question of
sealing and also address Mr. Leeper’s argument about

253a
the absence of evidence in the record about the government’s decision-making.
The question is whether there was a reasonable
basis for the government to request that the Indictment remain under seal and to seal it to begin with.
And, Your Honor, there was, as I mentioned, still the
possibility that Mr. Khoury might travel to visit a family member to a third country.
THE COURT: Let me make sure I understand
where we are. We’re going through the Barker factors.
Is that right?
MR. ROMANO: That’s correct. I’m still on the second one.
THE COURT: You concede the length of delay would
justify a speedy trial analysis; right?
[23] MR. ROMANO: Correct. Correct.
THE COURT: And so we’re now on whether he
promptly asserted his right to speedy trial?
MR. ROMANO: No. I’m still on the second factor. I
really do think that is a significant factor here,
because if the government — if the Court were to find
that the government exercised reasonable diligence.
THE COURT: Okay.
MR. ROMANO: Then the defendant has to show —
I’m happy to address the third factor.
THE COURT: That’s all right. That’s fine.
MR. ROMANO: I’m moving away back from there.
But I’m just focusing on — and this gets back to
Your Honor’s question about: What else could the government have done? Certainly, Mr. Khoury’s argu-

254a
ment is that the government could have unsealed the
Indictment, at least give Mr. Khoury notice.
And my argument is, first, the government had a
reasonable basis to believe that if it had any chance of
picking up Mr. Khoury on the arrest warrant, it was
that he might travel to a [24] third country to visit a
family member. The government had a reasonable
basis for believing that Mr. Khoury was not interested
in confronting the charges against him.
Again, not to repeat myself, but I’m not asking the
Court to get into the mindset of Mr. Khoury. This is
just the information available to the government.
Mr. Khoury lived in the United States for about 15
years. He relocates and moves to Lebanon in 2004. He
stops all travel to the United States except for once
when he comes to meet with the government under
safe passage protection. That was before the
Indictment.
He’s aware of the possibility of charges. We indicated it in our motion response that there were conversations between the government and Khoury’s counsel
about the possibility of charges before the Indictment.
So he’s on notice of a possibility of being charged. He
still does not travel to the United States anymore.
Faced with all of that, the government could reasonably believe that he was not interested in confronting
the charges against him.
Now, let me turn to this allegation [25] that the government, quote, smeared him in the Stanley case. The
Court has heard these arguments about the Doe case
before, so I won’t belabor that. The government’s position is that it adequately anonymized Mr. Khoury
when it referred to him in the Stanley proceedings.

255a
I think the real take-way from the Doe case is, this
is a civil case that Mr. Khoury brings. I believe it was
filed in 2015, alleging due process from what the government said during the Stanley proceedings. The
take-away from that is really the outcome of the case.
The District Court dismissed that complaint as timebarred. The Fifth Circuit agreed that it was timebarred. That is the holding of the Fifth Circuit in Doe.
And if that’s the case, if Mr. Khoury was dilatory in
asserting his due process claims, I think that supports
the reasonableness of the government’s view that he
was never interested in coming and confronting any
criminal charges against him. I think the reasonable
inference for the government to draw was that he
waited so long to raise these due process allegations,
the speedy trial claims here, when he first moved to
unseal and dismiss the Indictment.
[26] He was trying to make the government’s evidence in the criminal case grow stale and let the statute of limitations’ clock run. At least that’s a reasonable inference for the government to have drawn. So we
think there was a reasonable basis for the Indictment
to remain under seal.
Fourth point, still on the second Barker factor. In
response to Mr. Leeper’s argument that the government did not set forth evidence of its decision-making
as to why it kept the Indictment under seal, why it
issued the Diffusion Notice.
Your Honor, I just disagree with the argument. I will
quickly go through what’s in the record in terms of
evidence. You have the original motion to seal the
Indictment that is filed. That is Docket Entry 4. That
sets forth the basis for the government’s request to
seal the Indictment. That is, to facilitate the defend-

256a
ant’s arrest; i.e., not to tip him off and confirm formally
that he’s been charged.
You have a motion to modify the sealing order that
was filed shortly thereafter. This is Docket Entry 7.
We filed that motion for permission to allow the government to share the [27] sealed arrest warrant and
the Indictment with law enforcement. Domestic law
enforcement, and I believe Docket Entry 7 also cites
foreign law enforcement. That foreshadows our
attempts to ask for the assistance of Interpol members
in securing Mr. Khoury’s apprehension.
Of course, the Court has in-camera Interpol communications that we submitted those in-camera.
THE COURT: Yes, yes.
MR. ROMANO: We provided a lot of those communications to Mr. Khoury.
There is also a Declaration from the current case
agent about the entry of the arrest warrant in the
NCIC database. That is an exhibit to our motion for
response.
You have an earlier Declaration from a government
employee that was filed. This was filed in connection
with the Fugitive Disentitlement litigation that was
last summer. It’s Docket Entry 16-1. And it describes
Mr. Khoury’s travel records; that he traveled frequently out of and into the United States before 2003,
2004, and then that travel drops off.
And you have the provisions of [28] Lebanese law
concerning extradition that I’ve already discussed.
All of that provides a record of the government’s
decision-making in this case. It’s different from the
Cardona case. The quote in Cardona is the government presented no evidence of the government’s

257a
intentions and efforts. There is ample evidence of the
government’s efforts. I would submit that the government’s intentions are clear from that evidence. I don’t
think the Court needs a declaration or testimony from
the former case prosecutors or agents to analyze and
assess the government’s efforts in this case.
So just to summarize on the second Barker factor,
and then I’ll turn to prejudice and sit down unless the
Court has questions. The government took significant
steps here to try and get hands on Mr. Khoury and
effectuate his arrest.
Again, when you have a defendant who, for whatever reason, decides to remain in a country from which
he cannot be extradited, there is only so much the government can do. Defense counsel will always be ill to
allege something in hindsight that the government
could have done, but that’s not the standard under the
second Barker factor.
[29] And because we believe it weighs in the government’s favor, the burden is on the defendant to show,
under the fourth Barker factor, that the passage of
time has resulted in —
THE COURT: That’s almost always true. It’s passage of time that makes evidence harder to obtain and
witnesses become unavailable.
MR. ROMANO: I think it’s Doggett. I believe we cite
this in the prejudice portion of our brief. But I think
the Doggett case recognizes that prejudice — also the
unavailability of witnesses and the staleness also
affects the government case.
THE COURT: Well, our concern, under due process
analysis, is with the accused, I think.

258a
MR. ROMANO: Let me just respond, because Mr.
Khoury has proffered particular types of testimony
from allegedly deceased witnesses. And I would like to
respond to why I do not think that proffer of testimony
is enough to carry his burden.
I would like to begin, quickly, with a recap of what
the Indictment charges and alleges. As the Court
knows, it charges conspiracy, mail fraud, and wire
fraud. And the crux of the allegations are that Mr.
Khoury and Stanley engaged in a kickback scheme;
that Albert Stanley used his [30] position and influence as the head of Kellogg and the KBR to steer
lucrative consulting contracts to Mr. Khoury’s company
in exchange for kickbacks from Khoury to Stanley.
THE COURT: The injured party here is KBR, right?
MR. ROMANO: I’m sorry?
THE COURT: The injured party here is KBR?
MR. ROMANO: Right. They were the ones in
default.
THE COURT: In an earlier generation, this would
have been a civil suit probably, wouldn’t it have been?
KBR suing Mr. Khoury to discourage his ill-gotten
gains.
MR. ROMANO: I don’t know. There could have, but
I don’t want to comment on the viability of that separate suit. I don’t think there was anything unusual
about us charging as mail fraud. This classic deprivation of money or property from Kellogg — by Kellogg
and KBR.
The Indictment charges that there was wire transfers totaling about $11 million that go — this is the
kickback money that goes from Khoury-controlled
accounts to Stanley-controlled [31] accounts. It

259a
charges that those wire transfers were concealed and
that KBR and Kellogg didn’t know about them.
So just to address these categories of proffered testimony that is now unavailable. One category is that
Mr. Khoury allegedly provided valuable consulting
services. Well, Your Honor, that is fine, but that’s no
defense to a charge. If he is getting contracts because
he’s paying kickbacks to Albert Jack Stanley, it’s still
a crime whether or not the services he performs under
the contract are valuable.
Whether his fees were under market. Your Honor, I
think every consulting contract that is charged or
alleged in the Indictment was for over $10 million. So
these are still very lucrative contracts. Again, no
defense, if he’s charging less than competitors. He’s
certainly charging enough to kick back, according to
the allegations in the Indictment, $11 million.
That other individuals are involved in the contracting process. That is — those are large companies. That
it wouldn’t be usual to have other individuals involved
in the contracting process. Again, no defense to a conspiracy to use [32] — for Stanley to use his influence
to steer the contracts to Mr. Khoury in exchange for
kickbacks.
The contention that a witness would say Mr. Khoury
already performed these services. He still needed to
get paid. If there is not a formal contract, you know,
he’s not going to get paid.
So I do not believe that any of the lost testimony that
has been proffered by Mr. Khoury is, in fact, exculpatory. We do not believe that he has carried his burden
under the fourth Barker factor. And because the
balance —

260a
THE COURT: Tell me what would happen now. Tell
me, if I denied the motion to dismiss, what then happens? We still don’t have a lawsuit. We still don’t have
a criminal prosecution to pursue, do we?
MR. ROMANO: Well, Your Honor, we’ve said this
throughout these proceedings that
Mr. Khoury today has never indicated his willingness to come —
THE COURT: No, he hasn’t.
MR. ROMANO: — and face the charges. And where
we’re left, the government shouldn’t be penalized if the
Barker test —
THE COURT: But the issue is whether we [33] dismiss the indictment or whether we leave the indictment in place and just let it lie fallow.
MR. ROMANO: It stays in place. I believe so.
THE COURT: Nothing happens?
MR. ROMANO: Well —
THE COURT: Either way, nothing happens; right?
MR. ROMANO: Your Honor, I think that Mr.
Khoury should — you know, as it has been, it’s been
up to him to come and face these charges, certainly
since the Indictment has been unsealed. But that’s,
you know, simply because things might remain status
quo.
THE COURT: Was there a reason the Indictment
could be unsealed in 2018 and not in 2010?
MR. ROMANO: I’m sorry?
THE COURT: Was there a reason the Indictment
could have been unsealed in 2018 and not in 2010?

261a
MR. ROMANO: I think the government saw the
Court’s interim order that came out last year where —
THE COURT:
jeopardized?

But

has

anything

been

[34]

MR. ROMANO: No. Certainly, the passage of time
has shown that Mr. Khoury by now is not going to
travel to a third country. Certainly, now that it’s been
unsealed and, certainly, with passing years and he
hasn’t traveled.
The government —
THE COURT: Okay.
MR. ROMANO: Well, I don’t want to go back over
points I’ve already made.
THE COURT: I want to talk to my colleagues for a
minute. No one needs to rise.
(Court in recess.)
THE COURT: Mr. Romano, as to whether the government did everything it could, didn’t the government do more in other cases? Didn’t they have a red
notice or whatever it’s called?
MR. ROMANO: Yes, Your Honor. And there is a difference between, as the Court probably knows, between
a red notice and a Diffusion Notice. A red notice would
go out to all Interpol members. And that was what was
issued after the Indictment was unsealed.
And the reason that they’ve written down this was
not issued, Your Honor, is because it [35] would have
gone to Lebanon. And I think there is proof in the record what happened when Lebanon got the red notice
after the Indictment was unsealed.

262a
So the government was concerned. The reason it
went with a Diffusion Notice that was targeted, as
opposed to a red notice, is because the government was
concerned that Mr. Khoury would have been tipped off
to the charges if the government had issued the red
notice. And, in fact, that is — we know that is what
happened. And given the impediment to extradition by
— from Lebanon to the United States to Mr. Khoury,
the government, you know, went the route of the
Diffusion Notice.
The bottom line is that, you know, it wouldn’t have
mattered. Mr. Khoury did not travel from Lebanon.
THE COURT: Isn’t the truth of the matter — is it
“Khoury” or “Cory”? We’ve heard both.
MR. ROMANO: Well, I’ll defer to
Mr. Leeper. I thought it was Mr. Khoury.
MR. LEEPER: “Cory.”
THE COURT: Thank you.
Mr. Khoury, he’s already — punishment has already
been exacted, hasn’t it? [36] Mr. Khoury has had to live
now for a decade and a half with a strong suspicion, at
least, that he was under Indictment. It’s restricted his
travel. It’s inhibited his ability to stay in contact with
his family.
Any time we mention an individual’s name in connection with federal prosecution, that’s, by itself,
heavy punishment, isn’t it?
MR. ROMANO: Your Honor, the Indictment was
under seal.
THE COURT: But he’s had a strong suspicion.

263a
MR. ROMANO: Well, he’s had a strong suspicion.
And that corroborates the government’s view that he
was never interested in coming to face the charges.
Now, again, there’s a question of whether — I don’t
know if this — part of Your Honor’s question goes back
to this allegation that he was effectively named in the
Stanley proceeding. We don’t believe that he was. But
he had a chance to raise that claim.
And the fact that District Court and Fifth Circuit in
Doe finds that he didn’t raise that timing, I think,
speaks volumes of fact that [37] he — at least the reasonableness of the government’s view that he did not
want to come and face charges. He wanted the case to
grow stale. He wanted the limitation clock to run
before he emerged from the safety of the Lebanon to
assert due process claims in the civil case and speedy
trial allegations, you know, the miscellaneous actions
that are now in this case. The strategy backfires in the
civil case.
You know, those questions about what happened in
the Stanley proceedings were for the civil case to be
addressed in the civil case.
THE COURT: Okay. Anything further?
MR. ROMANO: Nothing further.
THE COURT: Thank you very much.
You can have another turn at bat if you want.
MR. LEEPER: Let me start with the Tchibassa case
that Mr. Romano said is just like this case. It’s T-C-HI-B-A-S-S-A. I know that case well, because it was
decided in my home district. And it’s not at all like this
case. The government in Tchibassa did two things that
the government did not do here.

264a
After the Indictment had been [38] sealed for twoand-a-half years, they notified Mr. Tchibassa of the
charges. They did that by sending communication to
Interpol in Zaire. Interpol met with Mr. Tchibassa,
advised him.
And there was a transcript of that meeting. And the
trial judge in the District Court in Washington and the
DC Circuit relied on that transcript as showing, both,
diligence on the part of the government to satisfy its
obligation to make the defendant aware of the charges;
and the defendant, in turn, having the opportunity to
come and confront the charges, and he did not.
The second thing that the government did in that
case that the government didn’t do here is that when
Mr. Tchibassa moved from Zaire to Congo, the United
States government made a written request to the Congolese authorities to arrest him and to hold him for
extradition. And the Congolese authorities, for whatever reason, did not honor that request. So the case is
very much unlike this case here. The kinds of things
that should have been done here were done in
Tchibassa.
Mr. Romano represents that extradition is not available. With all due respect, he’s not an authority on
extradition. Where are the [39] Department of State
lawyers who could inform the Court as to whether
Articles 32 and 20 had anything at all to do with
extradition of nationals? I respectfully suggest that
they do not.
THE COURT: You think he could have been
extradited?
MR. LEEPER: I certainly do. I certainly do.

265a
THE COURT: That is a huge factor. We don’t have
any proof from you either, do we?
MR. LEEPER: Well, but I don’t have the burden.
THE COURT: No, you don’t, but. . .
MR. LEEPER: And the reason that I say what I say
is twofold. Number one, the Justice Department has
successfully extradited individuals from Lebanon,
despite the absence of a treaty. We cited a 2016 example in our reply brief.
And, secondly, when the government finally did
notify the Lebanese authorities via red notice, the
Lebanese authorities brought Mr. Khoury in and
detained him and seized all of his travel documents.
Has the government made a request since that time
for extradition? They have not. Is there any impediment to having made that request today? [40] There is
not.
This notion that somehow the Lebanese will be
tipped off. And I come back —
THE COURT: They know it.
MR. LEEPER: — with what I began with. Either
Mr. Khoury knew about the charges or he didn’t. As
my father used to say, The government is talking out
of both sides of its mouth. Because they’re claiming
that he’s to blame for the delay because he knew about
the charges and decided to stay in Lebanon. But yet,
they’re trying to excuse their lack of inaction.
THE COURT: Their lack of action?
MR. LEEPER: Lack of action, thank you. I can use
all the help I can get.

266a
Lack of action by pointing to the fact that he would
have been alerted to the charges if they had notified
Lebanon.
We had this list of so-called action that Mr. Romano
rattled off, starting with the motion to seal the Indictment and putting a warrant in the system and making
this first Diffusion Notice request in May of 2009. All
of that might support the argument that it was reasonable for the government to seal the Indictment [41]
for six months. But he hadn’t said a word about what
the government did — because they didn’t do anything
— in the six years after the first round of Diffusion
Notices were sent.
There comes a point in time, Your Honor, when this
notion that Mr. Khoury might travel, might see his
daughters, might be caught by surprise, becomes
merely theoretical.
As the Supreme Court has said in Doggett, the government didn’t bother to question its own increasingly
questionable strategy. And that is what we have here,
Your Honor, an increasingly questionable strategy.
Ultimately, the cases that I listed when I began my
argument, beginning with Bergfeld in the Fifth Circuit, say that waiting is not diligence. And once the
waiting leads to prejudicial delay, then the government
—
THE COURT: Well, it seems to me everything, just
about, hinges on whether the government has or has
not done everything it could have. If it’s done everything it could have, then I don’t know that Mr. Khoury
should be the beneficiary of the gradual erosion of the
evidence. If they haven’t done everything the government could have [42] done, then it seems that, quite
rightly, should be counted against the government.

267a
MR. LEEPER: Well, of course, they haven’t done
everything they could have done, because they never
gave him notice. I’m going to take the Tchibassa case,
which is Mr. Romano’s case.
THE COURT: But that one, he had notice. He’s not
coming forward. It’s not as if notice was going to make
a big difference in his conduct.
MR. LEEPER: Well, the notion that the government
is trying to sell in his briefs that Mr. Khoury has
refused to submit to the jurisdiction of the Court is a
false premise. Because Mr. Khoury has never said he
would not submit to the jurisdiction of this Court.
Your Honor has permitted him to make his arguments through counsel. They’re legal questions. And
under Rule 43(B)(3), he’s permitted to do that, so long
as Your Honor authorizes that.
THE COURT: Yeah, I know that.
MR. LEEPER: Your Honor has never directed him
to appear personally.
THE COURT: If it makes any difference, I’m happy
to do that.
MR. LEEPER: I don’t think it makes a [43] difference, Your Honor, for the reason that the government
has the burden, and they haven’t met it.
At this stage, remember, when the government
finally agreed to unseal the Indictment, it was ten
years old. So the charges were already fatally stale.
The speedy violation had already occurred.
Does it make sense to require Mr. Khoury to run the
travel gauntlet, to come to the United States through
countries which have received the Diffusion Notice
where he would be arrested and incarcerated? That

268a
would simply reward the government for not doing
what they did in the Tchibassa case. After two-and-ahalf years, they made sure that Mr. Tchibassa knew.
That way, he had the choice.
THE COURT: Okay. Okay. Thank you. Mr. Romano,
could we have extradited Mr. Khoury?
MR. ROMANO: Thank you, Your Honor. I appreciate the question. I just want to respond to that. No,
Your Honor.
To address a couple things
Mr. Leeper just said. The example of the 2016 extradition that Mr. Khoury cited in his reply [44] brief, it’s
not a Lebanese national. The Court need only pull the
press release that’s cited there. The Court will see that
this is a national Senegal — I believe it’s Senegal and
Morocco who is extradited, not a Lebanese national.
The government was also entitled to rely on the
Court’s order from last year of June 11th where it
recognized and observed that Mr. Khoury is in a country from which he cannot be extradited. The Court
absolutely got it right when it said that.
THE COURT: Well, I’m not as confident as you are
I got it right. I would feel better if we had something
from the State Department saying there is no extradition treaty.
MR. ROMANO: The government is prepared. If the
Court would like to hear that evidence, the government is prepared to present it. We thought — we think
it’s clear from the law. That is why we did not present
it here. We think it’s clear from Article 32 and 20. But
—
THE COURT: I would like to give you 30 days to
submit that evidence.

269a
MR. ROMANO: Okay. And does the Court have any
preference as to the form of that evidence, [45]
whether it’s by —
THE COURT: No. Declaration or memorandum,
either one.
MR. ROMANO: Okay.
THE COURT: Thank you.
(Proceedings concluded.)
————
[46] CERTIFICATE
I hereby certify that pursuant to Title 28, Section
753 United States Code, the foregoing is a true and
correct transcript of the stenographically reported
proceedings in the above matter.
Certified on August 26, 2019.
/s/ Nichole Forrest
Nichole Forrest, RDR, CRR, CRC

270a
APPENDIX W
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed March 9, 2020]
————
Crim. No. 08-cr-763
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAMIR KHOURY,
Defendant.
————
NOTICE OF APPEAL
Samir Khoury hereby appeals to the United States
Court of Appeals for the Fifth Circuit from: (1) the
Memorandum and Order entered in this action on the
24th day of February, 2020 [Doc. No. 51], which
supplemented and amended (2) the Memorandum and
Order entered in this action on December 6, 2019 [Doc.
No. 47]. The Indictment in this case was returned
under seal on November 24, 2008, and remained
sealed for nearly ten years, until July 9, 2018. The
District Court has found that numerous defense
witnesses have died during the decade-long sealing,
and defendant’s ability to preserve documents and
testify in his own defense has been impaired. See [Doc.
No. 47] at 5, 10 (“the Court agrees that Mr. Khoury
has suffered substantial actual prejudice between the
sealing and unsealing”) (quoting United States v.
Sharpe, 995 F.2d 49, 51 (5th Cir. 1993)). The decision

271a
of the District Court declining to dismiss the Indictment—notwithstanding its conclusive determination
that defendant has suffered irreversible prejudice,
which makes it impossible for him to receive a fair
trial—is effectively final or, alternatively, is reviewable under the collateral order doctrine.
The Court of Appeals could also exercise mandamus
jurisdiction, and defendant will petition for a writ in
the alternative. The defendant’s right not to be subjected to a trial in-name-only will be lost if he must
await conviction and appeal from final judgment
before his constitutional claims are heard. His right to
a writ is clear and indisputable, and issuance is appropriate under the circumstances, where the District
Court disregarded precedent of the Fifth Circuit Court
of Appeals, and the United States Supreme Court, in
reasoning that defendant has a duty to bring himself
to trial.
Dated: March 9, 2020

/s/ Charles S. Leeper
Charles S. Leeper
(admitted pro hac vice)
FAEGRE DRINKER
BIDDLE & REATH LLP
1500 K Street NW, Suite 1100
Washington, DC 20005
Telephone: (202) 842-8877
Facsimile: (202) 842-8465
Email: Charles.Leeper
@faegredrinker.com

272a
David Gerger
GERGER, KHALIL &
HENNESSY LLP
1001 Fannin Street, Suite 2450
Houston, Texas 77002
Telephone: (713) 224-4400
Facsimile: (713) 224-5153
Email: DGerger@gkhfirm.com
Counsel for Defendant
Samir Khoury
————
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing Notice of Appeal was filed and served electronically by the Court’s CM/ECF system on this 9th
day of March, 2020.
/s/ Charles S. Leeper
Charles S. Leeper

273a
APPENDIX X
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
————
Misc. No. 17-2553
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAMIR KHOURY,
Defendant.
————
FILING OF EXHIBIT 1 FROM
MARCH 22, 2018 HEARING
Mr. Khoury files to make part of the record the
attached Exhibit 1, which was identified and discussed
at the March 22 hearing.
Respectfully Submitted By:
/s/ Charles Leeper
Charles S. Leeper
DRINKER BIDDLE
& REATH LLP
1500 K Street Northwest
Washington, DC 20005-1209
Telephone: (202) 842-8800
Email: charles.leeper@dbr.com

274a
/s/ David Gerger
David Gerger
GERGER KHALIL
& HENNESSY LLP
1001 Fannin Street, Suite 2450
Houston, Texas 77002
Telephone: (713) 224-4400
Email: dgerger@gkhfirm.com
————
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing pleading was served via electronic mail on
this 27th day of March 2018 upon:
JOHN-ALEX ROMANO
UNITED STATES DEPARTMENT OF JUSTICE
Trial Attorney, Fraud Section
1400 New York Avenue Northwest
Bond Building
Washington, DC 20530
JOHN PEARSON
ASSISTANT UNITED STATES ATTORNEY
1000 Louisiana Street, Suite 2300
Houston, TX 77002
/s/ David Gerger
David Gerger

277a
APPENDIX Y

Death Certificate of Guy Michel Gerro
Dated May 15, 2019

278a
APPENDIX Z
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed May 24, 2019]
————
Case No. 4:08-cr-763
————
UNITED STATES OF AMERICA
v.

Plaintiff,

SAMIR KHOURY,
Defendant.
————
DECLARATION OF PAUL K. ZUKAS
IN SUPPORT OF GOVERNMENT’S
OPPOSITION TO DEFENDANT’S
RENEWED MOTION TO DISMISS
I, Paul K. Zukas, declare under penalty of perjury
that the following is true and correct:
1. I have been a Special Agent with the Federal
Bureau of Investigation (“FBI”), for 16 years, assigned
to the Chicago, Illinois division for approximately 13
years and currently assigned to the Houston, Texas
division for approximately the past three years. During the entirety of that time, I have worked only on
criminal cases, including, among others, complex white
collar crimes, and international and domestic public
corruption.

279a
2. I have reviewed records pertaining to defendant
Samir Khoury’s (“Defendant”) arrest warrant and
travel documents.
3. Based on my training and experience, I know that
the National Criminal Information Center (“NCIC”)
contains electronic records of various kinds, including
wanted person files, that law enforcement can access.
4. Based on my review of the NCIC records, an
arrest warrant was issued for the Defendant on or
about November 24, 2008 and was active within the
NCIC’s database as of on or about January 13, 2009.
5. I also reviewed passports for the Defendant
issued by the United States. Based on my review, the
Defendant’s last issued United States passport expired
on or about February 19, 2014. No subsequent passport has been issued.
I declare under penalty of perjury under the laws of
the District of Columbia that the foregoing is true and
correct, and that this declaration was executed on May
22, 2019 at Washington D.C.
/s/ Paul K. Zukas
Paul K. Zukas
Special Agent
Federal Bureau of Investigation
Houston Division
1 Justice Park Drive
Houston, Texas 77092
(713) 936-7222

